<html>
<title> - H.R. 280, H.R. 704, H.R. 1399, H.R. 1594, H.R. 1618, H.R. 1798, H.R. 1862 AND H.R. 2909</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 280, H.R. 704, H.R. 1399, H.R. 1594, H.R. 1618, H.R. 1798, H.R. 
                          1862 AND H.R. 2909

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 16, 2003

                               __________

                           Serial No. 108-69

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-893              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 16, 2003.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     9
        Prepared statement on H.R. 2909..........................    11
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     3
        Prepared statement on H.R. 1399..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     2
    Schiff, Hon. Adam, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement on H.R. 704...........................     7
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado, on H.R. 1399..................................     8

Statement of Witnesses:
    Bear, Leon D. Chairman, Skull Valley Band of Goshute Indians, 
      Salt Lake City, Utah.......................................    55
        Prepared statement on H.R. 2909..........................    57
    Groene, Scott, Southern Utah Wilderness Alliance, Washington, 
      D.C........................................................    51
        Prepared statement on H.R. 2909..........................    52
    Hardiman, Mike, Legislative Director, American Land Rights 
      Association, Washington, D.C...............................    63
        Prepared statement on H.R. 704...........................    64
    Hughes, Jim, Deputy Director of Land Management, Bureau of 
      Land Management, U.S. Department of the Interior, 
      Washington, D.C............................................    14
        Prepared statement on H.R. 2909..........................    15
    Johnson, Randy, Deputy Director of Planning for Public Lands, 
      State of Utah, Salt Lake City, Utah........................    48
        Prepared statement on H.R. 2909..........................    49
    Loman, Jeffrey, Acting Director, Trust Services, Bureau of 
      Indian Affairs, U.S. Department of the Interior, 
      Washington, D.C............................................    15
        Prepared statement on H.R. 2909..........................    15
    Pease, Gerald F., Jr., Associate Director for Ranges and 
      Airspace, U.S. Air Force, Washington, D.C..................    18
        Prepared statement on H.R. 2909..........................    19
    Portantino, Hon. Anthony, Member, Santa Monica Mountains 
      Conservancy Advisory Committee, La Canada Flintridge, 
      California.................................................    59
        Prepared statement on H.R. 704...........................    61
    Tiller, deTeel Patterson, Acting Associate Director, Cultural 
      Resources, National Park Service, U.S. Department of the 
      Interior, Washington, D.C..................................    20
        Prepared statement on H.R. 280...........................    22
        Prepared statement on H.R. 704...........................    25
        Prepared statement on H.R. 1399..........................    26
        Prepared statement on H.R. 1594..........................    28
        Prepared statement on H.R. 1618..........................    30
        Prepared statement on H.R. 1798..........................    32
        Prepared statement on H.R. 1862..........................    35


  LEGISLATIVE HEARING ON H.R. 280, TO ESTABLISH THE NATIONAL AVIATION 
    HERITAGE AREA, AND FOR OTHER PURPOSES; H.R. 704, TO DIRECT THE 
SECRETARY OF THE INTERIOR AND THE SECRETARY OF AGRICULTURE TO CONDUCT A 
     JOINT SPECIAL RESOURCES STUDY TO EVALUATE THE SUITABILITY AND 
  FEASIBILITY OF ESTABLISHING THE AREA KNOWN AS THE RIM OF THE VALLEY 
 CORRIDOR AS A UNIT OF THE SANTA MONICA MOUNTAINS NATIONAL RECREATION 
AREA IN THE STATE OF CALIFORNIA, AND FOR OTHER PURPOSES; H.R. 1399, TO 
 REVISE THE BOUNDARY OF THE BLACK CANYON OF THE GUNNISON NATIONAL PARK 
AND GUNNISON GORGE NATIONAL CONSERVATION AREA IN THE STATE OF COLORADO, 
   AND FOR OTHER PURPOSES; H.R. 1594, TO DIRECT THE SECRETARY OF THE 
   INTERIOR TO CONDUCT A STUDY OF THE SUITABILITY AND FEASIBILITY OF 
ESTABLISHING THE ST. CROIX NATIONAL HERITAGE AREA IN ST. CROIX, UNITED 
STATES VIRGIN ISLANDS, AND FOR OTHER PURPOSES; H.R.  1618, TO ESTABLISH 
THE ARABIA MOUNTAIN NATIONAL HERITAGE AREA IN THE STATE OF GEORGIA, AND 
FOR OTHER PURPOSES; H.R. 1798, TO ESTABLISH THE UPPER HOUSATONIC VALLEY 
NATIONAL HERITAGE AREA IN THE STATE OF CONNECTICUT AND THE COMMONWEALTH 
 OF MASSACHUSETTS, AND FOR OTHER PURPOSES; H.R. 1862, TO ESTABLISH THE 
    OIL REGION NATIONAL HERITAGE AREA; AND H.R. 2909, TO ENSURE THE 
 CONTINUED AVAILABILITY OF THE UTAH TEST AND TRAINING RANGE TO SUPPORT 
         THE READINESS AND TRAINING NEEDS OF THE ARMED FORCES.

                              ----------                              


                       Thursday, October 16, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 1334, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Duncan, Cannon, 
Peterson, Bishop, Tom Udall, Mark Udall and Bordallo.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands will come to order. 
Today, we are conducting a hearing on the following bills: H.R. 
704, H.R. 1399 and H.R. 2909. Our first bill is H.R. 704, 
introduced by Congressman Adam Schiff of California. It 
authorizes the Secretary of the Interior to conduct a special 
resources study to determine the feasibility and suitability of 
establishing an area known as the Rim of the Valley as a unit 
of the Santa Monica Mountain National Recreation Area. Our 
second bill is H.R. 1399, introduced by our Committee 
colleague, Congressman Scott McInnis of Colorado, authorizing 
the Secretary of the Interior to revise the boundary of the 
Black Canyon of the Gunnison National Park and Gunnison Gorge 
National Conservation Area in the State of Colorado.
    Our third bill, H.R. 2909, introduced by our Subcommittee 
colleague, Congressman Rob Bishop of Utah, would ensure the 
continued availability of the Utah Test and Training Range to 
support the readiness and training needs of the armed forces. 
In addition, the Subcommittee will receive testimony from the 
National Park Service on H.R. 280, 1594, 1618, 1862, and 1798, 
legislation to either establish a National Heritage Area or 
authorizing a study to establish a National Heritage Area. The 
Administration was unable to present its testimony before the 
Subcommittee on most of these bills on September 16.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    The Subcommittee will come to order.
    Good afternoon. The Subcommittee on National Parks, Recreation and 
Public Lands will conduct a hearing today on the following bills--H.R. 
704, H.R. 1399 and H.R. 2909.
    Our first bill, H.R. 704, introduced by Congressman Adam Schiff of 
California, authorizes the Secretary of the Interior to conduct a 
special resource study to determine the suitability and feasibility of 
establishing an area known as ``Rim of the Valley'' as a unit of the 
Santa Monica Mountain National Recreation Area.
    Our second bill, H.R. 1399, introduced by our Committee colleague, 
Congressman Scott McInnis of Colorado, authorizes the Secretary of the 
Interior to revise the boundary of the Black Canyon of the Gunnison 
National Park and Gunnison Gorge National Conservation Area in the 
State of Colorado.
    Our third bill, H.R. 2909, introduced by our Subcommittee 
Colleague, Congressman Rob Bishop of Utah, would ensure the continued 
availability of the Utah Test and Training Range to support the 
readiness and training needs of the Armed Forces.
    In addition, the Subcommittee will receive testimony from the 
National Park Service only on H.R. 280, H.R. 1594, H.R. 1618, H.R. 
1862, and H.R. 1798, legislation to either establish a national 
heritage area or authorize a study to establish a national heritage 
area. The Administration was unable to present its testimony before the 
Subcommittee on most of these bills on September 16.
    I would ask unanimous consent that Mr. Schiff be permitted to sit 
on the dais following his statement. Without objection, so ordered.
    I understand that our Ranking Member, Ms. Christensen will not be 
here today and I ask unanimous consent that her statement be submitted 
for the record. Without objection, so ordered.
                                 ______
                                 

    Mr. Radanovich.I would also ask unanimous consent that Mr. 
Schiff be permitted to sit on the dais following his statement. 
Without objection, so ordered. And I understand that our 
Ranking Member, Mrs. Christensen, from the Virgin Islands, will 
not be here today, and I ask unanimous consent that her 
statement be submitted for the record. With no objection, so 
ordered.
    Mr. Radanovich. Gentlemen, welcome to the Committee. Our 
colleague, Chairman of the Forest Subcommittee, Mr. McInnis, is 
with us. Scott, welcome to the Committee, and please begin your 
testimony on your bill.

 STATEMENT OF HON. SCOTT MCINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. Thank you, Mr. Chairman.
    Mr. Chairman, I do thank you for holding the hearing on 
this bill, H.R. 1399, the Black Canyon of the Gunnison National 
Park and Gunnison Gorge National Conservation Area Boundary 
Revision Act of 2003. I introduced similar legislation in the 
107th, and I appreciate the important step forward with today's 
hearing.
    In 1999, I introduced legislation that established this 
Park and National Conservation Area, so my love of this place 
and belief in its continued protection is obvious. As you know, 
Mr. Chairman, I am a strong believer in local consensus and the 
preservation of Western values. The Park and the NCA were 
established on those ideals, and I am pleased that the bill I 
bring before you today continues on that path. H.R. 1399 does 
four things: first, it authorizes the Secretary to acquire up 
to 2,725 acres through purchase or exchange with three 
willing--and I stress willing--landowners. Second, it ensures 
that grazing rights are transferred with these exchanges. 
Third, it guarantees that water facilities used to irrigate the 
farm land in the Incompadre Valley remain available under the 
Bureau of Reclamation jurisdiction for the local water users 
association to operate. And last, the land incorporates BLM 
into the NCA that was in the process of being acquired prior to 
the passage of the 1999 legislation.
    Legislation was originally scheduled for a hearing last 
June, after Senator Campbell successfully sought it in the U.S. 
Senate. I pulled the bill, however, because I wanted to ensure 
that the water rights involved with those land transactions 
would remain protected for the people of the State of Colorado. 
After working with the landowners and the conservation fund, I 
am now comfortable with the commitment that the landowners have 
made and am eager to see this bill move forward.
    This bill seeks to protect valuable natural resources by 
working cooperatively with three local ranchers who have been 
good stewards on their land for years. Unfortunately, these 
landowners have hit hard financial times and were considering 
selling their parcels. Thankfully, they have put preserving the 
integrity of the Park over subdividing the land and building 
condominiums. Instead, they approached the Park Service and 
came up with innovative alternatives to sell outright, which 
required this legislation. Local county commissioners, the 
local Chamber of Commerce and the land trusts involved support 
these proposals, and the Park will develop additional public-
private partnerships to manage this beautiful area.
    In short, the three landowners have entered into either 
equal value land swaps or agreed to conservation easements 
across that land. The Brandolet family has agreed to an equal 
exchange of parcels which will give them easier access while 
enhancing the landscape of the Park. The Allison family will 
exchange both a fee simple parcel of land and a conservation 
easement, providing the family with more acreage to their ranch 
while allowing the Park to protect a key area. Last, the 
Sandburg family plans to donate a portion of their property to 
the Park for a conservation easement to preserve their resource 
values they have protected for many decades.
    Again, Mr. Chairman, I want to strongly emphasize that all 
of these exchanges came about at the request of the landowners. 
These families have lived and ranched in the area for many 
years, and this bill benefits them both through the land 
transfers and through the fact that it preserves the ranchers' 
livelihoods by clarifying that grazing rights are retained 
through these transfers.
    As you know, Mr. Chairman, water rights in the West are 
vital to our livelihood, and even the murmur of losing control 
of them is enough to start a stampede. That is why the language 
has been included in this bill to guarantee that the Bureau of 
Reclamation retains jurisdiction and access to water delivery 
facilities. The Incompadre Valley Water Association is doing a 
great job ensuring that the valley is irrigated. I want to make 
sure that they can continue to keep the farmers in business.
    My 1990 bill establishing the Park did not intend to affect 
the Bureau's jurisdiction in any way, and neither does this 
boundary modification. I am aware that the Administration has 
submitted a few technical amendments, which I would be glad to 
consider if the bill moves to markup. For instance, the acreage 
should be modified to 2,530 acres, as a portion of the property 
was transferred since the bill's introduction. And we need to 
revise the date on the map that should go to April 2, 2003.
    The Black Canyon of the Gunnison Gorge is a national 
treasure enjoyed by all. The Park's combination of geological 
wonders and diverse wildlife make it one of the most unique 
natural areas in the country. I am proud to represent the area 
and believe this legislation will greatly benefit those who 
live in the area and all of those who visit the Park.
    Mr. Chairman, I would ask that a written copy of my 
statement be submitted to the record and any revisions made 
thereof, and again, I thank the Chairman and the Committee for 
the privilege of appearing in front of you.
    [The prepared statement of Mr. McInnis follows:]

Statement off The Honorable Scott McInnis, a Representative in Congress 
                from the State of Colorado, on H.R. 1399

    Mr. Chairman, thank you for holding this hearing on my bill, H.R. 
1399, the ``Black Canyon of the Gunnison National Park and Gunnison 
Gorge National Conservation Area Boundary Revision Act of 2003.'' I 
introduced a similar bill in the 107th Congress and I appreciate this 
important step forward with today's hearing.
    In 1999, I introduced legislation that established this Park and 
National Conservation Area, so my love of this place and belief in its 
continued protection is obvious. As you know, Mr. Chairman, I am a 
strong believer in local consensus and the preservation of western 
values. The Park and NCA were established on those ideals, and I am 
pleased that the bill I bring before you today continues on that path.
    H.R. 1399 does four things. First, it authorizes the Secretary to 
acquire up to 2,725 acres through purchase or exchange with three 
willing landowners. Second, it ensures that grazing rights are 
transferred with these exchanges. Third, it guarantees that water 
facilities used to irrigate the farmland in Uncompahgre Valley remain 
available under the Bureau of Reclamation's jurisdiction for the local 
water users association to operate. Lastly, the bill incorporates BLM 
land into the NCA that was in the process of being acquired prior to 
the passage of the 1999 legislation.
    This legislation was originally scheduled for a hearing last June, 
after Senator Campbell successfully saw it through the Senate. I 
requested the hearing be put off for a period of time while I worked to 
ensure the transactions involving the water rights involved would 
protect the water rights and the transactions were fair for all 
involved. After working with the landowners, the Park Service and The 
Conservation Fund, I am now comfortable with the commitment that the 
landowners have made and am eager to see this bill move forward.
    This bill seeks to protect valuable natural resources by working 
cooperatively with three local ranchers who have been good stewards of 
their land for years. Unfortunately, these landowners have hit hard 
financial times and were considering selling off their parcels. 
Thankfully, they have put preserving the integrity of the Park over 
subdividing land and building condominiums. Instead, they approached 
the Park Service and came up with innovative alternatives to selling 
outright, which required this legislation. The local county 
commissioners, the local Chamber of Commerce, and the land trusts 
involved, support these proposals, and the Park will develop additional 
public/private partnerships to manage this beautiful area.
    In short, the three landowners have entered into either equal value 
land swaps or agreed to conservation easements across their land. The 
Bramlett family has agreed to an equal exchange of parcels, which will 
give them easier access while enhancing the landscape of the Park. The 
Allison family will exchange both a fee simple parcel of land and a 
conservation easement, providing the family with more acreage to ranch, 
while allowing the Park to protect a vulnerable area. Lastly, the 
Sanburg family intends to donate a portion of their property to the 
Park for a conservation easement to preserve the resource values that 
they have protected for many decades.
    Again, I want to strongly emphasize that all of these exchanges 
came about at the request of the landowners. These families have lived 
and ranched in the area for many years and this bill benefits them both 
through the land transfers and the fact that it preserves the ranchers' 
livelihoods by clarifying that grazing rights are retained through 
these transfers.
    As you know, Mr. Chairman, water rights in the West are vital to 
our livelihood and even the murmur of losing control of them is enough 
to start a stampede. That is why language has been included in this 
bill to guarantee that the Bureau of Reclamation retains jurisdiction 
and access to water delivery facilities. The Uncompahgre Valley Water 
User's Association is doing a great job ensuring that the valley is 
irrigated; I want to make sure they can continue to keep the farmers in 
business. My 1999 bill establishing the Park did not intend to affect 
the Bureau's jurisdiction in any way, and neither does this boundary 
modification.
    I am aware that the Administration has submitted a few technical 
amendments, which I will be glad to consider if the bill moves to 
markup. For instance, the acreage should be modified to ``2,530 
acres,'' as a portion of the property was transferred since the bill's 
introduction and the date on the map needs to be changed to ``April 2, 
2003.''
    The Black Canyon of the Gunnison Gorge is a national treasure to be 
enjoyed by all. The Park's combination of geological wonders and 
diverse wildlife make it one of the most unique natural areas in North 
America. I am proud to represent the area and believe that this 
legislation will greatly benefit those who live in the area and all who 
visit the Park.
    I ask that a copy of my statement be printed in the record.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you, Scott. I appreciate your 
testimony.
    Also here to speak is the Hon. Adam Schiff. Adam, if you 
want to begin your testimony, I will be happy to hear 
information about your bill.

  STATEMENT OF HON. ADAM SCHIFF, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Thank you, Mr. Chairman.
    Good afternoon, members of the Subcommittee. I appreciate 
the opportunity to testify before you today in support of H.R. 
804, the Rim of the Valley Quarter Study Act. Earlier this 
year, the Senate unanimously passed S. 347, essentially 
identical legislation to H.R. 704, introduced by Senator 
Feinstein. I am very delighted also to have the support of the 
National Park Service with minor changes that they have 
recommended.
    H.R. 704 would call for a study by the National Park 
Service and the U.S. Forest Service of the feasibility and 
suitability of expanding the Santa Monica Mountains National 
Recreation Area. The Rim of the Valley consists of parts of the 
Santa Monica Mountains, the Santa Susana Mountains, San Gabriel 
Mountains, Verdugo Mountains, San Raphael Hills and adjacent 
connector areas to the Los Padres and San Bernardino National 
Forests.
    The Rim of the Valley is a beautiful recreation area and 
home to very rare environmental treasures, including one of the 
most endangered habitat areas in the world, the Mediterranean 
Chaparral ecosystem, found only here and in South Africa, 
believe it or not.
    This beautiful, environmentally sensitive area is located 
in one of the most densely populated areas in the United 
States. The Greater Southern California metropolitan region has 
the nation's second-largest urban concentration. About one in 
every 10 Americans lives in this region. At the same time, the 
area has one of the lowest ratios of park and recreation lands 
per 1,000 population of any area in the country. So this 
rapidly growing urban region is very underserved in terms of 
parks, open space and recreation. Unless action is taken soon, 
the situation will only grow worse, as the region continues to 
grow.
    Since Congress set aside the Santa Monica Mountains 
National Recreation Area in 1978, Federal, state and local 
authorities have worked in cooperation to manage what is the 
world's largest urban park. Now, nearly a quarter of a century 
later and in the face of tremendous projected growth and 
development, Congress, by passing this bill, again will have 
the opportunity to safeguard and supplement the existing state 
and local parks, open space and recreational opportunities in 
Southern California.
    We have amended the bill in response to comments from the 
National Park Service. First, the bill now authorizes a joint 
study between the Department of the Interior and the Department 
of Agriculture, since the Rim of the Valley incorporates some 
lands that are now managed by the Park Service and others by 
the Forest Service. Together, these two services can decide the 
most appropriate way to protect the land for future 
generations.
    And second, we eliminated from the bill explicit provisions 
for a 17-member advisory commission. This provision was felt by 
the Park Service to be unnecessary, as this type of resource 
study conducted by the Park Service automatically entails 
extensive public outreach to communities and local governments.
    With these changes, we were pleased that the National Park 
Service testified in support of the identical bill in the 
Senate and supports the bill here with minor modifications. 
This legislation enjoys strong bipartisan support from 
Republican and Democratic members of Congress, whose members 
include portions of the Rim of the Valley, including 
Representatives Howard Berman, David Dreier, Buck McKeon, Brad 
Sherman, Hilda Solis as well as George Miller but also enjoys 
the support of largely Republican and Democratic communities, 
including La Canada, and we have a Councilmember from the 
largely Republican area of La Canada with us today, Anthony 
Portantino.
    I want to thank you for this opportunity to testify on the 
bill and ask for your support, and I would be glad to respond 
to any questions.
    [The prepared statement of Mr. Schiff follows:]

Statement of The Honorable Adam B. Schiff, a Representative in Congress 
               from the State of California, on H.R. 704

    Good afternoon, Chairman Radanovich and members of the 
Subcommittee. I appreciate the opportunity to testify before you today 
in support of H.R. 704, the Rim of the Valley Corridor Study Act. 
Earlier this year, the Senate unanimously passed S. 347--essentially 
identical legislation to H.R. 704 introduced by Senator Diane 
Feinstein.
    H.R. 704 would call for a study by the National Park Service and 
the U.S. Forest Service of the feasibility and suitability of expanding 
the Santa Monica Mountains National Recreation Area. The Rim of the 
Valley consists of parts of the Santa Monica Mountains, the Santa 
Susanna Mountains, the San Gabriel Mountains, the Verdugo Mountains, 
the San Rafael Hills, and adjacent connector areas to the Los Padres 
and San Bernardino National Forests. The Rim of the Valley is home to 
very rare environmental treasures, including one of the most endangered 
habitat areas in the world, the Mediterranean Chaparral ecosystem, 
found only here and in South Africa.
    This environmentally sensitive area is located in one of the most 
densely populated areas in the United States. The greater Southern 
California metropolitan region has the nation's second-largest urban 
concentration; about one in every ten Americans lives in this region. 
At the same time, this area has one of the lowest ratios of park-and-
recreation-lands per thousand-population of any area in the country. So 
this rapidly growing urban region is very underserved in terms of open 
space needs. Unless action is taken soon, this situation will only 
worsen as the region continues to be subjected to intense growth.
    Since Congress set aside the Santa Monica Mountains National 
Recreation Areas in 1978, federal, state and local authorities have 
worked in remarkable cooperation to manage what is the world's largest 
urban park. Now, nearly a quarter-century later and in the face of 
tremendous projected population growth and development pressures, 
Congress, by passing this bill, again will have the opportunity to help 
safeguard and supplement the existing state and local parks, open space 
and recreational opportunities in Southern California.
    We have amended this bill in response to comments from the National 
Park Service. First, the bill now authorizes a joint study between the 
Department of Interior and the Department of Agriculture, since the Rim 
of the Valley incorporates some lands that are now managed by the Park 
Service and others managed by the Forest Service. Together, the 
National Park Service and the U.S. Forest Service can decide on the 
most appropriate way to protect these lands for future generations. A 
second, we eliminated from the bill explicit provisions for a 17-member 
advisory commission. This provision was felt to be unnecessary, as this 
type of special resource study, conducted by the National Park Service, 
automatically entails extensive public outreach to communities and 
local governments.
    With these changes we were pleased that the National Park Service 
testified in support of the identical bill in the Senate.
    This legislation enjoys strong bipartisan support by Republican and 
Democratic Members of Congress whose district includes portions of the 
Rim of the Valley Corridor, including Representatives Howard Berman, 
David Dreier, Howard ``Buck'' McKeon, George Miller, Brad Sherman and 
Hilda Solis. I thank you for your attention, and ask for your support 
for the Rim of the Valley Corridor Study Act.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Schiff, for your 
testimony. I appreciate that.
    Are there any other opening statements by any other members 
on the dais? John? Mr. Udall? OK.

STATEMENT OF HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Mark Udall. If I might, Mr. Chairman, I just wanted to 
express my support for my colleague, Mr. McInnis' important 
legislation. He has been, along with Senator Campbell, a father 
of the Black Canyon of the Gunnison National Park, and I know 
he has worked very hard to bring this bill back for a second 
time. I look forward to supporting it and working with him, and 
hopefully, we can convince the Senate to move with dispatch so 
that the adjustments to the boundary can be made, and that park 
can continue to thrive and be the great resource like Yosemite 
is in your district, Mr. Chairman.
    Mr. Radanovich. There is no resource like Yosemite, Mark.
    Mr. Mark Udall. I do not know if we want to go there or 
not.
    With that, Mr. Chairman, I appreciate the time.
    Mr. Radanovich. Thank you, Mr. Udall. I appreciate that.
    To speak on another bill, we have our colleague Mr. Bishop, 
from Utah. I am trying to see the bill number here. It is 2909. 
Mr. Schiff, is it possible--I think there may be a couple of 
other questions or something--well, let me take an opportunity 
just to ask a couple of questions.
    Are you aware of recreational opportunities that already 
exist on private property that is within the prescribed areas 
of the monument right now? I have been talking to some people 
that do provide recreation already, and I am wondering if you 
are aware of that, and does that have an impact on the 
expansion of this area?
    Mr. Schiff. Mr. Chairman, I am not sure of the particulars. 
I would not be a bit surprised if there were private lands 
where there are recreational opportunities as well as the 
public lands. The Rim of the Valley incorporates, I think, into 
the study areas that are part privately held, part publicly 
held, probably in which there are recreation areas available on 
either.
    The advantage, should the Department of Agriculture and the 
Park Service determine that some of those areas should be 
included within the Recreation Area would be the opportunity to 
bring additional management resources to the area; the 
additional opportunity to work in public-private partnerships, 
should there be people who wish to sell property for the 
Recreation Area. As you know, there is no power of eminent 
domain, so none of those issues are implicated. But in answer 
to your question, I would assume that there are some 
recreational opportunities as you describe already there. This 
would study the possibility of augmenting those by 
incorporating the Rim of the Valley.
    Mr. Radanovich. Can you give me an idea of the percentage 
of private property that would be within the proposed area 
boundaries here?
    Mr. Schiff. The Rim of the Valley incorporates--really, I 
guess it is probably easiest to conceptualize three areas. It 
would include the Santa Monica Mountains Recreation Area, which 
is already in existence. It would include a chunk of the 
Angeles Forest; obviously, also public lands, and then, it 
would include areas of the Rim of the Valley that are in 
neither of those two categories.
    If you look at the area outside of the current Recreation 
Area that would be studied by this bill, I believe the 
percentage is 58 percent public lands and 42 percent private 
lands, so that is the current composition of what would be 
studied. And obviously, the two departments working together 
could recommend that some, all or none of those areas are 
appropriately included in the Santa Monica Mountains Recreation 
Area, and to implement whatever recommendation they make, we 
would need to bring subsequent legislation before your 
Committee.
    Mr. Radanovich. I appreciate, Mr. Schiff, your testimony.
    Any other questions of Mr. Schiff? We will let him go, so 
he does not have to wait.
    Adam, thanks.
    Mr. Schiff. Thank you, Mr. Chairman, member.
    Mr. Radanovich. All right; sorry, Mr. Bishop. Thank you for 
your patience, and you are here, of course, to describe your 
bill, and welcome. Have at it.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate doing 
that. I am pleased to be able to present a bill that I think 
has bipartisan support, at least from the entire Utah 
delegation. It is similar to a bill that this body heard in 
July of 2001, but it is a significantly scaled-down version of 
that particular bill, because we have gone out to get input 
from the local government, environmental interests and the 
Native Americans who have an interest in this, and to those 
particular groups, I want to assure that as this bill goes 
toward markup, we will continue to work with those particular 
entities to make any kind of accommodations that are possible.
    I would like if I could, though--give me the chart--to 
simply speak first about the Utah Test and Training Range, so 
the record understands what we are talking about. This Utah 
Test and Training Range, which we will show you in a moment is 
the nation's only complete land range training facility. It has 
both mountain, water, sand, desert facilities to provide live-
fire target areas under real-time conditions. As former General 
Eberhardt of Air Force Combat Command said, we could not test 
or train our aircraft to operate standoff joint precision 
weapons without complete access to the Utah Test and Training 
Range.
    In addition to the Test and Training Range, the bigger area 
that is around that area is the MOA, or the air space that is 
essential, to implement the Test and Training Range concept 
that happens to be there. That is the area that planes need, 
and as planes get faster, and we start shooting missiles from a 
longer range, it is going to be necessary in the future to 
expand that area of air space that is essential to maintain the 
training facilities of the Utah Test and Training Range.
    In this particular bill, we are talking about wilderness 
areas that, it will be noted, are very limited. The only 
wilderness and wilderness study areas that we are talking about 
are those that are specifically impacted by the Test and 
Training Range. We are establishing no new precedents that 
would go forward for any other particular areas, but there is 
precedent for making some kind of applications; for example, 
the California Desert Protection Act; the Goldwater Training 
Range Act, both of them found that you can have complementary 
systems of wilderness and training if you properly plan for 
them.
    The cooperation on our range has had a good history, but it 
is also something that is sometimes very risky. The Mountain 
Home Range, for example; its efficiency was limited or totally 
eliminated by demands on limitations of flying times and 
altitude times that we do not want to see happening here. The 
Western Environmental Law Center filed a suit in the District 
Court in the year 2000 to ban all low-level flights of the Air 
Force over public lands. Congress, of course, reacted to that 
and stopped it, but it would be wiser to have a proactive 
position that could provide both short- and long-term solutions 
to these types of issues on this sensitive area.
    We are attempting to maintain status quo activity so that 
we can retrieve personnel and aircraft that are downed in a 
wilderness study area; that we can maintain tracking systems 
that are there and preexisting before any wilderness study area 
was established. You will hear evidence from the Goshute Nation 
who will come here as the leaders. We also have testimony from 
some other members who represent a minority view of those. This 
bill is in no way trying to provide enmity toward this group.
    When I was Speaker of the House in Utah, I was the first 
one that tried to bring the seven nations in Utah to the 
Legislature to establish dialog and had the Legislature in Utah 
travel to those particular reservations. We support other 
efforts the tribes are using to try to get economic activity in 
their particular area, but the bottom line is there will be 
5,000 flights by the Air Force over areas in which they are 
presently living. There have been 24 aircraft and missile 
accidents so far, four within a mile of a proposed economic 
site which would be for nuclear spent fuel rods to be stored 
above ground.
    The Atomic Energy and Licensing Board has already issued 
some concerns as to the safety of those areas. The NRC will 
eventually come up with a recommendation, but we will present 
testimony that those concerns have a validity to them. The 
bottom line is there is one particular economic activity that 
is situated in such a place that it would do harm to the 
defense capability of this nation on an area that cannot be 
replicated anywhere else.
    Finally, the last thing I would like to say is the 
particular map you are looking at right now is talking about a 
proposed wilderness area that has a north, a central and a 
southern portion to it. It is a work in progress for those 
three parts. It is our intention to work from now until markup, 
to work with both the BLM, the Goshute Nation, 
environmentalists and local and state government to have a more 
finalized map that would protect private property rights, 
recreational hunting, Native American cultural rights, preserve 
BLM oversight and protect the land and the environment.
    But our primary--primary--issue is still to do that which 
would protect the viability of the military mission at the Utah 
Test and Training Range in a proactive way to preserve its 
function for the defense of this country forever. And Mr. 
Chairman, with that, I would, at some point--and I do not know 
when you would rather like to have that--ask unanimous consent 
to have seven other statements be part of the official record; 
if you would like for me to wait for some time, or if not, I 
would like to move that.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Bishop. Thank you.
    [NOTE: The statements submitted for the record by Mr. 
Bishop have been retained in the Committee's official files.]
    [The prepared statement of Mr. Bishop follows:]

  Statement of The Honorable Rob Bishop, a Representative in Congress 
                  from the State of Utah, on H.R. 2909

    Mr. Chairman:
    I appreciate this opportunity to testify regarding the H.R. 2909, 
the Utah Test Range Protection Act, and I thank the Chairman for 
allowing this important bill to be given a hearing.
    The language contained in H.R. 2909 is the product of years of work 
and, I strongly believe, is necessary to address encroachments and 
potential encroachments which negatively impact the military's ability 
to test and train on the Utah Test and Training Range (UTTR). The bill 
takes a small step forward in a collaborative manner in working with 
all stakeholders in designating a total of approximately 106,000 acres 
of Bureau of Land Management (BLM) lands on and near the Cedar 
Mountains as formal wilderness. I am pleased that the Utah 
Congressional Delegation has united in a bipartisan manner to introduce 
and support this legislation.
    At the outset, I recognize that the final boundaries and acreage of 
the proposed wilderness areas have not been agreed to by all parties to 
this legislation and, as the primary sponsor of the bill, I have agreed 
to try to work with them and the Committee, including the minority, to 
address those boundary issues prior to this bill moving to a markup. A 
map of the proposed Cedar Mountain Wilderness has been provided to all 
interested stakeholders as a starting point, including representatives 
of the environmental community, and is represented by what you see on 
the easel before you. This map represents the largest footprint of 
potential wilderness for the Cedar Mountains that is possible. However, 
as indicated, this map will be revised prior to markup to try and 
incorporate the legitimate concerns that surface, in large part, 
because of this hearing.
    As members of this Committee know, when it comes to wilderness 
designations, there are strong emotions on all sides of the issue. 
Unfortunately in times past, and in prior Congresses, the issues 
surrounding wilderness designation on BLM lands in the State of Utah 
and elsewhere have been very contentious and efforts at breaking a 
stalemate in Congress to enact Utah wilderness legislation has too 
often bogged down.
    This bill takes a small, but important, step forward towards 
establishing a framework whereby future wilderness legislation can be 
discussed and acted upon in a cooperative and collaborative fashion.
    To set the stage for this bill, I need to remind members of the 
fact that similar legislation was introduced in the 107th Congress by 
my predecessor, Chairman Jim Hansen, in the form of H.R. 2488, which 
was the subject of a hearing by the Subcommittee on July 26, 2001. That 
legislation, which was passed by the House of Representatives, was far 
more comprehensive in scope and far-reaching in its effects, and would 
have created formal wilderness areas in every instance where there 
exists a Wilderness Study Area (WSAs) today underneath the military's 
air space.
    The present bill, H.R. 2909 is more modest in scope. It 
concentrates on the Cedar Mountain wilderness study areas where there 
seems to be a great deal of unanimity among affected parties as to the 
boundaries, and leaves the debate as to the other WSAs in Utah's West 
Desert to a future time. Those other WSAs would remain unaffected by 
this bill. My office has sought opportunities, up-front, to involve 
representatives of the environmental community, in addition to local 
government leaders, tribal representatives, the military, recreational 
users, and private landowners, in the drafting of this language. And 
while it is not perfect, or as specific or detailed as I would 
personally prefer it to be in some areas, I believe that, as written, 
the language is acceptable in addressing the encroachments issues and 
also designating important wilderness.
    The bill can be divided into two parts. One part addresses the need 
for continued military emergency access, over flights and training 
activities affecting existing WSAs and wilderness areas in the West 
Desert of Utah underneath the ``footprint'' or Military Operating Area 
(MOA). The other part of the bill takes advantage of the opportunity to 
designate a portion of existing WSAs into BLM wilderness, taking a 
small step forward to resolving wilderness concerns in Utah's West 
Desert.
    Why is this bill necessary? The UTTR is nothing short of an 
irreplaceable national defense asset. While the Air Force is here and 
can testify from the operational and readiness points of view on the 
qualities and uses of the UTTR, I believe it is important for members 
of the Committee to realize that the UTTR is truly unique. In the past, 
the Air Force has testified that the UTTR is an irreplaceable national 
asset and to its value, and I will ask that that testimony be entered 
into the record at the appropriate time. It is the largest overland 
test and training range in the lower 48 states. In fact, the footprint 
of the airspace within the UTTR is larger than many Eastern States 
combined. It contains the largest and most flexible unrestricted air 
space of any range. Of current interest, the topography of the UTTR is 
similar to that in Afghanistan and Iraq, and the varied terrain 
provides pilot training opportunities unavailable elsewhere. The UTTR 
is also the only range under U.S. control with the size to adequately 
test our terrain-following cruise missiles. The UTTR also contains 
important munitions testing areas. Live-fire target areas are at the 
heart of training our pilots under real-time conditions.
    The UTTR is often the testing range of choice when it comes to 
proving and developing cutting-edge weapons such as the MOAB, or 
largest conventional bomb ever built by the United States, which was 
recently used in Afghanistan. Its predecessor, the ``Daisy-Cutter,'' or 
BLU-82 conventional munition, was also tested on the UTTR.
    With U.S. military weaponry relying on larger and larger distances 
and increasing the ability to shoot from larger standoff distances, 
ranges such as the UTTR will become even more valuable for ensuring 
pilot and munitions readiness and thereby strengthen our national 
defense. As our population grows and developmental encroachments take 
their tolls on military training areas across the nation, the large and 
remote spaces that the UTTR provide will only become increasingly more 
valuable.
    At the same time, there are a number of wilderness study areas that 
underlie the existing MOA. Those areas are represented by the map 
before the Committee. Military use of the airspace over these areas 
predates the 1964 Wilderness Act and the Federal Lands Management and 
Policy Act (FLMPA), and it is true that so far, there have been few 
instances of conflict between wilderness, wilderness study areas and 
the military's continued over flights and testing activities in Utah's 
West Desert. However, there are beginning to be more and more instances 
of groups filing litigation based on the wilderness act, the National 
Environmental Policy Act (NEPA) or FLMPA to stop or curtail military 
uses of public lands or airspace that lies above public lands.
    For example, the Air Force was forced to agree to significant 
altitude and time of year restrictions within the Mountain Home Range 
Military Operating Area under threat of litigation by environmental 
groups. Those restrictions now include no military overflights below 
5,000 feet in the airspace over ``Little Jack's Creek Wilderness Study 
Area'' within a 12-mile diameter circle during the months of April, May 
and June, as well as other specified public lands areas attached to the 
Mountain Home range.
    Another example includes litigation filed by the ``Western 
Environmental Law Center,'' as plaintiffs, on behalf of other 
environmental groups, in federal district court against the U.S. Air 
Force in the year 2000 alleging that low-level flights and training did 
not comply with the National Environmental Policy Act (NEPA), and which 
attempted to severely restrict the ability of the military to continue 
to overfly public lands.
    Such altitude and time-of-year restrictions being imposed on the 
UTTR would prove disastrous to this national defense testing asset.
    This bill does not set a new precedent for wilderness and military 
use. It does not create a ``lesser'' category of wilderness. Congress 
has acted previously to enact language which protects wilderness values 
while also providing for continued military uses. For example, the 
California Desert Protection Act [P.L. 103-433] designated significant 
portions of BLM lands in Southern California as wilderness while still 
preserving the ability of the Army and other services to train at Ft. 
Irwin. In the FY 2000 Defense Authorization Act, Congress authorized 
military uses of the Cabeza Prieta Wilderness Area and Wildlife Refuge 
beneath the Goldwater Training Range in Arizona [P.L. 106-65].
    This bill seeks to balance the interests and concerns of the 
necessity of military training and readiness, with those of 
preservation of public lands.
    In addition, one of the most serious encroachments upon the UTTR is 
a proposal by the Goshute Tribe on their reservation lands located in 
Skull Valley. At the present time, the Goshute Tribe has entered into 
negotiations with a private energy consortium (Private Fuels Storage, 
or PFS) to transport high-level nuclear waste for ``temporary'' storage 
on their Reservation lands. The proposal is at present before the 
Nuclear Regulatory Commission (NRC) for licensing. Further proceedings 
before the NRC have been delayed due to concerns raised by the NRC's 
Safety Board which ruled that there was a significant enough of a risk 
of a military aircraft crashing into the above-ground storage as to 
warrant further closer review.
    If licensed, the PFS nuclear waste proposal would represent a 
serious encroachment upon the use and utility of the UTTR range. The 
entry point for the Southern portion of the UTTR goes directly over 
Skull Valley and the Goshute Reservation. It doesn't take a rocket 
scientist to conclude that supersonic fighter planes loaded down with 
live bombs and above-ground storage of high-level nuclear waste located 
downwind less than 60 nautical miles from Utah's populated Wasatch 
Front containing nearly 2 million people do not mix. In 2001, over 
5,000 military aircraft flew over the Skull Valley site as low as 300 
feet. Over half of these planes carried live ordnance, including 2,000 
pound laser guided bombs. In the last 20 years, there have been over 
two dozen military aircraft or missile crashes on or near the UTTR. 
Four of these have involved crashes within a few miles of the Skull 
Valley proposed site.
    The Air Force has previously testified before the NRC that, if 
licensed, the facility would cause the Air Force to seriously curtail 
its use of the Southern portion of the UTTR, which would greatly 
diminish the capability and usefulness of this unique test asset.
    This legislation addresses this encroachment issue by prohibiting 
the BLM from issuing a right-of-way permit to construct a necessary 
rail spur across BLM lands to the Goshute Reservation. While I 
recognize that this prohibition would limit the tribe's ability to 
provide rail access to its reservation, I remain optimistic that in 
working with tribal leaders prior to markup on this legislation, that 
we may identify proposals not involving high-level nuclear waste that 
would provide needed economic opportunities for the tribe, which may 
lead to a revision of this current prohibition.
    In conclusion, I thank the Chairman for the opportunity to testify.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Bishop. Appreciate it.
    Any other questions of the panel?
    If not, we will move on to our next panel.
    Mr. Radanovich. Thank you very much, gentlemen. Panel two, 
I would like to call up now, please. It consists of Mr. Jim 
Hughes, who is the deputy director of the BLM in Washington, 
D.C.; Mr. Jeffrey Loman, acting director of trust services, 
BIA, Bureau of Indian Affairs; Mr. Gerald Pease, Associate 
Director for Ranges and Airspace of the U.S. Air Force in 
Washington; and Mr. deTeel Patterson Tiller, acting director of 
cultural resources for the National Park Service.
    If you would like to come forward, gentlemen. Gentlemen, 
welcome to the Subcommittee. As you know, we are going to go by 
the 5-minute rule here with the lights, and if you abide by 
that, please feel free to sum up on your comments, and of 
course, if you leave anything out, I am sure that this panel 
will bring it up in the form of questions afterwards.
    So we will go ahead and start with you, Mr. Hughes, and 
work every 5 minutes all the way across. Everybody will be 
given a chance to speak. And then, we will open up the panel 
for questions. Welcome, Mr. Hughes; you may begin.

 STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR OF LAND MANAGEMENT, 
          BUREAU OF LAND MANAGEMENT, WASHINGTON, D.C.

    Mr. Hughes. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today on behalf of the Department of the 
Interior on H.R. 2909, the Utah Test and Training Range 
Protection Act. The administration shares the goals of the 
sponsor of the legislation to support the continued operation 
of the Utah Test and Training Range and protection of public 
lands with special values.
    However, the Department has concerns with the bill. I will 
briefly discuss the provisions directly relevant to the BLM and 
then will defer to my colleague from the BIA on issues 
regarding the Skull Valley Indian Reservation.
    Section 5 of the bill proposes to designate the Cedar 
Mountain Wilderness Area. The bill does not provide reference 
to a specific map or the acreage of the proposed wilderness. 
Based on information provided to BLM's Salt Lake City Field 
Office, we understand that the legislation may contemplate an 
area substantially larger than the existing WSA.
    While some of this area may have wilderness characteristics 
appropriate for wilderness designation, many portions lack 
wilderness characteristics. Areas to the north of the existing 
WSA, in particular, lack wilderness characters. Only Congress 
has the authority to designate wilderness or new wilderness 
study areas. The lands encompassed in this bill contain acreage 
that was either found to be nonsuitable for wilderness during 
BLM's wilderness suitability review or was never identified as 
having wilderness characteristics in the first place.
    For that reason, the Department does not agree with the 
broad designation. However, that being said, the Department 
recognizes that only Congress has the authority to designate 
wilderness, and Congress can choose to place wilderness 
restrictions on any Federal land without regard to the 
standards that were used in the administrative review process 
that the BLM used back in the 1980s.
    The Department wants the Committee to know that there is 
extensive motorized recreational use within parts of the area 
proposed for wilderness in this bill which would be prohibited 
by the bill upon enactment.
    Sections 2, 3 and 6 directly relate to the Utah Test and 
Training Range. We believe these sections need some 
modification. We are eager to work with the Committee and the 
Air Force in a cooperative fashion to meet military mission 
requirements. We are always concerned when exceptions to 
wilderness management are brought up in bills, and so, we look 
forward to working with people on that.
    It is possible that through discussions with the Committee 
and the sponsors, we think many of these could be addressed 
very easily.
    And the Department of the Interior would be happy to work 
with the Committee and the sponsors to protect both the 
important mission of the UTTR and the conservation values of 
BLM-managed lands in its vicinity. We do encourage the Congress 
to move forward on the designation of wilderness and release of 
WSAs, and as always, we would like to provide the sponsors and 
the Committee with information on the status of these lands and 
their current uses. We would welcome the opportunity to propose 
changes to the bill, to increase manageability of the 
wilderness and ensure that we are not inadvertently affecting 
important current uses or expectations.
    And finally, the final issue that we would like to talk 
about is Section 4(b), which prohibits the issuance of 
transportation right-of-ways under Section 501(a)(6) of the 
Federal Land Policy Management Act, FLPMA, as we know it, in 
certain areas of Utah until the year 2015. There are currently 
two pending applications for transportation right-of-ways in 
the approximately 250,000 acres covered by the prohibition. 
Those applications are from Private Fuel Storage, LLC, for a 
30-mile railroad line on public land and from Broken Arrow 
Corporation for a two-mile access road, 100 feet on public 
land.
    There are also 12 existing 501(a)(6) rights-of-way in the 
proposed prohibition area. The Department of the Interior is 
concerned about the implication of this provision on existing 
right-of-way applications, future applications as well as 
potential amendments and renewals of existing authorized 
rights-of-way.
    With that, I will defer the remainder of our Department's 
testimony to Jeffrey Loman.
    Mr. Radanovich. Thank you, Mr. Hughes.
    Mr. Loman, welcome to the Subcommittee, and please begin 
your testimony.

 STATEMENT OF JEFFREY LOMAN, ACTING DIRECTOR, TRUST SERVICES, 
           BUREAU OF INDIAN AFFAIRS, WASHINGTON, D.C.

    Mr. Loman. Thank you, Mr. Chairman.
    Mr. Radanovich. You are welcome.
    Mr. Loman. I appreciate the opportunity to testify here 
today.
    H.R. 2909 would frustrate an ongoing administrative process 
that began in 1997, when the Department of the Interior issued 
a conditional 20-year lease for a spent nuclear fuel storage 
facility that would be operated by Private Fuel Storage on the 
Skull Valley Indian Reservation, which is home to the Skull 
Valley Band of Goshute Indians.
    Section 4(b) of the proposed legislation would prohibit the 
transportation rights-of-way, including the 30-mile railroad 
that Private Fuel Storage has made an application for to 
transport spent fuel to the proposed storage facility. 
Continuation of the administrative process that has been 
ongoing and includes work by the Nuclear Regulatory Commission. 
That process that is underway is important to determine if the 
proposed storage facility is viable, and that process would 
come to a halt if H.R. 2909 is enacted.
    Thank you very much for the opportunity to testify.
    [The joint statement of Mr. Hughes and Mr. Loman follows:]

 Statement of Jim Hughes, Deputy Director, Bureau of Land Management, 
 and Jeffery Loman, Acting Deputy Director, Trust Services, Bureau of 
     Indian Affairs, U.S. Department of the Interior, on H.R. 2909

    Thank you for the opportunity to testify today on behalf of the 
Department of the Interior on H.R. 2909, the Utah Test and Training 
Range Protection Act. The Administration shares the goals of the 
sponsors of the legislation to support the continued operation of the 
Utah Test and Training Range (UTTR) and to protect public lands with 
special values. However, the Department has concerns with H.R. 2909 for 
two reasons. First, the bill is not specific as to the lands that will 
be designated as wilderness, and, according to studies performed by the 
BLM, much of the area may not be suitable for wilderness designation. 
Second, the bill would frustrate an ongoing administrative review 
process that began in 1997 with the conditional approval of a 20-year 
license to receive, transfer, and store spent nuclear fuel on the Skull 
Valley Indian Reservation.
Background
    The UTTR is located in northwestern Utah and eastern Nevada within 
the Great Salt Lake Desert. Operated by the United States Air Force, 
the UTTR provides air training and test services, large force training 
exercises and large footprint weapons testing. A unique facility, it 
has the largest overland block of protected airspace in the continental 
United States. The Cedar Mountains Wilderness Study Area (WSA) is 
located in Tooele County, Utah, and covers approximately 50,500 acres 
of BLM-managed lands. On June 26, 1992, President George H. W. Bush 
submitted his Administration's recommendations to Congress on 
wilderness suitability for BLM WSAs in Utah, including a recommendation 
that the entire Cedar Mountains WSA was not suitable for wilderness 
designation. The Skull Valley Reservation is located in Tooele County, 
Utah, approximately 45 miles southwest of Salt Lake City. In 1996, the 
Skull Valley Band of Goshute Indians (Tribe) entered into a business 
lease with Private Fuel Storage, L.L.C. (PFS), a consortium of major 
utility companies, to provide a temporary storage facility for spent 
nuclear fuel on the Tribe's reservation.
    In May 1997, the Department approved the lease subject to certain 
conditions, including a complete National Environmental Policy Act 
(NEPA) review, and the Nuclear Regulatory Commission's (NRC's) issuance 
of a license. Shortly thereafter, PFS filed its license application. In 
January 2002, the NRC issued a final Environmental Impact Statement 
(EIS) on the proposed storage project. The Bureau of Indian Affairs 
(BIA), the Bureau of Land Management, and the Surface Transportation 
Board serve as cooperating agencies with the NRC on the project.
    In April 2002, the NRC Atomic Safety and Licensing Board (ASLB) 
began a series of local and statewide hearings that concluded on July 
3, 2002. The major outstanding point of contention (environmental 
justice) was dismissed on October 1, 2002.
    The ASLB issued three Partial Initial Decisions on three issues. 
First, on March 10, 2003, the ASLB ruled that the probability of an 
aircraft crash into the proposed facility would be high enough that PFS 
must analyze the potential consequences of such a crash. On May 22, 
2003, the ASLB determined that an earthquake would have no impact on 
the proposed facility. The NRC upheld this decision on August 15, 2003. 
On May 27, 2003, the ASLB ruled that PFS is financially qualified to 
construct, operate, and decommission the proposed facility.
H.R. 2909
    Major provisions of this legislation include the designation of the 
Cedar Mountains Wilderness Area, protection of military operations in 
and around the UTTR, and the prohibition on the granting of certain 
transportation rights-of-way in Tooele County, Utah. Section 5 of the 
bill proposes to designate the Cedar Mountains Wilderness Area. The 
bill does not provide reference to a specific map or the acreage of the 
proposed wilderness. Based on information provided to BLM's Salt Lake 
City Field Office, we understand that the legislation may contemplate 
an area substantially larger than the existing WSA. While some of this 
area may have the wilderness characteristics appropriate for wilderness 
designation, in the opinion of the local BLM land managers, many 
portions lack wilderness characteristics. Areas to the north of the 
existing WSA, in particular, lack wilderness qualities.
    The Administration has stated that only Congress has the authority 
to designate wilderness or new wilderness study areas. The Department 
of the Interior was delegated the authority to review and recommend 
wilderness in Section 603 of the Federal Land Policy and Management Act 
(FLPMA). That authority expired in 1993. During this review, the BLM 
identified over 20 million acres of lands with wilderness 
characteristics, but ultimately found many of those lands were not 
suitable for wilderness designation. As stated before, the BLM 
submitted its recommendations regarding suitability to President George 
H.W. Bush who, in turn, submitted them to Congress. These lands are now 
designated wilderness or have been released from WSA status by the 
Congress, or remain in wilderness study area status containing a 
combination of ``suitable'' and ``nonsuitable'' acres. The lands 
encompassed in this bill contain acreage that was either found to be 
nonsuitable for wilderness during that review, or was never identified 
as having wilderness characteristics in the first place.
    In general, the Department supports the designation of wilderness 
areas in Utah, but we would like the Committee to consider the impacts 
of designating wilderness areas where there may be ongoing incompatible 
uses. During the original WSA inventory process, and now when updating 
a land use plan and considering wilderness characteristics, the BLM 
generally looks at size, naturalness, opportunities for solitude and 
primitive (non-motorized) recreation, and other special features. The 
Wilderness Act of 1964 specifically prohibits motorized equipment in 
wilderness areas.
    The Department wants the Committee to know that there is motorized 
recreational use within parts of the areas proposed for wilderness in 
this bill. While Section 3 of the bill specifically authorizes certain 
military activities to continue notwithstanding any potential 
wilderness status, it does not do so for other uses. All other non-
wilderness uses in the designated areas, including existing motorized 
recreational uses, would be prohibited by this bill upon enactment.
    Sections 2, 3 and 6 directly relate to the UTTR. We believe these 
sections need modification. The BLM will work with the Air Force in a 
cooperative fashion to meet military mission requirements. However, 
proposed exceptions to wilderness and WSA management raise concerns. It 
is possible that through discussions with the Committee and the 
sponsors of the legislation many of these concerns could be addressed. 
In addition, many of the issues raised could be worked out 
cooperatively between the BLM and the Air Force through the use of 
Memoranda of Understanding (MOUs).
    Planning for the public lands within the area surrounding the UTTR 
has been precluded by legislation for many years. We believe the goal 
of the legislation is to lift those prohibitions and to move forward on 
planning in a collaborative fashion in consultation with the Air Force. 
However, we believe that the language in the bill is confusing on this 
point and needs clarification. While Section 4(a) appears to provide 
direction to proceed with land use planning, Section 6(b) may 
contradict that by only lifting certain planning prohibitions on the 
proposed Cedar Mountains Wilderness Area but not on the rest of the 
BLM-managed lands in the area. Likewise, Section 6(a) is confusing and 
could be construed as negating other legislative language within the 
bill.
    Section 4(b) of the legislation prohibits the issuance of 
transportation rights-of-way under Section 501(a)(6) of the Federal 
Land Policy and Management Act of 1976 (FLPMA) in certain areas of Utah 
until at least 2015. There are currently two pending applications for 
transportation rights-of-way in the approximately 250,000 acres covered 
by the prohibition. Those applications are from Private Fuel Storage 
LLC for a 30 mile railroad line on public land and from Broken Arrow 
Corporation for a 2 mile access road, 100 feet on public land. There 
are also 12 existing 501(a)(6) rights-of-way in the proposed 
prohibition area. The Department has concerns about the direct impact 
H.R. 2909 will have on the pending applications for rights-of-way, as 
well as potential amendments and renewals of existing authorized 
rights-of-way.
    The chronology of administrative actions illustrates the nature and 
scope of the administrative processes that have been completed to date. 
Likewise, the administrative processes that are pending would be 
dispositive regarding the proposed temporary storage facility. If, for 
example, the NRC does not issue a license, the project will not 
operate. Continuation of the ongoing administrative processes resulting 
from the Tribe's business lease with PFS would provide the cooperating 
agencies with an opportunity to determine whether the proposed project 
is viable as an administrative matter only. Should Congress choose to 
enact H.R. 2909, the administrative process would come to a halt. 
However, if H.R. 2909 is not enacted, in the Spring of 2004, the ASLB 
is expected to render a decision and make a recommendation to the NRC 
regarding the dispositive administrative licensing issue. The NRC will 
then issue a Record of Decision and issue or deny the license. If the 
NRC grants a license, both the BLM and the Surface Transportation Board 
would issue Records of Decision regarding the pending railroad right-
of-way application. The Department has worked closely with the Tribe to 
support them in their efforts to achieve some form of viable economic 
development on their reservation.
Conclusion
    The Department of the Interior would be happy to work with the 
Committee and the sponsors of H.R. 2909 to protect both the important 
mission of the UTTR and the conservation values of BLM-managed lands in 
its vicinity. We encourage Congress to move forward on designation of 
wilderness and release of WSAs, and, as always, we would like to 
provide the sponsors and the Committee with information on the status 
of these lands and their current uses. We would welcome the opportunity 
to propose changes to the bill to address our concerns regarding the 
suitability of certain areas for wilderness designation, to increase 
the manageability of the designated wilderness, and to ensure that we 
are not inadvertently affecting important current uses or public 
expectations.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Loman.
    Next is Mr. Gerald Pease, the associate director for ranges 
and airspace, here to speak on H.R. 2909. Mr. Pease, welcome to 
the Subcommittee and please begin your testimony.

   STATEMENT OF GERALD F. PEASE, JR., ASSOCIATE DIRECTOR FOR 
     RANGES AND AIRSPACE, U.S. AIR FORCE, WASHINGTON, D.C.

    Mr. Pease. Thank you very much, Mr. Chairman. I would like 
to thank you also for including us in the Air Force and I will 
say DOD in these discussions. As you know, the DOD and the Air 
Force have the majority of the lands that we use for our 
training and testing are public lands, most of which are BLM 
lands, and we are very interested in public lands in general, 
so thank you very much.
    My responsibilities in the Air Force are to oversee Air 
Force ranges, special use air space and other air space 
designed for military use. This, as Congressman Bishop said, 
the Utah Test and Training Range is a very large range. It has 
the largest special use air space, piece of special use of air 
space measured from the surface or near the surface within the 
continental United States. It is about 100 by 200 miles.
    The air space is situated over 2,600 square miles of DOD-
managed land, of which 1,500 square miles or so are managed by 
the Air Force, the rest managed by the United States Army. It 
is the primary training range for the pilots who fly F-16s out 
of the 388th Fighter Wing and the 419th Fighter Wing at Hill 
Air Force Base. However, all types of airframes from the 
military services fly and test and train at the Utah Test and 
Training Range. About 16,000 sorties a year are historically 
flown there within the range air space. That includes test 
sorties, B-1 sorties, B-52; over 2,500 Navy and Marine Corps 
sorties and allied force sorties as well. We also do the 
majority of our cruise missile testing, ground weapons 
training, NASA support, industry testing as well as other 
support to universities and high school research projects.
    In general, when we look at wilderness bills as they relate 
to our testing and training, we look at four issues: provisions 
for overflights, existing instrumentation sites, access control 
on the lands adjacent to the ranges themselves for safety and 
security issues, and then, the potential to do compatible 
ground operations, if you will, for military. As it relates to 
H.R. 2909 specifically, the bill lacks language authorizing the 
managers of the public lands adjacent to the range to enter 
into an MOU to ensure access of those lands are consistent with 
safety and security requirements. The second, the designation 
of certain lands as wilderness would allow ground operations. 
We would like to see the designation of certain lands that 
would allow military ground operations for testing and training 
that are considered compatible with those areas, and also, we 
would like the provision in the designation to allow us to, if 
necessary, increase our communication and instrumentation sites 
if necessary to sustain future operations.
    We do all these things in other areas with the Bureau of 
Land Management. We believe that these issues can be worked at 
the local level in an MOU format.
    I will end by saying that access to our ranges is of vital 
importance to the Air Force, DOD, other national agencies and 
civilian institutions, also, that use these ranges. Although 
our geopolitical environment remains uncertain, one aspect 
continues to be critical for the United States: that we must 
continue to test and train on military ranges while striving to 
minimize the impact of our operations on the surrounding 
communities and the environment. Future air power weapons 
systems will continue to need sufficient land and air space to 
train crews and test our weapons systems, and your kind 
consideration of these comments concerning H.R. 2909 are 
appreciated, and we welcome the opportunity to continue to work 
with our partners in the other Federal land management agencies 
and this Committee.
    Thank you.
    [The prepared statement of Mr. Pease follows:]

    Statement of Gerald F. Pease, Associate Director for Ranges and 
Airspace, Directorate of Operations and Training, Office of the Deputy 
  Chief of Staff for Air and Space Operations Headquarters, U.S. Air 
                                 Force

    My name is Gerald F. Pease, Jr. I am the Associate Director for 
Ranges and Airspace, Directorate of Operations and Training, Office of 
the Deputy Chief of Staff for Air and Space Operations, Headquarters 
United States Air Force, Washington, D.C. I am responsible for 
developing strategies and management policies to establish, modify and 
maintain Air Force ranges, special-use airspace, and other airspace 
designed for military use. Prior to my retirement from active duty, I 
served as a career Air Force fighter pilot.
Comments on H.R. 2909
    In general, during the process to designate Wilderness or other 
land use designations, we look at the Air Force and DoD operational 
requirements relating to four areas:
    1)  Overflights, particularly as they relate to special use 
airspace and low-level routes;
    2)  Existing instrumentation sites and the potential requirements 
for future ground sites;
    3)  Access control of adjacent public lands for safety or security 
reasons; and
    4)  Compatibility with ground operations that include assurance of 
emergency response capabilities.
    We are interested in ensuring that the Bill would preserve our 
ability to accomplish our test and training missions on the UTTR. In 
particular, we are concerned about access to adjacent public lands. 
Specific concerns include:
    1)  The bill lacks language authorizing managers of public lands 
adjacent to our Air Force ranges to enter into an MOU with DoD to 
ensure access to those lands is consistent with safety and security 
requirements;
    2)  The designation of certain lands as wilderness that would allow 
military ground operations for readiness testing and training 
activities that are considered compatible with those areas; and
    3)  Wilderness designations could also preclude DoD from increasing 
communication and instrumentation sites, if necessary, to sustain 
future operations.
    The legislation does affirm that continued unrestricted access to 
special use airspace, military training routes, and to the range lands 
themselves, is a national security priority, and should be integrated 
effectively with other uses for land and associated air resources.
The Utah Test & Training Range (UTTR)
    UTTR has the largest overland special-use airspace measured from 
the surface or near surface, within the continental United States (207 
by 92 nautical miles). Of the total 12,574 square nautical miles 
comprising this area, 6,010 are restricted airspace, and 6,564 are 
Military Operating Areas (MOAs). The airspace is situated over 2,624 
square miles of DoD-managed land, of which 1,490 square miles are 
managed by the Air Force.
    UTTR is the primary training range for the pilots who fly the F-16 
Fighting Falcon for the 388th Fighter Wing and the 419th Fighter Wing 
at Hill Air Force Base. However, all types of airframes from all the 
military services test and train at the UTTR. Approximately 15,800 
sorties are flown annually within the range airspace. That total 
includes approximately 390 test sorties, 650 B-1B sorties, 380 B-52 
sorties, 2,500 U.S. Navy/Marine Corps sorties, and 200 allied air 
forces sorties. Additionally, we conduct Cruise Missile testing, ground 
weapons testing, NASA support, industry testing, as well as support to 
universities and high school research projects.
Conclusion
    Continued access to our ranges is of vital importance to the Air 
Force, DoD, other national agencies and civilian institutions and 
industry. The future geopolitical environment remains uncertain, but 
one aspect continues to be critical for the success of the United 
States--we must continue testing and training on military ranges while 
striving to minimize the impact of our operations on the surrounding 
communities and the environment. Future airpower weapons systems will 
continue to need sufficient land and airspace to train aircrews and 
test weapon systems. Your kind consideration of these Air Force 
comments concerning H.R. 2909 will be appreciated. We welcome the 
opportunity to continue working on these important issues with this 
Committee.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Pease. We appreciate your 
testimony.
    Mr. deTeel Patterson, here to speak on a lot of bills.
    [Laughter.]
    Mr. Radanovich. H.R. 280, 704, 1399, 1594, 1618, 1862, 
1798, and please go that fast, because you have a lot of ground 
to cover.
    Mr. Tiller. I will do my best, Mr. Chairman.
    Mr. Radanovich. Actually, we will bend the 5-minute rule a 
little bit, since you have so many bills.

    STATEMENT OF DETEEL PATTERSON TILLER, ACTING ASSOCIATE 
     DIRECTOR, CULTURAL RESOURCES, NATIONAL PARK SERVICE, 
                        WASHINGTON, D.C.

    Mr. Tiller. Actually, I think I can get it in under that.
    Mr. Radanovich. Well, good, good, more power.
    Mr. Tiller. Thank you for the opportunity to present the 
Department of the Interior's views on seven bills before you 
today. In the interest of brevity, I will summarize my 
testimony that I already submitted to the Subcommittee.
    H.R. 704 directs the Secretaries of Agriculture and 
Interior to conduct a joint resources study on the feasibility 
of establishing the Rim of the Valley Corridor in Los Angeles 
as a unit of the Santa Monica Mountains National Recreation 
Area. The Department supports the bill with a few minor 
modifications detailed in my submitted testimony. Santa Monica 
Mountains has become a national model of collaboration among 
local, state and Federal land managers and private property 
owners, all working as joint stewards of exceptional natural 
scenic, cultural and recreational resources. We look forward to 
working with the Department of Agriculture on this important 
undertaking.
    The Department also supports H.R. 1399, which revises the 
boundary of Black Canyon of the Gunnison National Park and 
Gunnison National Conservation Area in the State of Colorado. 
We support this, as the revision confers no significant 
increases of budget or staffing on the Service. The proposal 
completes the original land intentions of the Park's authors, 
and the proposed increases are supported by willing sellers as 
well as key local elected officials, business organizations and 
local and national land trusts. In addition, H.R. 1399 
clarifies important grazing and water rights matters.
    Mr. Chairman, I would like to address the balance of the 
five bills as a whole in my remaining comments. H.R. 1594 
directs the Secretary of the Interior to conduct a study on the 
feasibility of creating the St. Croix National Heritage Area in 
St. Croix, U.S. Virgin Islands, and the remaining four bills, 
H.R.s 1862, 1798, 1618 and 280 establish respectively the Oil 
Region National Heritage Area in Pennsylvania, the Upper 
Housatonic Valley National Heritage Area in the State of 
Connecticut and the Commonwealth of Massachusetts; the Arabia 
Mountain National Heritage Area in Georgia; and last, the 
National Aviation Heritage Area in Ohio.
    The Department of the Interior supports the idea of 
national heritage areas and recognizes the success of the 23 
already-designated Federal national heritage areas. We applaud 
this important, bottom-up, citizen-based movement to protect 
and preserve critical natural and historic places across this 
great nation, places that make each of our communities unique. 
Heritage areas can serve as critical local economic generators, 
all the while being cost-effective ways to preserve these 
places for future generations using creative partnerships and 
without, importantly, the necessity of costly Federal land 
acquisition.
    However, the Department recommends that the Committee defer 
action on these five bills and on any further individual 
heritage area designations or studies until such time as a 
general heritage area program bill, establishing a national 
program, is passed. We believe that it is time to step back to 
evaluate the existing heritage areas and to develop legislative 
guidance and standards that can shape any further heritage area 
designations before we go any further.
    An umbrella national heritage area bill will serve as a 
gatekeeper and national benchmark, making clear what qualities 
any proposed area must possess; standards under which a new 
designation will occur; and performance benchmarks for an area 
to measure its continued success, ultimately ensuring that 
public dollars are well-expended.
    We have almost 20 years of experience now in administering 
this exciting concept and 23 existing heritage areas to 
evaluate and consult. We have experience, and we have the 
models. We have offered six core tests or standards of a 
national heritage area program in my submitted testimony, tests 
that any prospective heritage area must meet in order to join 
the ranks of those already designated. The National Park 
Service and the Department of the Interior do not wish to 
unnecessarily slow down this important process, and we stand 
ready to work with the Subcommittee to develop such an umbrella 
program bill.
    Mr. Chairman, this concludes my statement. I will be 
pleased to answer any questions you or other Committee member 
may have. Thank you, sir.
    [The prepared statements of Mr. Tiller follow:]

  Statement of deTeel Patterson Tiller, Acting Associate Director for 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 280

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 280, a bill to authorize the Secretary of the 
Interior to establish the National Aviation Heritage Area and update 
the Dayton Aviation Heritage Preservation Act of 1992 special resource 
study.
    The Department supports the national heritage area program but 
recommends that the Subcommittee defer action on any individual 
national heritage area designation or study bill until generic national 
heritage area legislation is enacted. The Department supports updating 
the Dayton Aviation Heritage Preservation Act of 1992 special resource 
study as outlined in Title II.
    Ideally, national heritage areas provide a cost-effective way to 
preserve nationally important natural, cultural, historic and 
recreation resources through the creation of a working partnership 
between federal, state and local entities. In addition, national 
heritage areas should be locally driven, locally supported, should not 
involve federal land acquisition or zoning, and should protect private 
property rights. At its best, this program embodies Secretary of the 
Interior Gale Norton's ``Four C's''--Communication, Consultation and 
Cooperation, all in the service of Conservation.
    Some national heritage areas, however, have not met this ideal. For 
example, some national heritage areas have been designated without a 
clear indication of the ability of the management entity to assume 
responsibility for management of the area. The management entity 
subsequently has operated the area without a clear financial plan for 
achieving self-sufficiency without federal support. Consequently, it is 
time to step back, evaluate existing areas, and develop legislative 
guidelines that will shape future national heritage area designations.
    The Department believes that a generic national heritage area bill 
should serve as a gatekeeper--making clear what qualities the area must 
possess and parameters under which designation will occur. We have 
almost twenty years of experience in administering national heritage 
areas and twenty-three existing national heritage areas to evaluate. In 
the absence of formal legislation to guide the national heritage area 
program, National Park Service (NPS) also has developed specific 
critical steps, identified later in this testimony, that should occur 
prior to designation and interim criteria that should be used for 
national heritage area suitability and feasibility studies. These steps 
and criteria have been field-tested, have proven to screen out many 
unqualified areas prior to recommending designation, and should serve 
as a possible starting point for any discussions on generic national 
heritage area legislation.
    Based on our experience with the program, the Department would like 
to offer several considerations that we believe are key components of a 
successful national heritage area program.
    1.  Studying the Area Prior to Designation. In addition to the 
broad parameters that can be achieved by legislation, it is critical to 
have a process that evaluates the specific qualities of the area. 
Requiring that a suitability and feasibility study or some equivalent 
be conducted with a positive finding prior to recommending a 
designation should be an essential component of any generic heritage 
legislation that moves forward. Many of the issues discussed below 
could be evaluated during a national heritage area study.
    2.  Nationally Important Resources. In reality, most places in 
America have a special meaning to a particular group or are the site of 
some historic event. To be designated as a national heritage area, the 
area must contain nationally important natural, cultural, historic or 
recreational resources. Not all resources should be considered 
nationally important and, in some cases, designation as a state or 
local heritage area may be more appropriate.
    3.  Local Support and Initiative. Local communities must not only 
support the designation in concept, but must be willing and interested 
in taking an active role in preservation efforts. They are responsible 
for developing and implementing the management plan for the area and 
should work towards a goal of achieving self-sufficiency. Given the 
important role local communities play in the success of national 
heritage areas, we also have concerns about the concept of establishing 
national heritage areas in places that contain large tracts of federal 
lands. We believe inclusion of large tracts of federal lands has the 
potential to create confusion and unneeded conflict between management 
regimes. Therefore, before studying any potential area that includes 
large tracts of federal lands, we recommend that consultation and 
concurrence of the land management agency should occur first.
    4.  Private Property Rights. Private property owners should be 
provided reasonable protections. Such protections include prohibiting 
the federal government from acquiring land for the national heritage 
area or from imposing zoning or land use controls in national heritage 
areas. Private property owners also should be provided with specific 
protection from the management entity regulating land use zoning, 
hunting or fishing or using federal funds to acquire land. Zoning 
decisions should remain in control of local communities. The support of 
private property owners should be considered in the context of 
determining if sufficient local support exists for designation.
    5.  Partnerships and the Leveraging of Preservation Resources. Also 
integral to the success of national heritage areas is the development 
of a working partnership among the National Park Service, state 
entities and the local communities. The National Park Service should 
provide the communities with technical and financial assistance, but 
not acquire any land or impose any zoning requirements. The local 
communities should participate by developing and implementing the 
management plan that will serve as a guide for interpreting the 
national heritage area.
    6.  Achieving Self-Sufficiency/Limiting Limited Federal Resources. 
To date, self-sufficiency has yet to be achieved with any national 
heritage area, and the first four national heritage areas established 
have sought and received Congressional extensions of their funding. 
With federal dollars leveraging an average of 8.7 times that amount in 
non-NPS partnership funds, national heritage areas can be a cost-
efficient way to preserve important resources. However, because of our 
commitment to support the President's effort to address the deferred 
maintenance backlog, we must significantly limit the long-term 
commitment of federal funds to national heritage areas by requiring 
they become self-sufficient. To achieve this goal, we must study, prior 
to designation, whether an area has the resources and public support to 
achieve self-sufficiency over the long-term. Today, some of the 
national heritage areas have a cap of federal funding at $50,000, while 
others receive up to $1 million per year. Reasonable limitations on 
financial assistance from the Department should be developed and 
extensions to this funding should be avoided.
    We look forward to working with the Subcommittee on translating 
these ideals into a generic national heritage area bill.
    Title I of H.R. 280 would establish the National Aviation Heritage 
Area. Few technological advances have transformed the American economy, 
society, culture and national character as the development of powered 
flight. The core area is defined by Montgomery, Greene, Warren, Miami, 
Clark and Champaign Counties in Ohio, as well as the Neil Armstrong Air 
& Space Museum in Wapakoneta, Ohio, and the Wilbur Wright Birthplace 
and Museum in Millville, Indiana. It would include the homes of 
pioneering aviators from the Wright brothers to the first man who 
walked on the moon; buildings associated with the aerospace industry 
from the first commercial factory to space-related manufacturing 
facilities; Wright-Patterson Air Force Base, which spans the history of 
military aviation; and sites associated with important events in the 
history of flight. The area demonstrates a strong tradition and offers 
inspiration through the stories of national heroes like Eddie 
Rickenbacker, John Glenn, Neil Armstrong and others.
    The bill designates the Aviation Heritage Foundation, Inc., a non-
profit corporation chartered in the State of Ohio, as the management 
entity for the heritage area and outlines the duties of the management 
entity. It also authorizes the development of a management plan and 
authorizes the use of Federal funds to develop and implement that plan. 
If the plan is not submitted within three years of enactment of this 
title, the heritage area becomes ineligible for Federal funding until a 
plan is submitted to the Secretary. Additionally, the Secretary may, at 
the request of the management entity, provide technical assistance and 
enter into cooperative agreements with other public and private 
entities to carry out this purpose. The use of Federal funds may not be 
used to acquire real property or interests in real property.
    This legislation would allow all Federal partners, including the 
NPS, the United States Air Force (USAF), the National Aeronautics and 
Space Administration (NASA), and state and local groups to participate 
in the management of the major facilities and resources within the 
heritage area.
    There is a long history of coordination among the aviation-related 
historical sites in the potential national heritage area. Aviation 
Trail, Inc. was formed in 1981 to promote the aviation heritage sites 
within a multi-county area in southwest Ohio. Coordination and 
collaboration between those sites was further enhanced with the 
establishment of the Dayton Aviation Heritage Commission by Congress in 
1992, which had some authority similar to the management entity of the 
proposed national heritage area. The success shown in the coordination 
of the sites is a positive indication that the national heritage area 
would be successful in accomplishing its objectives.
    This legislation is consistent with the recommendations of the 
Dayton Aviation Heritage Commission, which was charged under Section 
202(b)(4) of Public Law 102-419 ``to propose a management strategy for 
a permanent organizational structure to enhance and coordinate such 
resources, and aviation-related properties, and institutions.'' This 
year, the 100th anniversary of the invention of the first powered 
flight, there has been considerable public interest in the Wright 
brothers and the history of aviation. Successful events in Ohio and 
around the country have demonstrated the strong national support of the 
kinds of historical resources affected by this legislation.
    Recently, the Dayton Aviation Heritage Commission completed the 
Concept Study for the Development of a National Aviation Heritage Area 
(2002). This study, which included public hearings in Cleveland, 
Columbus and Dayton, Ohio, identified more than 300 sites, resources 
and stories from Ohio that have had a significant impact on the 
development of aviation in the United States.
    The establishment of the National Aviation Heritage Area would help 
the citizens of Ohio to understand better their rich and complex 
heritage, as well as share it with the many visitors to southwestern 
Ohio. It would also help to ensure the American public is informed, 
educated and supportive of this important component of our heritage, 
which also remains a significant sector of our nation's economy.
    There are several steps the Department believes should be taken 
prior to Congress designating a national heritage area to help ensure 
that the heritage area is successful. They are:
    1.  Public involvement in the suitability/feasibility study;
    2.  Completion of a suitability/feasibility study;
    3.  Demonstration of widespread public support among heritage area 
residents for the proposed designation; and
    4.  Commitment to the proposal from the appropriate players which 
may include governments, industry, and private, non-profit 
organizations, in addition to the local citizenry.
    We believe the studies that have been completed meet the intent of 
these criteria. They are based on many years of work conducted by 
various governmental and community organizations. These studies and 
plans define a broad base of significant and related aviation resources 
within southwestern Ohio, as well as the importance of the Federal, 
state, local and private sectors partnering for the protection and 
preservation of these resources. However, at this time, we would like 
to focus our efforts on developing generic national heritage area 
legislation as mentioned earlier in this testimony.
    Title II of H.R. 280 would authorize the NPS to update the special 
resource study that was done several years ago and provide alternatives 
for including the Wright Company Factory property in the Dayton 
Aviation Heritage National Historical Park. The cost would be 
approximately $200,000 or less since these buildings were previously 
studied but not recommended when the special resource study was done in 
1992. A recent change in the ownership of the Wright Company Factory 
property from General Motors to Delphi Corporation has provided an 
opportunity to reexamine the original buildings used by the Wright 
brothers to manufacture airplanes. The Delphi Corporation has not made 
commitments for the future of the plant, which includes the Wright 
Company buildings, but has indicated a willingness to participate in an 
exploration of alternatives regarding the preservation and 
interpretation of these buildings.
    This site is integrally connected with the other sites in the 
Dayton area. At the time these buildings were used to manufacture 
airplanes, the Wrights lived only a few miles away at a site near the 
current Dayton Aviation Heritage National Historical Park. The planes 
built in the factory were tested at the Huffman Prairie Flying Field, 
now within the park unit. Congress recognized the importance of these 
buildings in 1992 when it passed the Dayton Aviation Heritage 
Preservation Act, and authorized a study to determine the feasibility 
and suitability of including them in the Dayton Aviation Heritage 
National Historical Park. That study concluded that the buildings are 
``outstanding examples of a particular type of resource, and, 
potentially, they offer exceptional value in illustrating and 
interpreting important cultural themes of our nation's heritage.'' 
However, we did not recommend inclusion in the park at that time 
because they were inaccessible to the public.
    The Department supports Title II and recommends that the 
Subcommittee amend H.R. 280 to move only this part of the bill forward 
at this time. However, should the Committee move the bill as introduced 
forward, the Department recommends one amendment to H.R. 280, which is 
attached to this testimony. This amendment would authorize operational 
assistance to the public and private organizations within the Heritage 
Area. This amendment is similar to language found in other Heritage 
Area laws and will facilitate the public/private partnerships that 
exist between the Dayton Aviation Heritage NHP and the designated 
Heritage Area.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
Recommended amendment to H.R. 280:
    On page 15, line 22 redesignate subsection (b) as subsection (c) 
and insert the following new subsection:
          ``(b) OTHER ASSISTANCE.--The Secretary may provide to the 
        public and private organizations within the Heritage Area, 
        including the management entity for the Heritage Area, 
        operational assistance as appropriate to support the 
        implementation of the Management Plan, subject to the 
        availability of appropriations.''
                                 ______
                                 

  Statement of deTeel Patterson Tiller, Acting Associate Director for 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 704

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on H.R. 704, a bill to direct the Secretaries of 
Interior and Agriculture to conduct a joint special resources study to 
evaluate the suitability and feasibility of establishing the Rim of the 
Valley Corridor, in the Los Angeles region, as a unit of Santa Monica 
Mountains National Recreation Area. Similar legislation, S. 347, passed 
the Senate on April 7, 2003.
    The Department supports H.R. 704 with the minor modifications 
explained in this testimony. We believe that this study would provide 
an opportunity to explore partnerships with a wide range of state, 
local, private and other federal entities for the purpose of protecting 
and interpreting important natural and cultural resources in the area 
the study would encompass.
    The National Park Service is in various stages of progress on 40 
studies previously authorized by Congress, 31 of which are being funded 
through the special resource study budget. We completed five studies in 
FY 2003, and we expect to complete about 18 studies in FY 2004. Our 
highest priority is to complete these pending studies, though we expect 
to start newly authorized studies as soon as funds are made available.
    H.R. 704 directs the Secretaries of the Interior and Agriculture to 
conduct a joint special resource study of the Rim of the Valley 
Corridor in Southern California. H.R. 704 further requires that the 
study evaluate the suitability and feasibility of establishing the area 
as a unit of the Santa Monica Mountains National Recreation Area. The 
Secretaries are directed to use the criteria for study of areas for 
inclusion in the National Park System and to consult with appropriate 
State, county and local governments. The study is estimated to cost 
approximately $500,000.
    The National Park Service generally conducts special resource 
studies to evaluate the suitability and feasibility of an area to 
become a new unit of the National Park System. We understand that the 
intent of this bill is not to establish a new park, but rather to study 
the Rim of the Valley Corridor as a potential addition for Santa Monica 
Mountains National Recreation Area. As such, we suggest that the term 
``resource study'' be used in the bill rather than ``special resource 
study.'' We also recommend including language that makes it clear that 
the study is meant to evaluate a range of alternatives for protecting 
resources, as does S. 347 as passed by the Senate.
    The study would assess habitat quality, access to urban open space, 
low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements along the Rim of 
the Valley Corridor surrounding the San Fernando and La Crescenta 
Valleys. This corridor consists of portions of the Santa Monica 
Mountains, Santa Susanna Mountains, San Gabriel Mountains, Verdugo 
Mountains, San Rafael Hills and the connector to Los Padres, Angeles, 
and San Bernardino National Forests, which provide notable recreation 
opportunities close to the Los Angeles basin. We commend the U.S. 
Forest Service for the excellent job they have done in managing their 
lands over the years, and look to their lead for the lands under their 
administration.
    In addition to natural and recreational opportunities, the area 
also includes properties found on the National Register of Historic 
Places. Old stagecoach stops and images of the Wild West still exist. 
Amtrak's Coast Starlight line travels past many of these rich cultural 
and natural motifs. The area supports a diverse system of plants and 
animals, including 26 distinct plant communities and more than 400 
vertebrate species.
    As the largest urban park area in the National Park System, the 
Santa Monica Mountains National Recreation Area includes 153,750 acres 
within its boundaries and provides recreational opportunities for 
approximately 530,000 visitors annually. During the 25 years since the 
national recreation area was authorized by Congress, this unit has 
become a model of collaboration of many local, state and federal public 
land managers, as well as many private property owners--all working 
together as stewards of the scenic, natural, cultural and recreational 
resources.
    Recognizing the limitation of federal resources for acquiring and 
managing additional lands, the study would have to examine a number of 
alternatives for protecting significant areas of open space in the Rim 
of the Valley Corridor, including those that involve minimal cost to 
the federal government. With the study area encompassing 491,518 acres, 
the study would emphasize public-private partnerships. Given the large 
size and the diversity of stakeholders in the area, the study 
undertaken by the National Park Service would involve extensive 
outreach with members of the public, private landowners, and local 
governments. It would likely entail extended comment periods, and 
extensive analysis.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

  Statement of deTeel Patterson Tiller, Acting Associate Director for 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1399

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1399, a bill to revise the 
boundary of the Black Canyon of the Gunnison National Park and Gunnison 
Gorge National Conservation Area in the State of Colorado, and for 
other purposes.
    The Department of the Interior supports H.R. 1399 with minor 
amendments to the legislation. The bill authorizes additions to both 
Black Canyon of the Gunnison National Park (``Park''), through three 
separate easement or exchange transactions, and Gunnison Gorge National 
Conservation Area (``NCA''). The revision of the national park boundary 
would not contribute to the National Park Service (``NPS'') maintenance 
backlog because the management and operation of the land added to the 
boundary would not result in any additional facilities, increased 
operating costs, or additional staffing. Costs involved with the land 
transactions are expected to be minimal.
    One transaction would involve the purchase of a conservation 
easement on 26.5 acres, estimated to cost $100,000; however, the owner 
has pledged to donate the conservation easement, conditioned upon the 
Federal government being able to receive the donation by December 31, 
2003. A second transaction would include an equal value exchange. The 
third involves the transfer of 480 acres of isolated Bureau of Land 
Management (BLM) land to the NPS and then the exchange of this parcel 
for a conservation easement on approximately 2,000 acres. The landowner 
has stated he is willing to donate any difference in value.
    H.R. 1399 amends the Black Canyon of the Gunnison National Park and 
Gunnison Gorge National Conservation Area Act of 1999 (Public Law 106-
76). The boundary of the park would be revised to include the addition 
of not more than 2,530 acres and the National Conservation Area (NCA) 
would be expanded by approximately 7,100 acres. These additions are 
reflected on a new map, dated April 2, 2003, which supplements the 
boundary map referenced in P.L. 106-76.
    The bill authorizes the transfer of 480 acres of BLM land to the 
jurisdiction of NPS. The Secretary is authorized to acquire lands or 
interests in lands in accordance with P.L. 106-76 (by donation, 
transfer, purchase with donated or appropriated funds, or exchange) and 
lands cannot be acquired without the consent of the owner.
    H.R. 1399 also amends P.L. 106-76 to clarify grazing privileges 
within the park. If land authorized for grazing within the park is 
exchanged for private land, then any grazing privileges would transfer 
to the private land that is acquired. Also, the bill clarifies the 
length of time that grazing may be conducted on park lands by 
partnerships.
Black Canyon of the Gunnison National Park
    The boundary of the park will be expanded in three transactions. 
The first, locally referred to as Sanburg II, is located just south of 
Red Rock Canyon, one of the most scenic hiking opportunities into the 
Black Canyon of the Gunnison. The landowner agrees with the NPS that 
maintaining the rural character adjacent to the Red Rock Canyon 
trailhead is an important part of the wilderness experience. The 
landowner has previously sold conservation easements in this area 
(authorized by P.L. 106-76 and a minor boundary revision) to The 
Conservation Fund, who subsequently sold to NPS. Once acquisition of a 
conservation easement on this 26.5 acre parcel is conveyed, the rural 
character of the Red Rock Canyon gateway will be insured.
    The second, the proposed Bramlett transaction, will authorize the 
exchange of a 200-acre parcel of the Bramlett Ranch located on Grizzly 
Ridge, which overlooks the North Rim Road and North and South Rim 
overlooks. Although the landowner has proposed building cabins on the 
ridge top, he is willing to exchange this 200-acre parcel for land of 
equal value within the park and adjacent to his ranch headquarters. The 
equal value exchange will give the landowner land with easier access, 
and will add the ridgeline parcel to the park, thus protecting the 
natural landscape in that portion of the park.
    The third boundary adjustment, the Allison exchange, is located 
along the East Portal Road, on the park's south rim. The landowner will 
exchange a combination of fee simple ownership and a conservation 
easement on up to 2,000 acres in return for fee simple ownership of up 
to 480 acres of the BLM parcel that will be transferred to NPS. The 
landowner has indicated that he will protect this parcel with a 
conservation easement should he acquire it. He has also indicated that 
he will donate any value above and beyond the value represented in the 
exchange.
    The Department believes these acquisitions are important for 
several reasons. Combined with the land authorized by P.L. 106-76, the 
present and future land requirements for the park will be met. The 
present landowners are all willing sellers and, in addition to them, 
this effort enjoys the support of the Montrose County Commissioners, 
the Montrose Chamber of Commerce, and local and national land trusts 
involved in the project.
    H.R. 1399 will also amend P.L. 106-76 regarding grazing within the 
park. P.L. 106-76 allowed for the continuation of grazing on the former 
BLM lands transferred to the NPS. Permits held by individuals can be 
renewed through the lifetime of the individual permittees. However, 
P.L. 106-76 requires that partnerships and corporations be treated 
alike regarding the termination of grazing permits. Partnerships and 
corporations now lose their permits upon the termination of the last 
remaining individual permit.
    H.R. 1399 will amend P.L. 106-76 to treat partnerships similarly to 
individual permit holders, allowing permits to be renewed through the 
lifetime of the partners as of October 21, 1999. Since the two 
partnerships affected are essentially family run ranching operations, 
the Department feels that they should be treated consistently with 
individual permit holders.
    H.R. 1399 will also allow grazing on land acquired in an exchange 
if the land being given up in the exchange currently has authorized 
grazing. This appears to be consistent with the intent of Congress when 
it authorized grazing in Public Law 106-76.
Gunnison Gorge National Conservation Area
    H.R. 1399 also provides for the expansion of the Gunnison Gorge NCA 
managed by the BLM. A 5,759-acre parcel of land on the north side of 
the existing NCA was acquired in January 2000 from a willing seller 
through a land exchange. This acquisition was not completed in time to 
include the lands within the original NCA boundary. This parcel 
includes approximately five miles of the Gunnison River and provides 
important resource values and recreational opportunities. In addition, 
1,349 acres of preexisting BLM-managed public lands adjacent to the 
acquisition would also be added to the NCA. The addition of these BLM 
lands will create a more manageable NCA boundary and provide 
appropriate protection and management emphasis for this area's 
resources.
    The legislation also makes some minor boundary adjustments to the 
NCA. In the process of completing surveys of the lands designated as 
the NCA by P.L. 106-76, the BLM discovered a few inadvertent trespass 
situations on the NCA land. In order to resolve these issues with the 
local landowners in a fair and equitable manner, slight boundary 
modifications need to be made so that exchanges can be effected. 
Without the benefit of this legislation, the BLM would be forced to 
take extreme punitive measures which are not in the best interest of 
the federal government or local landowners who previously were unaware 
of the encroachment issues.
Water Delivery Facilities
    With the passage of Public Law 106-76 the Uncompahgre Valley Water 
Users Association expressed concern that access to water and related 
facilities might be limited. H.R. 1399 clarifies that the Bureau of 
Reclamation will retain jurisdiction over, and access to, all land, 
facilities and roads in the East Portal and Crystal Dam areas for the 
maintenance, repair, construction, replacement and operation of any 
facilities relating to the delivery of water and power.
    We believe that the bill, as introduced, has a couple of confusing 
and unneeded sections. The Senate held a hearing on an identical bill, 
S. 677, on June 10, 2003, and we recommended amendments during our 
testimony at that hearing to clarify the language of the Senate bill. 
Our amendments were approved by the Committee and passed by the Senate 
on July 17, 2003. Since S. 677 is also pending before the Committee, we 
recommend that this bill be considered and approved by the Committee in 
lieu of H.R. 1399 to facilitate enactment of this legislation as soon 
as possible.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the Subcommittee may have.
                                 ______
                                 

  Statement of deTeel Patterson Tiller, Acting Associate Director for 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1594

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1594, a bill to direct the 
Secretary of the Interior to conduct a study of the suitability and 
feasibility of establishing the St. Croix National Heritage Area in St. 
Croix, United States Virgin Islands.
    The Department supports the national heritage area program but 
recommends that the Subcommittee defer action on any individual 
national heritage area designation or study bill until generic national 
heritage area legislation is enacted.
    Ideally, national heritage areas provide a cost-effective way to 
preserve nationally important natural, cultural, historic and 
recreation resources through the creation of a working partnership 
between federal, state and local entities. In addition, national 
heritage areas should be locally driven, locally supported, should not 
involve federal land acquisition or zoning, and should protect private 
property rights. At its best, this program embodies Secretary of the 
Interior Gale Norton's ``Four C's''--Communication, Consultation and 
Cooperation, all in the service of Conservation.
    Some national heritage areas, however, have not met this ideal. For 
example, some national heritage areas have been designated without a 
clear indication of the ability of the management entity to assume 
responsibility for management of the area. The management entity 
subsequently has operated the area without a clear financial plan for 
achieving self-sufficiency without federal support. Consequently, it is 
time to step back, evaluate existing areas, and develop legislative 
guidelines that will shape future national heritage area designations.
    The Department believes that a generic national heritage area bill 
should serve as a gatekeeper--making clear what qualities the area must 
possess and parameters under which designation will occur. We have 
almost twenty years of experience in administering national heritage 
areas and twenty-three existing national heritage areas to evaluate. In 
the absence of formal legislation to guide the national heritage area 
program, National Park Service (NPS) also has developed specific 
critical steps that should occur prior to designation and interim 
criteria that should be used for national heritage area suitability and 
feasibility studies. These steps and criteria have been field-tested, 
have proven to screen out many unqualified areas prior to recommending 
designation, and should serve as a possible starting point for any 
discussions on generic national heritage area legislation.
    Based on our experience with the program, the Department would like 
to offer several considerations that we believe are key components of a 
successful national heritage area program.
    1.  Studying the Area Prior to Designation. In addition to the 
broad parameters that can be achieved by legislation, it is critical to 
have a process that evaluates the specific qualities of the area. 
Requiring that a suitability and feasibility study or some equivalent 
be conducted with a positive finding prior to recommending a 
designation should be an essential component of any generic heritage 
legislation that moves forward. Many of the issues discussed below 
could be evaluated during a national heritage area study.
    2.  Nationally Important Resources. In reality, most places in 
America have a special meaning to a particular group or are the site of 
some historic event. To be designated as a national heritage area, the 
area must contain nationally important natural, cultural, historic or 
recreational resources. Not all resources should be considered 
nationally important and, in some cases, designation as a state or 
local heritage area may be more appropriate.
    3.  Local Support and Initiative. Local communities must not only 
support the designation in concept, but must be willing and interested 
in taking an active role in preservation efforts. They are responsible 
for developing and implementing the management plan for the area and 
should work towards a goal of achieving self-sufficiency. Given the 
important role local communities play in the success of national 
heritage areas, we also have concerns about the concept of establishing 
national heritage areas in places that contain large tracts of federal 
lands. We believe inclusion of large tracts of federal lands has the 
potential to create confusion and unneeded conflict between management 
regimes. Therefore, before studying any potential area that includes 
large tracts of federal lands, we recommend that consultation and 
concurrence of the land management agency should occur first.
    4.  Private Property Rights. Private property owners should be 
provided reasonable protections. Such protections include prohibiting 
the federal government from acquiring land for the national heritage 
area or from imposing zoning or land use controls in national heritage 
areas. Private property owners also should be provided with specific 
protection from the management entity regulating land use zoning, 
hunting or fishing or using federal funds to acquire land. Zoning 
decisions should remain in control of local communities. The support of 
private property owners should be considered in the context of 
determining if sufficient local support exists for designation.
    5.  Partnerships and the Leveraging of Preservation Resources. Also 
integral to the success of national heritage areas is the development 
of a working partnership among the National Park Service, state 
entities and the local communities. The National Park Service should 
provide the communities with technical and financial assistance, but 
not acquire any land or impose any zoning requirements. The local 
communities should participate by developing and implementing the 
management plan that will serve as a guide for interpreting the 
national heritage area.
    6.  Achieving Self-Sufficiency/Limiting Limited Federal Resources. 
To date, self-sufficiency has yet to be achieved with any national 
heritage area, and the first four national heritage areas established 
have sought and received Congressional extensions of their funding. 
With federal dollars leveraging an average of 8.7 times that amount in 
non-NPS partnership funds, national heritage areas can be a cost-
efficient way to preserve important resources. However, because of our 
commitment to support the President's effort to address the deferred 
maintenance backlog, we must significantly limit the long-term 
commitment of federal funds to national heritage areas by requiring 
they become self-sufficient. To achieve this goal, we must study, prior 
to designation, whether an area has the resources and public support to 
achieve self-sufficiency over the long-term. Today, some of the 
national heritage areas have a cap of federal funding at $50,000 while 
others receive up to $1 million per year. Reasonable limitations on 
financial assistance from the Department should be developed and 
extensions to this funding should be avoided.
    We look forward to working with the Subcommittee on translating 
these ideals into a generic national heritage area bill.
    H.R. 1594 would authorize a study of the feasibility and 
suitability of designating as a national heritage area the island of 
St. Croix, which is located 40 miles south of St. Thomas and is the 
largest of the three islands that make up the territory of the United 
States Virgin Islands. This bill contains the criteria for making this 
determination that includes directing the Secretary to consult with 
State historic preservation officers, State historical societies, local 
communities, and other appropriate organizations. This criteria and the 
standard three-year time frame for conducting the study included in the 
bill are provisions included in other national heritage area studies 
that Congress has authorized in recent years.
    The natural and cultural resources of St. Croix have been 
recognized through the establishment of three units of the National 
Park System there: Christiansted National Historic Site, Buck Island 
Reef National Monument, and Salt River Bay National Historical Park and 
Ecological Preserve.
    The area that would be studied would encompass the historic towns 
of Christiansted, built in 1734, and Frederiksted, built in 1752. 
Alexander Hamilton, the first Secretary of the Treasury, spent his 
young adult years in Christiansted and educated himself while working 
as a clerk in his mother's small store. Christiansted is known 
primarily for its 18th and 19th Century Danish architectural design 
buildings; it has some of the finest examples of Danish architectural 
design in the West Indies. The town was laid out by Danish surveyors 
using a grid system and was the first in the West Indies that 
instituted both a building code and zoning. Street widths were 
regulated, easements were established, areas were zoned commercial or 
residential, and building materials were specified. This urban planning 
scheme is still visible today.
    Both Christiansted's and Frederiksted's historic architecture 
matured over a 100-year span. Neoclassical government buildings and 
residences blend with Gothic Revival churches, combination shop-
residences, and wooden shingle cottages. The three residential styles 
demonstrate Christiansted's and Frederiksted's colonial social 
structure in the late 1700 and mid-1800's.
    Archeological evidence shows migratory South American hunters-
gatherers on the island as far back as 2500 B.C. By 1425, Carib Indians 
reached St. Croix in their westernmost territorial expansion. On 
November 14, 1493, during his second voyage to the new world, Columbus 
arrived at an area that today is part of Salt River Bay National 
Historical Park and Ecological Preserve to look for fresh water. This 
is the only site where Columbus' crew went ashore in the New World that 
is under the American Flag. St. Croix is also the site of the first 
recorded hostile encounter between Europeans and Native Americans.
    During European rule of St. Croix, there were 218 sugar 
plantations, typically between 250 to 300 acres, with about 100 
windmills and 100 animal mills. Many of these plantations are still in 
evidence today with their great houses, slave houses, windmills and 
animal mills still in good condition.
    Also associated with St. Croix is Buck Island Reef National 
Monument, which was established by Presidential proclamation in 1961 to 
preserve one of the finest marine gardens in the Caribbean Sea. The 
monument was expanded in 2001 by a subsequent proclamation to help 
ensure the viability of the marine resources there. Located one-and-a-
half miles off of St. Croix, the 176-acre island and surrounding coral 
reef ecosystem support a large variety of native flora and fauna, and 
provide a haven to several endangered and threatened species.
    While these resources could be further examined during a national 
heritage study, the Department believes, as mentioned above, that 
action on legislation authorizing such a study should be deferred until 
generic heritage area legislation is enacted.
    Should the Committee decide to move the bill, however, we would 
recommend one amendment. Section 1(c) requires the Secretary of the 
Interior to submit a report to Congress ``on the findings, conclusions, 
and recommendations of the study.'' We have been informed by the 
Department of Justice that to the extent that this provision purports 
to require the Secretary of the Interior to make legislative 
recommendations to Congress, it appears to violate the Recommendations 
Clause of the Constitution, which reserves to the President the power 
to decide whether it is necessary or expedient for the Executive Branch 
to make legislative policy recommendations to the Congress. We would 
therefore suggest amending Section 1(c) to instead read: ``...on the 
findings and conclusions of the study, as well as any recommendations 
the Secretary deems appropriate.''
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

  Statement of deTeel Patterson Tiller, Acting Associate Director for 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1618

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1618, to establish the Arabia 
Mountain National Heritage Area in the State of Georgia.
    The Department supports the national heritage area program, but 
recommends that the Subcommittee defer action on any individual 
national heritage area designation or study bill until generic national 
heritage area legislation is enacted.
    Ideally, national heritage areas provide a cost-effective way to 
preserve nationally important natural, cultural, historic, and 
recreation resources through the creation of a working partnership 
between federal, state, and local entities. In addition, national 
heritage areas should be locally driven, locally supported, should not 
involve federal land acquisition or zoning, and protect private 
property rights. At its best, this program embodies Secretary of the 
Interior Gale Norton's ``Four C's''--Communication, Consultation and 
Cooperation, all in the service of Conservation.
    Some national heritage areas, however, have not met this ideal. For 
example, some national heritage areas have been designated without a 
clear indication of the ability of the management entity to assume 
responsibility for management of the area. The management entity 
subsequently has operated the area without a clear financial plan for 
achieving self-sufficiency without federal support. Consequently, it is 
time to step back, evaluate existing areas, and develop legislative 
guidelines that will shape future national heritage area designations.
    The Department believes that a generic national heritage area bill 
should serve as a gatekeeper--making clear what qualities the area must 
possess and parameters under which designation will occur. We have 
almost twenty years of experience in administering national heritage 
areas and twenty-three existing national heritage areas to evaluate. In 
the absence of formal legislation to guide the national heritage area 
program, National Park Service (NPS) also has developed specific 
critical steps, identified later in this testimony, that should occur 
prior to designation and interim criteria that should be used for 
national heritage area suitability and feasibility studies. These steps 
and criteria have been field-tested, have proven to screen out many 
unqualified areas prior to recommending designation, and should serve 
as a possible starting point for any discussions on generic national 
heritage area legislation.
    Based on our experience with the program, the Department would like 
to offer several considerations that we believe are key components of a 
successful national heritage area program.
    1.  Studying the Area Prior to Designation. In addition to the 
broad parameters that can be achieved by legislation, it is critical to 
have a process that evaluates the specific qualities of the area. 
Requiring that a suitability and feasibility study or some equivalent 
be conducted with a positive finding prior to recommending a 
designation should be an essential component of any generic heritage 
legislation that moves forward. Many of the issues discussed below 
could be evaluated during a national heritage area study.
    2.  Nationally Important Resources. In reality, most places in 
America have a special meaning to a particular group or are the site of 
some historic event. To be designated as a national heritage area, the 
area must contain nationally important natural, cultural, historic, or 
recreational resources. Not all resources should be considered 
nationally important and, in some cases, designation as a state or 
local heritage area may be more appropriate.
    3.  Local Support and Initiative. Local communities must not only 
support the designation in concept, but must be willing and interested 
in taking an active role in preservation efforts. They are responsible 
for developing and implementing the management plan for the area and 
should work towards a goal of achieving self-sufficiency. Given the 
important role local communities play in the success of national 
heritage areas, we also have concerns about the concept of establishing 
national heritage areas in places that contain large tracts of federal 
lands. We believe inclusion of large tracts of federal lands has the 
potential to create confusion and unneeded conflict between management 
regimes. Therefore, before studying any potential area that includes 
large tracts of federal lands, we recommend that consultation and 
concurrence of the land management agency should occur first.
    4.  Private Property Rights. Private property owners should be 
provided reasonable protections. Such protections include prohibiting 
the federal government from acquiring land for the national heritage 
area or from imposing zoning or land use controls in national heritage 
areas. Private property owners also should be provided with specific 
protection from the management entity regulating land use zoning, 
hunting or fishing, or using federal funds to acquire land. Zoning 
decisions should remain in control of local communities. The support of 
private property owners should be considered in the context of 
determining if sufficient local support exists for designation.
    5.  Partnerships and the Leveraging of Preservation Resources. Also 
integral to the success of national heritage areas is the development 
of a working partnership among the National Park Service, state 
entities, and the local communities. The National Park Service should 
provide the communities with technical and financial assistance, but 
not acquire any land or impose any zoning requirements. The local 
communities should participate by developing and implementing the 
management plan that will serve as a guide for interpreting the 
national heritage area.
    6.  Achieving Self-Sufficiency/Limiting Limited Federal Resources. 
To date, self-sufficiency has yet to be achieved with any national 
heritage area, and the first four national heritage areas established 
have sought and received Congressional extensions of their funding. 
With federal dollars leveraging an average of 8.7 times that amount in 
non-NPS partnership funds, national heritage areas can be a cost-
efficient way to preserve important resources. However, because of our 
commitment to support the President's effort to address the deferred 
maintenance backlog, we must significantly limit the long-term 
commitment of federal funds to national heritage areas by requiring 
they become self-sufficient. To achieve this goal, we must study, prior 
to designation, whether an area has the resources and public support to 
achieve self-sufficiency over the long-term. Today, some of the 
national heritage areas have a cap of federal funding at $50,000 while 
others receive up to $1 million per year. Reasonable limitations on 
financial assistance from the Department should be developed and 
extensions to this funding should be avoided.
    We look forward to working with the Subcommittee on translating 
these ideals into a generic national heritage area bill.
    H.R. 1618 would establish the Arabia Mountain National Heritage 
Area within the boundary defined by the map developed for the 
feasibility study for the heritage area. The legislation would name the 
Arabia Mountain Heritage Area Alliance as the management entity for the 
heritage area and provide for the Secretary of the Interior and the 
Alliance to carry out the legislation through a cooperative agreement. 
Provisions of the bill regarding the authority and duties of the 
management entity, the development of a management plan, and Federal 
technical and financial assistance that would be available to the 
heritage area are similar to provisions that have been included in 
legislation designating other heritage areas in recent years.
    The proposed Arabia Mountain National Heritage Area would include 
parts of DeKalb, Rockdale, and Henry Counties that lie within the 
eastern side of the Atlanta metropolitan area. The heritage area would 
encompass the Davidson-Arabia Mountain Nature Preserve, the City of 
Lithonia, the Panola Mountain State Conservation Park, portions of the 
South River, and several active granite quarries.
    The Arabia Mountain area, which is known primarily for its granite 
quarries, is rich in natural, cultural, and historic resources. Arabia 
Mountain and other nearby prominent granite formations have been linked 
to human settlement and activity for thousands of years, starting over 
7,000 years ago with the quarrying and trading of soapstone. The area 
contains specific types of granite outcropping that are very rare and 
do not occur anywhere outside the Piedmont Region. Granite from this 
area has been quarried and used around the nation, including in 
buildings at the military academies at West Point and Annapolis.
    The area retains an open and small-scale character, in contrast to 
the more intensively developed areas closer in to the City of Atlanta. 
The rapid growth of the metropolitan area in recent years has prompted 
a recognition among those involved in this proposal that there may be 
only a narrow window of opportunity to retain open lands and protect 
important resources before land costs and economics of development make 
such efforts much more difficult. The local governmental entities in 
the proposed national heritage area and the State of Georgia support 
national heritage area designation for this area.
    In the view of the National Park Service, there are four critical 
steps that need to be completed before Congress establishes a national 
heritage area. Those steps are:
    1.  completion of a suitability/feasibility study;
    2.  public involvement in the suitability/feasibility study;
    3.  demonstration of widespread public support among heritage area 
residents for the proposed designation; and
    4.  commitment to the proposal from the appropriate players, which 
may include governments, industry, and private, non-profit 
organizations, in addition to the local citizenry.
    The National Park Service believes that those criteria have been 
fulfilled through the work that was done by the Arabia Mountain 
Heritage Area Alliance and other entities, including the National Park 
Service, in conducting the feasibility study that was issued in 
February 2001. However, at this time we would like to focus our efforts 
on developing generic national heritage area legislation as mentioned 
earlier in this testimony.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

   Statement of deTeel Patterson Tiller, Acting Associate Director, 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1798

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on H.R. 1798, a bill to establish the Upper Housatonic Valley 
National Heritage Area in the State of Connecticut and the Commonwealth 
of Massachusetts.
    The Department supports the national heritage area program but 
recommends that the Subcommittee defer action on any individual 
national heritage area designation or study bill until generic national 
heritage area legislation is enacted.
    Ideally, national heritage areas provide a cost-effective way to 
preserve nationally important natural, cultural, historic, and 
recreation resources through the creation of a working partnership 
between federal, state, and local entities. In addition, national 
heritage areas should be locally driven, locally supported, should not 
involve federal land acquisition or zoning, and should protect private 
property rights. At its best, this program embodies Secretary of the 
Interior Gale Norton's ``Four C's''--Communication, Consultation, and 
Cooperation, all in the service of Conservation.
    Some national heritage areas, however, have not met this ideal. For 
example, some national heritage areas have been designated without a 
clear indication of the ability of the management entity to assume 
responsibility for management of the area. The management entity 
subsequently has operated the area without a clear financial plan for 
achieving self-sufficiency without federal support. Consequently, it is 
time to step back, evaluate existing areas, and develop legislative 
guidelines that will shape future national heritage area designations.
    The Department believes that a generic national heritage area bill 
should serve as a gatekeeper--making clear what qualities the area must 
possess and parameters under which designation will occur. We have 
almost twenty years of experience in administering national heritage 
areas and twenty-three existing national heritage areas to evaluate. In 
the absence of formal legislation to guide the national heritage area 
program, National Park Service (NPS) also has developed specific 
critical steps, identified later in this testimony, that should occur 
prior to designation and interim criteria that should be used for 
national heritage area suitability and feasibility studies. These steps 
and criteria have been field-tested, have proven to screen out many 
unqualified areas prior to recommending designation, and should serve 
as a possible starting point for any discussions on generic national 
heritage area legislation.
    Based on our experience with the program, the Department would like 
to offer several considerations that we believe are key components of a 
successful national heritage area program.
    1.  Studying the Area Prior to Designation. In addition to the 
broad parameters that can be achieved by legislation, it is critical to 
have a process that evaluates the specific qualities of the area. 
Requiring that a suitability and feasibility study or some equivalent 
be conducted with a positive finding prior to recommending a 
designation should be an essential component of any generic heritage 
legislation that moves forward. Many of the issues discussed below 
could be evaluated during a national heritage area study.
    2.  Nationally Important Resources. In reality, most places in 
America have a special meaning to a particular group or are the site of 
some historic event. To be designated as a national heritage area, the 
area must contain nationally important natural, cultural, historic, or 
recreational resources. Not all resources should be considered 
nationally important and, in some cases, designation as a state or 
local heritage area may be more appropriate.
    3.  Local Support and Initiative. Local communities must not only 
support the designation in concept, but must be willing, and 
interested, in taking an active role in preservation efforts. They are 
responsible for developing and implementing the management plan for the 
area and should work towards a goal of achieving self-sufficiency. 
Given the important role local communities play in the success of 
national heritage areas, we also have concerns about the concept of 
establishing national heritage areas in places that contain large 
tracts of federal lands. We believe inclusion of large tracts of 
federal lands has the potential to create confusion and unneeded 
conflict between management regimes. Therefore, before studying any 
potential area that includes large tracts of federal lands, we 
recommend that consultation and concurrence of the land management 
agency should occur first.
    4.  Private Property Rights. Private property owners should be 
provided reasonable protections. Such protections include prohibiting 
the federal government from acquiring land for the national heritage 
area or from imposing zoning or land use controls in national heritage 
areas. Private property owners also should be provided with specific 
protection from the management entity regulating land use zoning, 
hunting or fishing or using federal funds to acquire land. Zoning 
decisions should remain in control of local communities. The support of 
private property owners should be considered in the context of 
determining if sufficient local support exists for designation.
    5.  Partnerships and the Leveraging of Preservation Resources. Also 
integral to the success of national heritage areas is the development 
of a working partnership among the National Park Service, state 
entities and the local communities. The National Park Service should 
provide the communities with technical and financial assistance, but 
not acquire any land or impose any zoning requirements. The local 
communities should participate by developing and implementing the 
management plan that will serve as a guide for interpreting the 
national heritage area.
    6.  Achieving Self-Sufficiency/Limiting Limited Federal Resources. 
To date, self-sufficiency has yet to be achieved with any national 
heritage area, and the first four national heritage areas established 
have sought and received Congressional extensions of their funding. 
With federal dollars leveraging an average of 8.7 times that amount in 
non-NPS partnership funds, national heritage areas can be a cost-
efficient way to preserve important resources. However, because of our 
commitment to support the President's effort to address the deferred 
maintenance backlog, we must significantly limit the long-term 
commitment of federal funds to national heritage areas by requiring 
they become self-sufficient. To achieve this goal, we must study, prior 
to designation, whether an area has the resources and public support to 
achieve self-sufficiency over the long-term. Today, some of the 
national heritage areas have a cap of federal funding at $50,000 while 
others receive up to $1 million per year. Reasonable limitations on 
financial assistance from the Department should be developed and 
extensions to this funding should be avoided.
    We look forward to working with the Subcommittee on translating 
these ideals into a generic national heritage area bill.
    H.R. 1798 would establish the Upper Housatonic Valley National 
Heritage Area, encompassing 29 communities in western Massachusetts and 
northwestern Connecticut, extending 60 miles through the watershed of 
the upper Housatonic River, from Kent, Connecticut, to Lanesboro, 
Massachusetts. The bill would also identify the Upper Housatonic Valley 
National Heritage Area Inc. as the management entity for the national 
heritage area.
    The Upper Housatonic Valley, sometimes referred to as ``the 
fourteenth colony,'' is a singular geographical and cultural region 
that is characterized by significant national contributions in 
literature, art, music, and architectural achievements; its iron, 
paper, and electrical equipment industries; and scenic beautification 
and environmental conservation efforts. The region contains five 
National Historic Landmarks including the homes of W.E.B. Dubois, Edith 
Wharton and Herman Melville. Over 120 sites and 18 historic districts 
on the National Register of Historic Places dot the landscape. It was 
home to Nathaniel Hawthorne, painters Norman Rockwell and Jasper Johns, 
and sculptor Daniel Chester French, who sculpted the ``Seated Lincoln'' 
at the Lincoln Memorial. Among the Upper Housatonic Valley's early iron 
masters was Ethan Allen, the hero of Fort Ticonderoga and an early 
mercantile activist. Important events related to the Revolutionary War, 
Shays' Rebellion, and early civil rights activism also took place in 
the area. The region's performing arts centers--the Boston Symphony 
Orchestra's summer home at Tanglewood, Music Mountain, Norfolk Chamber 
Music Festival, Jacob's Pillow Dance Festival, Berkshire Theatre 
Festival, and Shakespeare & Company--are internationally known.
    The Upper Housatonic Valley contains a myriad of natural resources 
and has been the beneficiary of a long history of innovative 
environmental conservation initiatives that have been influential 
across the country. These include pioneering state parks and private 
nature preserves and the first village improvement society in America, 
the Laurel Hill Association, of Stockbridge, Massachusetts. Four 
National Natural Landmarks, including unique bogs and an old growth 
forest, have been designated here. The Appalachian National Scenic 
Trail follows the length of the Upper Housatonic Valley.
    The region was the site of pioneering endeavors in the iron, paper, 
and electrical generation industries. The iron industry, which was 
responsible for manufacturing 75% of the cannons used by the 
Continental Army during the American Revolution, was active from 1735 
until 1923. The first mill in America to make paper from wood pulp was 
located in Stockbridge, Massachusetts.
    Tied together by the Housatonic River, the region offers extensive 
opportunities for resource preservation, education, and tourism. The 
heritage area designation would link together several existing historic 
sites, such as protected iron smelting sites, to strengthen the 
understanding of the regional historical significance of the valley. 
The area also reflects the rich traditions and folkways of the Mohican 
Indians, Shakers, Yankee farmers, African Americans, and European 
immigrant groups. The educational and preservation value of the valley 
to residents was a major point of public support for designation.
    There is extensive citizen involvement in heritage activities in 
the Upper Housatonic Valley involving a broad array of municipalities, 
private organizations, and individuals. The non-profit organization, 
Upper Housatonic Valley National Heritage Area Inc., has a broad-based 
membership and a strong track record in organizing heritage 
initiatives. Comments at public meetings, and those received as the 
draft feasibility study concluded, indicate strong public support for 
national heritage area designation.
    In the opinion of the Department there are four critical steps that 
need to be taken and documented prior to the Congress designating a 
heritage area. These steps are:
    1.  demonstration of widespread public support among heritage area 
residents for the proposed designation;
    2.  public involvement in the suitability/feasibility study;
    3.  commitment to the proposal from appropriate representatives 
from government, business, and private non-profit organizations, as 
well as local citizens; and
    4.  completion of a suitability/feasibility study.
    The Department's Draft Feasibility Study for the Upper Housatonic 
Valley National Heritage Area found that the Upper Housatonic Valley 
meets the Department's ten interim criteria for designation of a 
national heritage area. The Upper Housatonic Valley is distinctive for 
having a landscape that includes a blend of industrial innovations, 
environmental conservation initiatives, and cultural achievements of 
national significance. However, at this time, we would like to focus 
our efforts on developing generic national heritage area legislation as 
mentioned earlier in this testimony.
    This completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.
                                 ______
                                 

   Statement of deTeel Patterson Tiller, Acting Associate Director, 
   Cultural Resources, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1862

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on H.R. 1862, a bill to establish the Oil Region National 
Heritage Area in the Commonwealth of Pennsylvania.
    The Department supports the national heritage area program, but 
recommends that the Subcommittee defer action on any individual 
national heritage area designation or study bill until generic national 
heritage area legislation is enacted.
    Ideally, national heritage areas provide a cost-effective way to 
preserve nationally important natural, cultural, historic and 
recreation resources through the creation of a working partnership 
between federal, state and local entities. In addition, national 
heritage areas should be locally driven, locally supported, should not 
involve federal land acquisition or zoning, and should protect private 
property rights. At its best, this program embodies Secretary of the 
Interior Gale Norton's ``Four C's''--Communication, Consultation and 
Cooperation, all in the service of Conservation.
    Some national heritage areas, however, have not met this ideal. For 
example, some national heritage areas have been designated without a 
clear indication of the ability of the management entity to assume 
responsibility for management of the area. The management entity 
subsequently has operated the area without a clear financial plan for 
achieving self-sufficiency without federal support. Consequently, it is 
time to step back, evaluate existing areas, and develop legislative 
guidelines that will shape future national heritage area designations.
    The Department believes that a generic national heritage area bill 
should serve as a gatekeeper--making clear what qualities the area must 
possess and parameters under which designation will occur. We have 
almost twenty years of experience in administering national heritage 
areas and twenty-three existing national heritage areas to evaluate. In 
the absence of formal legislation to guide the national heritage area 
program, National Park Service (NPS) also has developed specific 
critical steps, identified later in this testimony, that should occur 
prior to designation and interim criteria that should be used for 
national heritage area suitability and feasibility studies. These steps 
and criteria have been field-tested, have proven to screen out many 
unqualified areas prior to recommending designation, and should serve 
as a possible starting point for any discussions on generic national 
heritage area legislation.
    Based on our experience with the program, the Department would like 
to offer several considerations that we believe are key components of a 
successful national heritage area program.
    1.  Studying the Area Prior to Designation. In addition to the 
broad parameters that can be achieved by legislation, it is critical to 
have a process that evaluates the specific qualities of the area. 
Requiring that a suitability and feasibility study or some equivalent 
be conducted with a positive finding prior to recommending a 
designation should be an essential component of any generic heritage 
legislation that moves forward. Many of the issues discussed below 
could be evaluated during a national heritage area study.
    2.  Nationally Important Resources. In reality, most places in 
America have a special meaning to a particular group or are the site of 
some historic event. To be designated as a national heritage area, the 
area must contain nationally important natural, cultural, historic or 
recreational resources. Not all resources should be considered 
nationally important and, in some cases, designation as a state or 
local heritage area may be more appropriate.
    3.  Local Support and Initiative. Local communities must not only 
support the designation in concept, but must be willing and interested 
in taking an active role in preservation efforts. They are responsible 
for developing and implementing the management plan for the area and 
should work towards a goal of achieving self-sufficiency. Given the 
important role local communities play in the success of national 
heritage areas, we also have concerns about the concept of establishing 
national heritage areas in places that contain large tracts of federal 
lands. We believe inclusion of large tracts of federal lands has the 
potential to create confusion and unneeded conflict between management 
regimes. Therefore, before studying any potential area that includes 
large tracts of federal lands, we recommend that consultation and 
concurrence of the land management agency should occur first.
    4.  Private Property Rights. Private property owners should be 
provided reasonable protections. Such protections include prohibiting 
the federal government from acquiring land for the national heritage 
area or from imposing zoning or land use controls in national heritage 
areas. Private property owners also should be provided with specific 
protection from the management entity regulating land use zoning, 
hunting or fishing or using federal funds to acquire land. Zoning 
decisions should remain in control of local communities. The support of 
private property owners should be considered in the context of 
determining if sufficient local support exists for designation.
    5.  Partnerships and the Leveraging of Preservation Resources. Also 
integral to the success of national heritage areas is the development 
of a working partnership among the National Park Service, state 
entities and the local communities. The National Park Service should 
provide the communities with technical and financial assistance, but 
not acquire any land or impose any zoning requirements. The local 
communities should participate by developing and implementing the 
management plan that will serve as a guide for interpreting the 
national heritage area.
    6.  Achieving Self-Sufficiency/Limiting Limited Federal Resources. 
To date, self-sufficiency has yet to be achieved with any national 
heritage area, and the first four national heritage areas established 
have sought and received Congressional extensions of their funding. 
With federal dollars leveraging an average of 8.7 times that amount in 
non-NPS partnership funds, national heritage areas can be a cost-
efficient way to preserve important resources. However, because of our 
commitment to support the President's effort to address the deferred 
maintenance backlog, we must significantly limit the long-term 
commitment of federal funds to national heritage areas by requiring 
they become self-sufficient. To achieve this goal, we must study, prior 
to designation, whether an area has the resources and public support to 
achieve self-sufficiency over the long-term. Today, some of the 
national heritage areas have a cap of federal funding at $50,000, while 
others receive up to $1 million per year. Reasonable limitations on 
financial assistance from the Department should be developed and 
extensions to this funding should be avoided.
    We look forward to working with the Subcommittee on translating 
these ideals into a generic national heritage area bill.
    H.R.1862 would establish the Oil Region National Heritage Area 
comprising all of Venango County and a portion of Crawford County in 
western Pennsylvania. It would establish a cooperative management 
framework to assist the state in conserving, enhancing and interpreting 
the significant resources of the region. The bill would also designate 
Oil Heritage Region Inc. as the management entity for the national 
heritage area.
    The Oil Heritage Region is known, appropriately, as ``The Valley 
That Changed the World'' due to the first successful oil well drilled 
by Colonel Edwin Drake with the assistance of William Smith, a 
Pennsylvania salt well digger, in 1859. This event had an overriding 
impact on the industrial revolution and continues to affect the daily 
life of the nation and the world.
    The region contains the world renowned Drake Well Museum in 
Titusville, Oil Creek State Park and portions of the Allegheny Wild and 
Scenic River, the latter designated by Congress in 1992, and 
administered by the U.S. Forest Service. It also contains six National 
Historic Districts, 17 sites listed on the National Register of 
Historic Places and an extensive collection of Victorian-styled 
architecture in Franklin, Oil City, Emlenton and Titusville. Remnants 
of the oil boom era, including McClintock Well #1, the oldest operating 
well in the United States, can be found throughout the region. The 
stories of early oil magnates and those who worked in the oil fields 
provide exceptionally rich interpretive opportunities related to the 
region's natural and cultural resources. This important heritage 
contributes not only to our own national story, but also to the 
advancement of industries and transportation systems throughout the 
world.
    Oil Heritage Region is currently designated a State Heritage Park 
by the Commonwealth of Pennsylvania and its management entity, the Oil 
Heritage Region, Inc., is experienced in natural and cultural resources 
preservation and heritage-related programming. The management entity 
enjoys the support of local governments and organizations in the 
proposed national heritage area. Its board of directors is already 
representative of many interests in the region. The bill provides that 
the Secretary will confirm its expanded representation in approving the 
required management plan for the heritage area.
    In the opinion of the Department there are four critical steps that 
need to be taken and documented prior to the Congress designating a 
heritage area. These stages are:
    1.  demonstration of widespread public support among heritage area 
residents for the proposed designation;
    2.  public involvement in the suitability/feasibility study;
    3.  commitment to the proposal from the appropriate representatives 
from governments, industry, and private, non-profit organizations, in 
addition to the local citizenry; and
    4.  completion of a suitability/feasibility study.
    The Department has reviewed the existing heritage and interpretive 
plans undertaken by Oil Region Heritage, Inc. beginning in 1994 and, at 
the request of Representative John Peterson, conducted a week-long 
reconnaissance visit to confirm the region's eligibility for 
designation in early August 2000. During the visit, the team met with 
the Mayor of Oil City, the Community Development Officers of Oil City 
and Franklin, the City Managers of Oil City and Titusville, two County 
Commissioners, a Regional Representative of the Governor's Office, a 
State Legislator, the District Director of Representative John 
Peterson, and other local leaders and officials. Senior officials, 
working representatives of government agencies, and non-profit leaders 
were also involved in meetings and informal visits.
    A feasibility report, entitled ``Field Report on the Oil Region 
Heritage Park, Pennsylvania, as a National Heritage Area,'' was issued 
subsequent to the reconnaissance visit on September 15, 2000. It 
concludes that the Oil Heritage Region had completed the above steps 
and met the interim feasibility criteria for designation as a national 
heritage area. At the suggestion of the Department, Representative 
Peterson also sponsored two public meetings in February 2001. At the 
meetings, there was overwhelming support for designation of a national 
heritage area. However, at this time, we would like to focus our 
efforts on developing generic national heritage area legislation as 
mentioned earlier in this testimony.
    That completes my testimony. I would be happy to answer any 
questions that you or any of the members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Patterson. We 
appreciate your testimony.
    The Chair recognizes Mr. Udall, Mr. Mark Udall, for 5 
minutes for questions.
    Mr. Mark Udall. Thank you, Mr. Chairman.
    If I might, I would like to direct some questions to Mr. 
Hughes and Mr. Pease on H.R. 2909. Could you describe the 
working relationship between the BLM and the Air Force in the 
Utah West Desert?
    Mr. Hughes. If I might start, I know it is my understanding 
that we have at least three major MOUs, one dealing with the 
management of wild horses and burros. We also have an MOU 
regarding what happens if an aircraft goes down on BLM land. 
And then, I think we also have a major MOU regarding 
firefighting activities on public lands.
    Mr. Pease. Sir, and I would say that is relatively standard 
in the three states where we have the largest land bases--we, I 
am saying the Air Force--in Utah, Nevada and Arizona. We have a 
very, very close working relationship with the BLM in those 
areas, and we do things like introduction of bighorn sheep up 
in areas very close to our--up in the Newfoundland Mountains, I 
believe, that were just reintroduced right in and around the 
bombing range and other things in other states. So it is a 
very, very close working relationship.
    Mr. Mark Udall. Excellent. Can either of you identify any 
specific problems that the wilderness study areas, the so-
called WSAs, in the Utah West Desert have caused for the Test 
and Training Range over the last decade, say? Any specific 
problems that the wilderness study areas have caused in the 
Test and Training Range?
    Mr. Pease. I am unaware of any problems that they have 
caused up until now.
    Mr. Mark Udall. If we did not--I should put it more 
accurately. In the absence of H.R. 2909, which is the situation 
we are in right now, do you see anything that would prevent the 
BLM and the Air Force from continuing to work cooperatively? 
Mr. Hughes or Mr. Pease?
    Mr. Hughes. No.
    Mr. Pease. No.
    Mr. Mark Udall. And you have outlined some of the great 
working agreements that you have, the MOUs and so on, that are 
in place, and if Mr. Gibbons were here, he would want to talk 
about the wild horses and burros for sure, since that is a 
significant challenge in his state and along the Utah-Nevada 
border.
    Moving on in my line of questioning, it sounds to me like 
the legislation that is being proposed is not necessarily going 
to solve any problems, because you all have not identified any 
problems, at least up to this point, in the hearing. Mr. 
Hughes?
    Mr. Hughes. I think the issue that we are talking about 
designating actual wilderness study areas or actually 
designating a wilderness area, which I think some of us think 
may have a higher threshold. So I think we are trying to 
understand, I know in Utah, where they do not have these--how 
these issues have been handled, for instance, in the California 
desert and other areas.
    Mr. Mark Udall. Mr. Pease, would you like to comment on 
that?
    Mr. Pease. Certainly; we realize that as we--I will tell 
you, as our relationship gets, in my estimation, and I have 
been doing this business for around 10 years, in uniform and 
now in the civilian sector within the civil service, our 
relationship is getting stronger and stronger with the Bureau 
of Land Management over that period of time. And we are 
learning a lot of things about how we operate. I believe that 
wilderness study areas, the disadvantage, if you will, of a 
wilderness study area is that it does freeze the status quo for 
a period of time.
    And so, we know that we cannot do some things in a 
wilderness study area until they are designated as wilderness. 
We have been successful in working with the Bureau of Land 
Management groups, states, this Committee, drafters of bills, 
of wilderness bills in California and Arizona, et cetera, to be 
able to preserve the compatibility of uses between the military 
and the land management agencies but also allow for a certain 
amount of flexibility to do our mission a little bit better, 
whereas, the letter of the law, perhaps, in the Wilderness 
Study Act would not allow us to do that, because those pieces 
of land are frozen, if you will, in time until they come to 
some wilderness bill one way or another.
    So that would be the advantage, if you want, of a 
wilderness bill itself.
    Mr. Mark Udall. So in an interesting way, there is some 
uncertainty in the wilderness study area approach that if we 
had wilderness would be more easily determined what you can and 
cannot do and how you would work with the BLM?
    Mr. Pease. It might be able to provide us with some 
flexibility for doing some things that would be compatible that 
the letter of the law would not allow us as it relates to the 
Wilderness Study Act.
    Mr. Mark Udall. My last question as my time begins to end, 
and directed to Mr. Hughes, is: Are you saying that we might 
have to consider the Air Force's needs if and when Congress 
considers legislation to designate the WSAs as wilderness?
    Mr. Hughes. No, I think what I attempted to say, and if I 
did not, I apologize, that we are trying to understand--some of 
the lands that are included, that we think are included in 
wilderness, in the proposed wilderness area, we really have not 
looked closely at, because it was not part of our WSA. Those 
areas may be areas that there might be some ongoing activities 
in or some plans for some activities, so we are just trying to 
understand what the Air Force's needs might be in the future 
and how that will play into the designation and what type of 
management schemes we can have there that can balance their 
need and the need for the military in the 21st Century versus 
our need to protect the resources out there.
    Mr. Mark Udall. Mr. Chairman, I see my time has expired, 
but I would just ask Mr. Hughes and perhaps Mr. Pease to 
consider a question that we could have answered, perhaps, 
later, which is it sounds like you might be making a case that 
the bill is premature at this point, that there is more work to 
do to understand where we might go.
    Thank you, Mr. Chairman.
    Mr. Radanovich. You are welcome. Thank you, Mr. Udall.
    The Chair recognizes Mr. Bishop from Utah.
    Mr. Bishop. Thank you again. Mr. Hughes, first of all, I 
would like to thank you for your testimony and thank you also 
for the help and the effort that you have done in all types of 
land issues in the State of Utah and with my office. And as the 
Congressman from Colorado has pointed out, there is a wonderful 
working relationship that we have right now which is the 
product of some very positive, proactive personalities that are 
down there.
    For obvious reasons, one of the reasons I would like to do 
this bill--and I will admit it--it is early on--is to make sure 
we take a proactive position to ensure this, which is the only 
land mass that we have to do these types of activities forever. 
So I want you to know first of all, I appreciate your 
invitation to continue to work with you as we have with the 
local leaders as we look especially at the proposed wilderness 
piece to maybe be creative in both the south as well as the 
north.
    Our starting point was obviously the bill that passed the 
House last year as to what would be designated as wilderness, 
and I would be more than happy to work with you, and I 
appreciate that opportunity to do so in the future as we look 
creatively at the southern piece as well as the northern piece 
so that you have the maximum ability to manage the property as 
well.
    Mr. Loman, I would like to ask you one question: as far as 
the testimony you gave, does the administrative process that 
you mentioned in your testimony as being frustrated by this 
legislation take into account any consideration of potential 
negative impacts of the PFS proposal on the Utah Test and 
Training Range or national security?
    Mr. Loman. Your question is does it take into account the 
negative effects?
    Mr. Bishop. Potential negative effects that that activity 
may have, specifically on the UTTR and national security.
    Mr. Loman. I would have to say because the NRC completed an 
environmental impact statement for this project, the answer 
would be yes.
    Mr. Bishop. Thank you.
    Mr. Pease, Colonel Pease, I appreciate your speaking. I 
guess the first question is simply this Utah Test and Training 
Range, for which we are talking about here, are there things 
that are done on there, types of training activities, that can 
be done nowhere else in the United States?
    Mr. Pease. We do the predominant amount of our cruise 
missile testing there. It is a large range, and we have other 
ranges that can do some of those things, but most of the cruise 
missile testing is done right there at the Utah Test and 
Training Range.
    Mr. Bishop. I understand that you have some other ranges 
that are over water that would give you the same kind of space 
that is here. Is there any other place that you have the same 
kind of land capabilities or air space capabilities that you 
have here?
    Mr. Pease. Well, we know that we have unique military 
values on all of the ranges that we have in the Air Force. We 
have some places that have larger pieces of air space in 
Alaska, for instance. We have over land and all kinds of 
different combinations. As far as the combination of land and 
air space, the Utah Test and Training Range is as large as any 
one of them.
    Mr. Bishop. Thank you. Colonel, in testimony that was given 
to the Nuclear Regulatory Commission, you stated the Air Force 
requires unrestricted access to this corridor in the severe 
MOU--that is the one that may be impacted. Approximately 70 to 
80 percent of all fighter and bomber training missions use this 
southern portion. If military aircraft were restricted from 
flying in the vicinity of a storage facility, if that were a 
decision, that would delay tactical maneuvering and 
subsequently reduce the effective training for each sortie 
flown to the southern portion of the Utah Test and Training 
Range.
    If I may quote from the next page as well: degradation of 
our operational test and training capabilities would be 
unacceptable. Consequently, any proposed location must not 
restrict current UTTR operations. The Air Force's interest is 
to ensure continued testing and training activities at this 
vital facility. Therefore, the Air Force opposes any 
restrictions that might result in the siting of the proposed 
PFS facility that would impair our ability to test equipment or 
train our military men and women on the land and the air space 
associated with the UTTR.
    Realizing that the final adjudication of whether a risk is 
or is not there has not been finally stated, and that still is 
open to some debate, do you still stand by these statements as 
to the impact and the importance to the UTTR?
    Mr. Pease. Yes, sir, and this is consistent with our 
statement about our operations as they relate to other 
facilities of this same nature. The citing of the facility, our 
interest has not been necessarily on the siting itself but on 
the impact to our operations, and our position has been that we 
would not accept restrictions to our operations associated with 
a siting of a particular piece of infrastructure of this kind.
    Mr. Bishop. Thank you, Colonel. I appreciate that.
    Mr. Tiller, I actually have a question for you, so how are 
you?
    Mr. Tiller. Fine. Yourself?
    [Laughter.]
    Mr. Bishop. Good, thank you.
    Mr. Chairman, that concludes my questions for this panel.
    [Laughter.]
    Mr. Radanovich. Thanks, Mr. Bishop.
    The Chair recognizes Mr. Tom Udall for 5 minutes.
    Mr. Tom Udall. Thank you very much, Mr. Chairman.
    I guess my question is directed to Mr. Hughes and Mr. 
Loman. Your testimony indicates that the Department of the 
Interior has some vague concerns with the prohibition on 
rights-of-way contained in H.R. 2909. Can you be more specific 
as to what those concerns are?
    Mr. Hughes. If I might, we have, as I indicated, two 
pending right-of-way applications. We also have 12 existing 
applications--or 12 existing rights-of-way that could come up 
for renewal during this timeframe that the bill prohibits. They 
include, just to give you an example, the Union Pacific 
Railroad from Salt Lake City to Sacramento; old U.S. Highway 
40; Interstate Highway 80, and those are the types of things 
that we want to work with the Committee on to make sure that 
they are aware that this sort of blanket prohibition may impact 
those rights-of-way at a future date.
    Mr. Tom Udall. So what is your position on the bill 
prohibiting or denying the rights-of-way?
    Mr. Hughes. Generally speaking, I think we generally 
dislike anything that prohibits administrative actions, you 
know, in a blanket way such as that.
    Mr. Tom Udall. So today, you are taking a position against 
that prohibition in the bill?
    Mr. Hughes. I think we would like to discuss that with the 
Committee. That is correct.
    Mr. Tom Udall. Well, at first, I thought you seemed to say 
that you would disapprove of that. I am trying to figure out 
what your position is today with regard to the prohibition in 
the bill. And I thought you said that we would generally 
disagree with that kind of thing being inserted in the bill.
    Mr. Hughes. Yes, yes, we have concerns about that being in 
the bill, for, again, some of the reasons I gave.
    Mr. Tom Udall. Well, I know you have concerns, but I would 
like to know: do you oppose it being in the bill, that kind of 
prohibition?
    Mr. Hughes. I think that is probably correct.
    Mr. Tom Udall. And Mr. Loman can agree with that, too?
    Mr. Loman. With respect to the prohibition that is going to 
prohibit the application for the proposed 30-mile railroad to 
the spent storage facility, we oppose that prohibition to that 
specific application for that transportation rights-of-way, 
because we believe that that is what will halt the ongoing 
process that will allow us to determine whether or not that 
proposed spent nuclear fuel storage facility is a viable option 
for our Indian beneficiaries.
    Mr. Tom Udall. So you oppose the prohibition on the rights-
of-way in H.R. 2909?
    Mr. Loman. Yes, sir.
    Mr. Tom Udall. Yes.
    No further questions. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Udall.
    The Chair recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Mr. Tiller, the staff has provided a statement 
here that says the Santa Monica Mountains National Recreation 
Area is approximately 153,000 acres, and the Rim of the Valley 
Study Area is over 491,000 acres. If the conclusion of the 
study is in the affirmative, the Secretary would recommend 
tripling the size of the unit and, at the same time, placing 
thousands of private property owners within the boundary of a 
National Park unit. Is that statement correct, and do you know 
how many private property owners we are talking about? The 
staff says thousands. Do you have any specific number?
    Mr. Tiller. With respect to that question, sir, no, I do 
not, but we can provide that for the record afterwards.
    On the larger issue, I think a number of things. One of the 
things that I think makes the Santa Monica Mountains such a 
successful management area is it is a great complexity of 
public and private lands, and it is probably safe to say it is 
more in the model of the parks of now and parks of the future 
rather than large acquisitions in fee or in interest by the 
Federal Government. And I think that is what has made Santa 
Monica Mountains so successful to date.
    My guess, without preempting the study and the 
consideration be done jointly by the two departments; I suspect 
that you will see that the final recommendations will be in the 
neighborhood of little to no acquisition in fee or interest by 
the Federal Government and, like many of the heritage areas in 
which I have testified a little bit later in my comments, you 
will see joint management by many entities. So I think that the 
likelihood that this study will come out recommending large 
increases in the size of the park and in Federal ownership 
would be very unlikely.
    Mr. Duncan. Well, let me ask you this: a witness who will 
testify later says that he is submitting letters from 34 Los 
Angeles area residents, including property owners and 
recreational units in and near the proposed study region; all 
of these very strongly oppose H.R. 704, and he ends up and says 
in conclusion, H.R. 704 has significant regional opposition 
from property owners and public access community leaders. Up to 
this point, they have had no idea what the NPS and the 
Conservancy have had in store. Supporters should go back to the 
drawing board and, this time around, begin an inclusive 
discussion process.
    If somebody has been alerted because of this hearing about 
this going on, when would be the next opportunity for opponents 
to show up and express their disapproval about this?
    Mr. Tiller. I think probably the best indication, those of 
you who are familiar with the sorts of studies that we 
undertake in these sorts of situations; we usually build these 
things out somewhere in the neighborhood of $250,000 to do the 
study; we have recommended and anticipate more than doubling 
that in the case if this goes forward, and this bill is made 
law. Given the complexity of landownership, given the 
complexity of people interested in this, and given the density 
of the population, public consultation, public meetings, 
notices in newspapers, I think the Department of the Interior 
and Department of Agriculture will definitely guarantee you 
significant and multiple accesses for private property owners 
and everyone interested in this issue to participate in this 
process.
    Mr. Duncan. Let me ask you this: you have got what? 354 
units in the National Park system or somewhere around that?
    Mr. Tiller. 388.
    Mr. Duncan. 388? All right; how many national recreation 
areas are there?
    Mr. Tiller. I am sorry, Congressman, I do not know off the 
top of my head.
    Mr. Duncan. How many national heritage areas are there?
    Mr. Tiller. There are 23 national heritage areas.
    Mr. Duncan. And there are what? Five more being proposed 
here today?
    Mr. Tiller. Yes, sir.
    Mr. Duncan. And then, how many national conservation areas 
are there?
    Mr. Tiller. I am not sure, sir. We will get you that for 
the record.
    Mr. Duncan. How many wildlife refuges are there?
    Mr. Tiller. I am not aware of that either at the moment.
    Mr. Duncan. We always hear about the Park Service not 
having enough money and having backlogs in maintenance and so 
forth. It would seem to me that it would be better for the Park 
Service to try to take better care of what they have instead of 
continuing to expand, expand, expand and take over more 
property under whatever guise. But I do not know.
    Mr. Loman, let me ask you this on the Utah situation: are 
there no other economic options available to the Goshutes than 
the nuclear waste storage? Because that storage apparently, 
from what I am told, is adamantly opposed by many, many 
residents of Utah.
    Mr. Loman. There are very few economic development 
opportunities, considering that the land is surrounded by waste 
facilities, the tribal land, including radioactive disposal 
sites and chemical and biological weapons depots. We are 
working with the band to identify other opportunities, and we 
have committed to the band that pursuing any such opportunity 
would not be a substitute for the proposed nuclear fuel storage 
facility.
    Mr. Duncan. All right; thank you very much. Thank you, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Duncan.
    Ms. Bordallo, you are recognized for 5 minutes. No time? 
Great.
    Mr. Peterson, you are recognized for 5 minutes--I am sorry; 
Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. Mr. Peterson was here 
a moment ago. He had to get a phone call.
    Mr. Radanovich. I am hearing and seeing different things 
here.
    Mr. Cannon. Mr. Chairman, I do not have any questions. I 
think I will yield some time to Mr. Bishop. But I would like to 
thank the panel for being here today. These are great guys, 
especially, as Mr. Bishop said, Mr. Hughes has been very, very 
helpful on our public lands issues in my district as well. I 
wanted to thank him in particular.
    And with that, I would like to yield to Mr. Bishop.
    Mr. Radanovich. Certainly.
    Mr. Bishop. Thank you.
    Mr. Loman, I was concerned with the last answer that you 
just happened to give. I understand that even if there are 
other economic opportunities that are presented to the Goshute 
Band that they still would like to pursue this particular one 
that deals with PFS and nuclear storage, right? Even if 
anything else was out there, they would still be moving forward 
or have expressed to you their willingness to move forward 
still with the PFS proposal.
    Mr. Loman. I cannot speak for what they want to do.
    Mr. Bishop. All right; well, I will ask them when they come 
up here.
    But are you aware of any other proposals that the band is 
currently seeking or currently working that would use their 
reservation land for other proposals that would not include 
this particular one?
    Mr. Loman. I am not, sir.
    Mr. Bishop. Well, then, we will ask them, too, to find out 
more about what they are doing there. Thank you.
    Mr. Cannon. Mr. Chairman, I yield back.
    Mr. Radanovich. Thank you.
    The Chair recognizes Mr. Schiff for 5 minutes.
    Mr. Schiff. Mr. Chairman, I want to thank you, and I will 
not take the 5 minutes. I just wanted to extend my thanks to 
the Park Service for their support of 704, and we would 
obviously invite the feedback that Mr. Duncan alluded to and 
look forward to having a full and public discussion of any 
issues concerning the bill.
    Thank you. Thank you, Mr. Chairman, I yield back.
    Mr. Radanovich. Thank you, Mr. Schiff.
    The Chair recognizes Mr. Peterson of Pennsylvania for 5 
minutes.
    Mr. Peterson. Thank you very much.
    Pat, I would like to, I guess, have a dialog with you. 
Thank you for coming today, and I thank the Chairman for 
including this legislation on this hearing. My interest is H.R. 
1862. I live five miles from Drake's Well, where the first oil 
well was drilled and where the whole oil industry started. I 
mean, this is where every major oil company in this country has 
its roots. And I vividly remember a number of years ago when we 
started this process, the Park Service was reluctant, but they 
sent a team out. But they came back excited that if there is 
something, if there is a heritage area that ought to be, oil 
ought to be one, because it is the valley that changed the 
world, and it is the area that changed how--that started the 
Industrial Revolution in this country, and there is just rich 
history there.
    In your testimony, you stated several considerations that 
the Park Service believes to be key components--this is in your 
written testimony--of a successful national heritage area and, 
as well, four critical steps that need to be taken and 
documented prior to Congress designating a heritage area, the 
first being to study the area prior to designation. In 
September of 2000, the National Park Service issued a field 
report that stated based on the results of the analysis of the 
components of the study, the field reconnaissance and the 
information provided by the Oil Heritage Region, Inc., no 
additional study should be needed on this one; is that correct?
    Mr. Tiller. That is correct, sir.
    Mr. Peterson. The second point in your testimony states 
that the area must contain nationally important, natural, 
cultural, historic or recreational resources. I do not think we 
have any disagreement that the Oil Heritage Region meets each 
and every one of these criteria, correct?
    Mr. Tiller. We do not.
    Mr. Peterson. The third consideration is the concept of the 
local support and initiative, and in your testimony, you stated 
that at two public hearings held in February 2001, there was 
overwhelming support for the designation of a national heritage 
area.
    Mr. Tiller. That is correct.
    Mr. Peterson. Fourth, you suggest that private property 
owners should be provided reasonable protection. Well, as a 
member of the Western Caucus, one of the few from the East, I 
wholeheartedly agree that property rights are an extremely 
important issue. And, however, the point of this bill is to 
preserve the history of the region. It is not my goal to 
provide a vehicle to steal Grandma Smith's farm or enforce 
Federal zoning laws within the area. I have been a leading 
proponent of property rights since I came to Congress and will 
continue to be one. I strongly believe that this bill goes 
above and beyond in protecting the rights of property owners.
    Next, you state the development of a working partnership 
among NPS, state entities and the local communities are vital 
to the success of the region. During the field study done in 
2000, the team met with numerous private, public and nonpublic 
officials, all of whom agreed to work together as partners to 
develop the area. Finally, you suggest that the designated 
areas must have a clear financial plan to obtain self-
sufficiency. The Oil Heritage Area is already currently a self-
sufficient operation in which, to quote the field report again, 
the ability to garner the much-needed financial support to 
preserve the significant assemblage of natural, historical and 
cultural resources would be enhanced with a national 
designation, because it has been a state designation since 
1994.
    In the field report done in September, the Department 
stated that with the recommended changes which are reflected in 
H.R. 1862, the Oil Heritage Region should be designated as a 
national heritage area without further suitability or 
feasibility analysis. Do you agree with that?
    Mr. Tiller. That is correct.
    Mr. Peterson. OK; and a letter sent to the former Chairman 
of this Subcommittee and Committee Chairman Hansen on October 
11, 2001, the Department stated that the following review of 
the study by the National Park Service leadership, the 
Department now has no objections to the establishment of the 
Oil Heritage Region.
    Mr. Tiller. That is my understanding, yes.
    Mr. Peterson. I guess I just want to give one sales pitch 
here. I live near here. This area contains the world-renowned 
Drake Well Museum, Pit Hole Museum, Oil Creek State Park, 
Allegheny Wild and Scenic River Area; it also contains six 
national historic districts, 17 sites listed on the National 
Register of Historic Places, and the largest collection of 
Victorian homes in the country, and I live in one of those, and 
that has been a pleasure. It has not been cheap, but it has 
been a pleasure.
    [Laughter.]
    Mr. Peterson. Remnants of the oil boom era, including 
McClintock Well No. 1 in Oil City, which is known as the oldest 
operating well in the world, and those kinds of sites can be 
found throughout the region. The stories of early oil magnates 
and those who worked in the oil fields provide exceptionally 
rich interpretive opportunities related to the region's natural 
and cultural resources.
    This important heritage contributes not only to our own 
national story but also to the advancement of industries and 
transportation systems throughout the world, and I guess in my 
view, the debate around energy today brings back the relevance 
of what happened here many, many years ago.
    Yet, in your testimony today, you recommend that this 
Subcommittee defer action on this bill until generic heritage 
area legislation is enacted, even though H.R. 1862 has met or 
exceeded each and every one of your proposed criteria for the 
bill.
    Mr. Tiller. That is correct.
    Mr. Peterson. Why should we wait, when everybody thinks it 
should have been done a long time ago, we should be collecting 
and getting the history of oil so all of Americans can 
understand it, our future generations can understand it? I live 
in an area that has been pretty hard-hit economically; to 
promote tourism, you know, why should we wait?
    Mr. Tiller. The potential Oil Heritage Area and others 
being considered today, like the Upper Housatonic, are, as you 
pointed out, spectacular nationally significant resources with 
great local support, and we are certainly sympathetic with the 
desire to get moving on that.
    As I said in my testimony, we have spent close to 20 years 
on this in the absence of any sort of administrative or 
regulatory framework. And I know it is the feeling of the 
Department, all the while not wanting to slow down this 
enthusiasm and the benefits that accrue from these things, that 
it is time to draw the line; work quickly with this Committee 
and with their counterparts in the Senate and to try to 
establish this framework. And we are very sympathetic with all 
of the great enthusiasm and energy in your district and the 
other ones in the area, but the Administration feels that it is 
time to get this program established after this time so that we 
can move forward.
    And we know that there are many more being considered out 
there across the country also, and it is the time.
    Mr. Peterson. I think there have been lots of heritage 
areas proposed historically that in no way or pale in 
significance to the history of oil in this country, the history 
of oil in the world.
    I guess I want to thank you for your testimony and your 
graciousness and this good cooperation from the Department, but 
I guess I would like to say to the Chairman that I hope that 
that testimony is not heeded and that we can move forward. You 
know, the last session, this bill passed unanimously and was 
within minutes of being law in the Senate, and then, somehow, 
it got fumbled at the closing hours of the Senate, or it would 
have been law today.
    I find it troubling that we have to wait until--because I 
think this bill, the way it has been processed by the 
Committee, can be the pattern of how it should be done, and the 
legislation can be drafted after the fact as to here is how we 
ought to do them. And so, I guess I would want to thank 
everybody for your participation. But the Oil Heritage needs to 
be done sooner, not later, and I hope we can accomplish that.
    Mr. Radanovich. Any other further questions?
    I want to thank the panel. The Committee thanks the panel 
for your testimony here. It is very valuable. And I appreciate 
your appearance here today. Thank you very much.
    Mr. Radanovich. With that, I will call up our third panel, 
consisting of Mr. Randy Johnson, Deputy Director of the 
Planning for Public Lands of the State of Utah, Salt Lake City, 
Utah; Mr. Scott Groene, Southern Utah Wilderness Alliance, 
Washington, D.C.; Mr. Leon D. Bear, Chairman of Skull Valley 
Band of Goshute Indians in Salt Lake City; the Hon. Anthony 
Portantino, member of the Santa Monica Mountains Conservancy 
Advisory Committee; and Mr. Mike Hardiman, Legislative Director 
for the American Land Rights Association in Washington, D.C.
    If you gentlemen would please take your seats. Gentlemen, 
thank you for being here today. What we will do is start with 
Mr. Johnson on my left and work through. Everybody has got 5 
minutes. The lights are your guide there. Green means go, just 
like a traffic light; yellow means speed up; and red means 
stop.
    [Laughter.]
    Mr. Radanovich. So please abide by the rules, and keep your 
testimony within 5 minutes. And then, after that, we will open 
it up to questions from members here on the Committee.
    Mr. Johnson, welcome to the Committee. We appreciate your 
testimony on H.R. 2909. Thank you, sir.

   STATEMENT OF RANDY JOHNSON, DEPUTY DIRECTOR, PLANNING FOR 
       PUBLIC LANDS, STATE OF UTAH, SALT LAKE CITY, UTAH

    Mr. Johnson. Thank you very much, Mr. Chairman, 
Subcommittee members. I thank you for this opportunity to 
testify before the Committee on Resources regarding H.R. 2909, 
the Utah Test and Training Range Protection Act. By way of 
introduction, I serve as the state deputy director of planning 
and public lands specialist for the Governor's Office and speak 
on behalf of the Governor's Office of the State of Utah.
    Utah is a state of beautiful and widely diverse landscapes. 
Over 70 percent of the State of Utah is public land. This makes 
for some very interesting and difficult economic challenges, 
due to the lack of private land base. It also makes Utah pretty 
much the poster child for public land management conflict 
issues.
    As we well know, Utah is divided by many interests 
concerning the management and enjoyment of our public lands. 
There are very passionate people on all sides of these issues, 
and collaboration on public land management has been extremely 
difficult if not impossible in the past.
    Bringing each relevant stakeholder to the table requires a 
lot of time and patience, and exacting a solution is even more 
difficult. We are here in support of this legislation, because 
it is the exception to the rule and represents a collaborative 
process that Congressman Bishop has begun and continues to 
diligently follow. The State of Utah recognizes this and 
supports this legislation as an example of achieving a balance 
between competing economic and environmental interests. 
Governor Leavitt has long been an advocate of a similar 
approach with his principles in the State of Utah and would be 
pleased to make progress on wilderness designation in this 
state.
    This legislation demonstrates that although there are 
diverse uses of our public lands, it is possible for these uses 
to overlap and coexist. We believe that this legislation 
achieves a balance between competing economic and environmental 
issues. The Utah Test and Training Range is of national 
significance. It is of vital and unparalleled value for all the 
branches of the military service that train there, and there 
are also areas nearby with significant wilderness qualities.
    By protecting both the UTTR and the Cedar Mountains, this 
legislation balances the interests of Utah's fifth-largest 
employer as well as our national security with responsible land 
management practices. Most Utahns favor a balanced approach. In 
fact, in a recent poll, when given a choice as to whether we 
should protect the environment at the expense of the economy, 
the economy at the expense of the environment or whether we 
should be able to achieve a balance between the two, 75 percent 
of Utahns believed that we should and can achieve a balance. 
H.R. 2909 is a sincere effort to do just that.
    Another area of our support is toward the collaborative 
process involved in this legislation. We believe that this 
legislation could be a step forward in resolving conflicts on 
public lands and achieving some level of balance between many 
competing interests. Resolving conflicts on public land 
management issues is not easy in Utah. Solutions must be 
tailor-made to fit the actual conditions that exist on the 
ground.
    While this is arduous and difficult, it is important that 
this be the way we make progress on public land management 
issues. H.R. 2909 is an attempt to do just that.
    Now, being mindful of our basic support for this 
legislation, the State of Utah does have some concerns about 
this bill in its present form, and I would speak of two. First, 
H.R. 2909 does not address the ability of the Utah Division of 
Wildlife Resources to maintain existing water sources in the 
Cedar Mountains. The State installed 21 guzzlers that provide 
water to wildlife in the Cedar Mountains area, and these 
guzzlers are crucial to maintaining healthy populations of 
wildlife because of the lack of available water resources.
    The State has a great interest in maintaining these water 
developments and would ask that the Congress include language 
preserving our ability to access and maintain them.
    Our second area of concern is that H.R. 2909 does not 
address the issue of water rights. Water is an extremely 
important resource in the desert areas of the State of Utah, 
and because of minimal water resources on the Cedar Mountains, 
a federally reserved water right would only impair the State's 
ability to manage wildlife and truly would serve no useful 
purpose. The State would like Congress to include language 
clarifying that this legislation does not reserve or claim a 
Federal water right in the Cedar Mountain area.
    In summary, the State of Utah supports this legislation, 
because it attempts to balance competing environmental and 
economic interests. We also support this legislation because it 
is the result of a collaborative process. Governor Leavitt has 
often said that there is very little to be gained on the two 
extremes of any issue but much to be gained by drawing people 
together toward the larger center and honest efforts to reach 
workable solutions.
    We support any effort to move forward, reach balance, find 
solutions, and feel that this legislation makes an effort to 
work in that direction. We look forward to working with 
Congress and this Committee to resolve and clarify any concerns 
the State may have, and we are confident that we will be able 
to do exactly that.
    Thank you again for this opportunity to testify.
    [The prepared statement of Mr. Johnson follows:]

  Statement of Randy Johnson, Deputy Director of Planning for Public 
                   Lands, State of Utah, on H.R. 2909

    Mr. Chairman and Committee Members: I thank you for this 
opportunity to testify before the Committee on Resources regarding H.R. 
2909, the Utah Test and Training Range Protection Act. By way of 
introduction, I serve as the Deputy Director of Planning and public 
lands specialist for the Governor's Office. I speak on behalf of the 
Governor's Office of the State of Utah.
    Utah is a state of industrious, friendly, hardworking people. It is 
also a state of beautiful and widely diverse landscapes from the great 
salt flats in the northwest, to the red rock canyons and deserts of the 
southeast, to the alpine mountains of the northeast, to the rapidly 
growing communities of the southwest. Over 70% of Utah is public land. 
This makes for some very interesting and difficult economic challenges 
due to this lack of private land base. It also makes Utah the poster 
child for public land management conflict.
    As you well know, Utah is divided by many interests concerning the 
management and enjoyment of our public lands. These divisions have 
created much strife over the years and have resulted in endless 
deadlock. These controversial issues, however, are not the focus of my 
testimony today. There are very passionate people on all sides of these 
issues, and collaboration on public land management has been extremely 
difficult, if not impossible, in the past. Bringing each relevant 
stakeholder to the table requires a lot of time and patience, and 
exacting a solution is even more difficult.
    We are here in support of this legislation because it is the 
exception to the rule, and represents a collaborative process that 
Congressman Bishop has begun and diligently followed. The State of Utah 
recognizes this and supports this legislation as an example of 
achieving a balance between competing economic and environmental 
interests. UTTR is of national significance. It is of vital and 
unparalleled value for all of the branches of military service that 
train there. Governor Leavitt has long advocated a similar approach 
with his Enlibra principles. In fact, we have identified two main areas 
of support. The first is based on this area of balance, the second is 
based on the concept of collaboration.
    This legislation demonstrates that, although there are diverse uses 
of our public lands, it is possible for these uses to overlap and co-
exist. We believe that this legislation achieves a balance between 
competing economic and environmental interests. By both protecting the 
Utah Test and Training Range and the Cedar Mountains, this legislation 
balances the interests of Utah's fifth-largest employer as well as our 
national security with responsible land management practices. Most 
Utahns favor such a balanced approach. In fact, in a recent poll, when 
given the choice as to whether we should protect the environment at the 
expense of the economy; protect the economy at the expense of the 
environment; or if we can achieve a balance between the two, 75% of 
Utahns said that we can and should achieve a balance. H.R. 2909 is a 
sincere effort to do just that.
    Our second area of support is toward the collaborative process 
involved in this legislation. We believe that this legislation could be 
a step forward in resolving conflicts on public lands and achieving 
some level of balance between the many competing interests. Many have 
advocated one-size-fits-all solutions to resolving conflicts, but 
things are not that simple and easy in Utah. Solutions must be tailor-
made to fit the actual conditions that exist on the ground. While this 
is arduous and difficult, it is important that this be the way that we 
make progress on public land management issues. H.R. 2909 attempts to 
do just that.
    Being mindful of our basic support, the State of Utah does have 
some concerns about the bill in its present form. I will speak of two. 
First, H.R. 2909 does not address the ability of the Utah Division of 
Wildlife Resources to maintain existing water sources within the Cedar 
Mountains. The State installed 21 guzzlers that provide water to 
wildlife in the Cedar Mountains area. These guzzlers are crucial to 
maintaining healthy populations of wildlife in this area because of the 
lack of available water resources. The State has a great interest in 
maintaining these water developments, and would ask that the Congress 
include language preserving our ability to access and maintain them.
    Our second area of concern is that H.R. 2909 does not address the 
issue of water rights. Water is an extremely important resource in the 
desert areas in the State of Utah. Because of the minimal water 
resources in the Cedar Mountains, a federally reserved water right 
would only impair the State's ability to manage wildlife, and would 
serve no real purpose. The State would like Congress to include 
language clarifying that this legislation does not reserve or claim a 
water right in the Cedar Mountains area.
    In summary, the State of Utah supports this legislation because it 
attempts to balance competing economic and environmental interests. We 
also support this legislation because it a result of a collaborative 
process. Governor Leavitt has often said that there is very little to 
be gained on the two extremes of any issue, but much to be gained by 
drawing people together toward the larger center in honest efforts to 
reach workable solutions. We support any effort to move forward, reach 
balance, and find solutions, and feel that this legislation makes an 
effort to work in that direction.
    We look forward to working with Congress and this Committee to 
resolve and clarify any concerns the state may have. We are confident 
that we will be able to do that. Thank you again for the opportunity to 
testify.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Johnson.
    Mr. Scott Groene, welcome to the Subcommittee, and you may 
begin your testimony.

 STATEMENT OF SCOTT GROENE, SOUTHERN UTAH WILDERNESS ALLIANCE, 
                        WASHINGTON, D.C.

    Mr. Groene. Thank you. My name is Scott Groene. I am a 
staff attorney with the Southern Utah Wilderness Alliance. I 
speak today also on behalf of the Natural Resources Defense 
Council, the Wilderness Society and the Campaign for America's 
Wilderness.
    In summary, we have serious concerns with H.R. 2909. There 
has been inadequate information provided to determine the 
effects of this legislation on public lands. We are also 
concerned with the adverse effect the existing bill would have 
on designated wilderness and wilderness study areas. H.R. 2909 
covers hundreds of thousands of acres of Bureau of Land 
Management lands that qualify as wilderness in Utah's basin and 
range country known as the West Desert and would directly 
affect at least nine wilderness study areas.
    These WSAs, which cover only a fraction of the West 
Desert's qualifying wilderness, have outstanding scenic and 
biologic values. Each of these WSAs covers an isolated 
ecosystem, a biological island surrounded by desert playas 
where many unique species have evolved and survived after 
separation from a larger historic range. The legislation would 
also directly affect the Cedar Mountains.
    Over 20 years ago, the BLM performed a wilderness inventory 
of the central unit of this range and identified approximately 
50,000 acres that was designated the Cedar Mountains Wilderness 
Study Area. The agency subsequently acknowledged that this 
inventory was flawed and inadequate and in the late 1990s set 
about to conduct a comprehensive and accurate wilderness 
inventory for the State of Utah. In a 1999 document, the BLM 
reported that it had reconsidered the Central Cedar Mountain 
Unit and determined that it previously missed over 15,000 acres 
that qualified as wilderness there.
    Unfortunately, Secretary Norton has since reversed 20 years 
of BLM practice and precluded the agency from inventorying and 
protecting these sorts of lands in resource management plans. 
As a result, the BLM has not conducted accurate inventories for 
the North and South Cedar Mountain Wilderness Units.
    The Utah Wilderness Coalition has proposed that 
approximately 110,000 acres of the Cedar Mountains be protected 
as wilderness as part of America's Red Rock Wilderness Act. 
This is in the North, the Central and the Southern Units.
    Having briefly discussed the landscapes involved, I would 
like to raise our concerns with specific language in H.R. 2909. 
There is no map depicting the areas to be designated as 
wilderness in the Cedar Mountains, and we believe that it is 
premature to conduct a hearing when there is no means by which 
to measure the benefit or potential harm conveyed by the 
legislation. Nor is there proposed report language, although 
the legislation contains ambiguous language regarding 
construction activities inside the wilderness and wilderness 
study areas.
    Section 3(d) of the legislation allows the installation of 
new and continuation of existing communication sites in 
wilderness designated by the Act and existing wilderness study 
areas. This provision raises several problems. First, the 
construction and presence of such sites, including maintenance 
by helicopter, is inconsistent with the Wilderness Act and will 
diminish wilderness values. Second, the Act allows new sites to 
be constructed inside wilderness study areas. This is 
unprecedented language which dictates specific management of 
WSAs differently from that set out by Congress in the 1976 
Federal Land Policy Management Act.
    Third, the language is ambiguous, and we are concerned that 
it could allow a creeping increase of sites in the wilderness. 
And finally, the Secretary of the Air Force is given 
consultation authority over decisions made regarding covered 
wilderness that it does not have over general public lands.
    In conclusion, we urge you to oppose this legislation 
unless these basic questions are addressed, and the West Desert 
Wilderness is given adequate protection. I would like to say 
that we do appreciate the discussions we have had with Mr. 
Bishop's office, and we are willing to work with Mr. Bishop to 
address the concerns we have raised. And it is our hope that 
such efforts will be fruitful. But we will vigorously oppose 
the bill if it fails to address our concerns.
    We understand that H.R. 2909 would designate wilderness, at 
least in part, to prevent development of a transportation 
corridor necessary for a proposed nuclear waste storage site. 
We fully share the concern over the public safety issues raised 
by the proposed nuclear waste site. However, we urge the Utah 
delegation to pursue similar legislation that would effectively 
block this waste from coming into our state without the 
potential controversy raised by H.R. 2909.
    Thank you for the opportunity to speak and for your 
attention to our concerns.
    [The prepared statement of Mr. Groene follows:]

              Statement of Scott Groene, Staff Attorney, 
            Southern Utah Wilderness Alliance, on H.R. 2909

    My name is Scott Groene and I am a staff attorney with the Southern 
Utah Wilderness Alliance. I speak today also on behalf of the Campaign 
for America's Wilderness, the Natural Resources Defense Council, and 
The Wilderness Society.
    In summary, we have serious concerns with H.R. 2909. There has been 
inadequate information provided to determine the effect of this 
legislation on public land. We are also concerned with the adverse 
effect the existing bill would have on designated wilderness and 
Wilderness Study Areas (WSAs).
    H.R. 2909 covers hundreds of thousands of acres of Bureau of Land 
Management (BLM) land that qualify as wilderness in Utah's basin and 
range country known as the West Desert. The legislation is far 
reaching, as it would affect this wilderness, military use of the West 
Desert, and a potential rail line for transporting nuclear waste into 
Utah.
The Affected Landscape:
    The WSAs: The legislation would directly affect at least nine 
existing Wilderness Study Areas, including the Deep Creek, Fish 
Springs, Swasey Mountain, Howell Peak, Notch Peak, King Top, Wah Wah 
Mountain and Conger Mountain WSAs. These WSAs cover only a fraction of 
the West Desert that qualifies as wilderness.
    The West Desert is roughly located between the Great Salt Lake and 
Nevada, and is characterized by rugged mountain ranges alternating with 
broad valley floors. About 20 million years ago the opposite motion of 
enormous plates of the earth's crust began forming this landscape. Land 
east of California's San Andreas Fault, where the plates meet, has 
since been stretched, creased and wrenched into shape like so much soft 
clay, forming the Sierra Nevada and the hundreds of ranges east to 
Utah's Wasatch Mountains. Throughout the Great Basin, massive walls of 
rock rise abruptly, lifted at an angle approaching 60 degrees. The 
landscape is young geologically, and in the profound silence of the 
desert one may easily imagine that these mountains are still growing, 
which is precisely the case.
    Rising from the desert floor at an elevation of 4,800 feet to peaks 
over 12,000 feet high, the Deep Creek Mountains are among Utah's most 
spectacular. For all their ruggedness, the Deeps also contain verdant 
alpine meadows and forested canyons that are an unexpected delight to 
desert travelers. The enormous vertical relief--greater than that of 
the Teton Range from Jackson Hole--creates a variety of ecological 
conditions that foster biological diversity unmatched in Utah's desert 
mountains. Eight perennial streams flow from the rough-hewn canyons, 
allowing deer, elk, bighorn sheep, cougar, bobcat, coyote and other 
wildlife to flourish. Due to their isolation from other similar 
environments, the Deeps also support a dozen plant and animal species 
found nowhere else.
    The Fish Springs Range rises like an enormous dorsal fin out of the 
flat desert. Steep, dry, craggy and remote, bisected by rugged canyons, 
the range offers solitude just a short distance from good roads.
    At over 9,600 feet, Swasey Mountain is the highest peak in the 
House Range and a prominent West Desert landmark. This wilderness 
includes limestone caves as well as a nationally significant fossil 
collecting site.
    The enormous western face of Notch Peak is the desert equivalent of 
Yosemite's El Capitan. Notch Peak rises vertically almost 4,450 feet 
and is one of the highest cliffs in North America. Striking bands of 
gray and white limestone decorate the sheer rock face, and twisting 
canyons give it dimension.
    The King Top WSA of the Confusion Range contains unique Ordovician 
fossils, which have special scientific and educational value. King Top 
Mountain, with an elevation between 5,000 and 8,000 feet, supports wild 
horses and antelope and is well-used during autumn by deer hunters. 
Much of the area is a high plateau, rugged and sere, remote from human 
intrusion.
    Crystal Mountain at the northern end of the proposed Wah Wah WSA 
stands out against the gray limestone, as a pure white remnant of 
volcanoes that preceded basin-and-range faulting in this region.
    The Conger Ranges is an odd jumble of hills, mountains and rugged 
cliffs that culminate in the 8,000-foot summit of Conger Mountain. 
Creased ridgelines leading to a forested peak mark the view of Conger 
Mountain from the west, while the eastern side is sheer and rocky; more 
than a dozen canyons slice into the area.
    These WSAs include more than geologic splendor. Two tree lines, an 
upper and lower, define three life zones in the higher mountains of the 
Basin and Range. Above tree line in the Deep Creek Mountains, for 
instance, flowered meadows sprawl among the granitic peaks and glacial 
cirques. On the limestone soils of high ridges in the Wah Wah 
Mountains, House Range, and Deep Creek Mountains grow bristlecone pine 
trees, gnarled and tenacious, among the earth's oldest living things. 
In sheltered slopes and valleys are clusters of spruce, subalpine and 
Douglas fir, limber pine, and aspen.
    At lower elevations, where available moisture diminishes, is a 
broad belt of pinyon pine and juniper woodlands, interspersed with 
patches of wiry mountain mahogany and sagebrush. Below this woodland 
are hills covered with sage, grasses and shadscale. Saltbush and 
greasewood dominate the benchlands, though in places spring-watered 
marshlands contrast with the arid surroundings. Finally, there is the 
enormous solitude of wide salt flats, their white alkali crusts and 
brackish water seeming to lead downhill only because of the earth's 
curvature.
    Each of the mountain ranges in Utah's Basin and Range Province is 
an isolated ecosystem, a biological island surrounded by desert playas, 
where many unique species have evolved or survive as relics after 
separation from a larger historic range. Several of these montane 
islands have been the subject of ecological studies.
    Six of the WSAs in the West Desert encompass habitat for the 
peregrine falcon. Eagles and many other uncommon birds also winter 
there. Trout Creek and Birch Creek in the Deep Creek Mountains support 
the rare Bonneville cutthroat trout. Both bighorn and antelope are 
native to the Basin and Range country.
    Several rich and well-documented habitation sites in Utah's West 
Desert indicate human occupation by Desert Archaic and Fremont Indian 
cultures in the region for at least 10,000 years. The most important 
cultural sites are caves and rock shelters. Major cultural sites have 
been identified in the Deep Creek, Fish Springs, and near Granite Peak, 
but all of the ranges within the Utah Wilderness Coalition's proposal 
have been only lightly inventoried, and it is probable that important 
finds await discovery. Other known archeological sites remain 
unpublicized to protect them from vandalism.
    The Cedar Mountain Wilderness: It is uncertain how much of the 
Cedar Mountain Wilderness, that is proposed for wilderness designation 
by the Utah Wilderness Coalition as outlined in America's Redrock 
Wilderness Act (H.R. 1796), would be protected under H.R. 2909, as no 
map has been provided. The Coalition's proposal would protect 
approximately 110,000 acres of the Cedar Mountains in three units 
(North Cedar Mountains: 14,718 acres; Central Cedar Mountains: 66,186 
acres; South Cedar Mountains: 28,338 acres).
    In the late 1970's, the BLM performed a wilderness inventory of the 
central unit of this range and identified roughly 50,000 acres that was 
designated as the Cedar Mountain WSA. The agency subsequently 
acknowledged that this inventory was flawed and inadequate and set 
about to conduct a comprehensive wilderness inventory for the State of 
Utah. In a 1999 document, the BLM reported that it had reconsidered the 
Central Cedar Mountain Unit and determined that it had previously 
missed over 15,000 acres that qualified as wilderness here, bringing 
the unit size to approximately 66,000 acres. In other words, on re-
inventory, the BLM largely agreed with the Utah Wilderness Coalition's 
central unit boundaries. Secretary Norton has since precluded the 
agency from conducting further wilderness inventories and protecting 
these lands in Resource Management Plans. Unfortunately, that means 
that the BLM has not conducted adequate inventories for the North and 
South Cedar Mountain wilderness units.
    The Cedar Mountain wilderness units lie on the eastern edge of the 
Great Salt Lake Desert and are situated just south of I-80, roughly a 
one hour drive west of Salt Lake City. These wilderness units display 
classic Basin and Range topography, are oriented in a north-south 
direction, with elevations ranging from 4,400 feet to over 7,700 feet 
at its mountain summits and ridgelines. Deep canyons, running east and 
west from the ridgelines are peppered with pinon pine and juniper 
forests. Mixed mountain brush communities dominate the north-facing 
slopes, while the south-facing slopes and ridge tops are dominated by 
sagebrush and native grasses. Rabbitbrush and greasewood are common in 
drainage bottoms and bench lands.
    The view from this range is spectacular, including the Silver 
Islands, Crater Island, and the Newfoundland Mountains, which are 
surrounded by the expansive playa salt flats of the Great Salt Lake 
Desert which was once covered by the ancient inland sea of Lake 
Bonneville around 15,000 years ago. Distant views of numerous mountain 
ranges are seen in every direction and include the Grouse Creek, Pilot 
Range, Deep Creek Mountains, Fish Springs Range, Dugway Range, Granite 
Peak, Promontory Mountains, Stansbury Mountains, Wasatch Mountains, 
Lakeside Mountains and Grassy Mountains.
    Wildlife is abundant in the Cedar Mountains. Mule deer, pronghorn 
antelope, coyote, bobcats, bats, an occasional mountain lion, ravens 
and reptiles all inhabit these units. This mountain range is also home 
to such raptors as the golden eagle and the red-tailed hawk.
    Several archeological sites have been identified in the northern 
portion of the range. However, in other locations comprehensive 
inventories are still needed to fully understand this resource. The 
Utah Wilderness Coalition's proposed Cedar Mountain wilderness units 
provide exceptional solitude opportunities for visitors. In addition to 
being remote and seldom visited, vegetation and topography enhances a 
person's outstanding sense of isolation and seclusion. Hiking, camping, 
backpacking, hunting, horseback riding, scenic photography, nature 
study and wildlife sightseeing are a few of the outstanding primitive 
recreation opportunities within the Cedar Mountains.
Legislative concerns:
    We have several concerns regarding the legislation.
    Lack of map: There is no map depicting the areas to be designated 
as wilderness. It is premature to conduct a hearing when there is no 
means by which to measure the benefit or potential harm conveyed by the 
legislation.
    Lack of report language. There is no proposed report language, 
although the legislation contains ambiguous language regarding 
construction activities inside wilderness and other matters.
    New communications facilities allowed in wilderness. Sec. 3(d) 
allows the installation of new, and continuation of existing, 
communication sites in wilderness designated by the Act and existing 
wilderness study areas. This provision raises several problems:
    a. Conflict with wilderness: The construction and presence of such 
sites, including maintenance by helicopter, is inconsistent with the 
Wilderness Act and will diminish wilderness values, especially if 
located on peaks.
    b. Unprecedented WSA management language: The Act provides that new 
sites can be constructed inside Wilderness Study Areas. This is 
unprecedented language that dictates the specific management of WSAs 
differently from that set out by Congress in FLPMA.
    c. Uncertain need for exceptions, and breadth of exceptions: the 
Act provides that the Secretary of Interior can allow new sites when 
these collectively will create a ``similar impact'' that does not 
expand the ``size or significantly expand the numbers of such 
systems,'' and does not require construction of a road. This language 
could allow a creeping increase of sites.
    The vagueness of the 3(d) language suggests the exceptions may not 
be necessary or could be narrowed by determining in the report language 
whether: there are existing systems within the ``covered wilderness,'' 
the locations of those systems, and whether there is a need to continue 
these systems. Further, it should be determined whether there is a need 
for any new systems in the region and, if so, the locations of these 
systems.
    The exceptions could also be narrowed by limiting the frequency in 
which maintenance could occur.
    d. Military given more authority inside wilderness than out: The 
Secretary of the Air Force is given consultation authority over 
decisions made regarding covered wilderness. The military does not have 
this authority over general public lands, and should not be granted 
this authority over designated wilderness.
Conclusion:
    We urge you to oppose this legislation unless these basic questions 
are addressed and the West Desert wilderness is given adequate 
protection.
    We are willing to work with Mr. Bishop to address the concerns we 
have raised, and it is our hope that such efforts will be fruitful. But 
we will vigorously oppose the bill if it fails to adequately address 
our concerns.
    At the same time, we wish to underscore our ongoing concern with 
the potential public safety hazard that would be created by an above-
ground nuclear waste storage site near the urban core of Utah's 
population. We understand that one motivation behind the designation of 
wilderness in the legislation under consideration today is to prevent 
the development of the nuclear waste transportation corridor necessary 
for the proposed storage site. While we fully share the concern of this 
legislation's chief sponsor with the public safety issues raised by the 
creation of the proposed nuclear waste storage site, we urge the Utah 
Delegation to pursue simpler legislation that would effectively block 
nuclear waste without creating other concerns for the conservation 
community. We would also urge a consideration of how to compensate the 
Goshute Nation for lost economic opportunities if the nuclear waste 
site is blocked.
    Thank you for the opportunity to speak on this legislation and your 
consideration of our comments.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Groene. I 
appreciate it.
    Mr. Leon Bear, welcome to the Subcommittee. You may begin 
your testimony.

   STATEMENT OF LEON D. BEAR, CHAIRMAN, SKULL VALLEY BAND OF 
             GOSHUTE INDIANS, SALT LAKE CITY, UTAH

    Mr. Bear. Good afternoon. My name is Leon Bear. I am the 
Chief of the Squaw Valley Band of Goshute Indians and Chairman 
of the Squaw Valley Executive Committee.
    At this time, my testimony today is a summary of the 
written testimony that I have already submitted. I appreciate 
your invitation to testify before the Subcommittee on H.R. 
2909. Whatever the intent, purposes of this legislation, I must 
advise you that several provisions in this bill, as introduced, 
would deny access to the Squaw Valley Indian Reservation, which 
was created pursuant to an 1863 treaty with the United States.
    As explained by this testimony, this bill is but the latest 
in a series of efforts by Utah political leaders, led by 
Governor Mike Leavitt, to deny Goshute treaty rights. The UTTR 
is superimposed across millions of acres of Goshute aboriginal 
territory, as described in the 1863 treaty. The treaty 
recognizes this area as Goshute homeland. In return for my 
ancestors' permission for the cavalry, wagon trains, railroad 
or Pony Express to cross over these lands, the treaty did not 
relinquish Goshute title or use of this tribal homeland.
    At one point in time, the Goshutes had 20,000 members, but 
with the encroachment of non-Indians, today, our numbers are 
down to 500.
    In the recent years, the Utah West Desert has become home 
to all forms of toxic waste disposal, both military and 
commercial. There is currently no significant commercial 
development on the reservation. Most of our people have been 
forced to move away to seek employment. In 1996, we entered 
into a lease agreement to agree to lease 820 acres of tribal 
land with a consortium of utilities known as Private Fuel 
Storage to store the spent fuel rods from commercial nuclear 
reactors.
    The State of Utah has opposed this license application by 
intervening in this process, which the State is entitled to do. 
And now, we have H.R. 2909. To Congressman Bishop's credit and 
unlike his predecessors, he has been willing to meet with the 
leadership of the band and to include us in discussions of this 
legislation.
    Section 4(b) expressly prohibits the Secretary of the 
Interior from issuing any rights-of-way across lands 
surrounding the reservation until the latter of the following: 
the completion of a full revision of the Pony Express Area 
Resource Management Plan; 2) January 1, 2015, thus, for a 
minimum of 11 years and perhaps indefinitely, there can be no 
new industrial or transportation corridors to the reservation.
    The only current access to the reservation is the Squaw 
Valley Road, and the Governor and Legislature have been trying 
to gain control over that road, as to build a moat around the 
reservation. But nothing can justify cutting off access to the 
Squaw Valley Reservation, which was created pursuant to the 
treaty with the United States. The Goshute presence in the 
desert is as inconvenient now to the American people as it was 
in the 19th Century. If this bill, in its current form, 
receives favorable action from this Committee, then, I am 
afraid the answer is yes. This Congress will demonstrate that 
it has no reluctance to abrogate our treaty rights and treat 
our land as an uninhabitable wasteland.
    If tribal self-determination means anything, the Goshute 
people should be allowed to make their own decisions about 
economic development on their reservation land. If access to 
the reservation is denied by legislation such as H.R. 2909, 
they will never have that opportunity.
    I would like to turn the rest of my time over to Tim 
Vollman, our tribal attorney.
    Mr. Vollman. Thank you.
    Congressman Bishop raised an issue with the Air Force 
witness about unrestricted access for UTTR. I would like to 
point out that the final environmental impact statement on the 
spent nuclear fuel storage facility on the Skull Valley 
Reservation, dated December 2001, states: the Air Force agrees 
that an accident is unlikely and has asked that the FEIS state 
that there is no foreseeable reason why the facility owners or 
the NRC should ever require or seek any changes in the 
operation of the UTTR.
    The statement's response to that is that no overflight 
restrictions are being contemplated to accommodate the proposed 
Private Fuel Storage facility. The issue of the safety of this 
facility is now, as pointed out by a number of witnesses, the 
subject of proceedings before the Nuclear Regulatory 
Commission, and the issue of the consequences of a crash and 
the safety of overflights will be the subject of a hearing 
before the Atomic Safety and Licensing Board, previously 
scheduled for this December, now postponed but likely to be 
early next year.
    I submit that, on behalf of the band, that this bill, to 
the extent that it tries to address these issues, is premature 
for the additional reason that we need to see what the Nuclear 
Regulatory Commission will decide regarding these safety issues 
and that if it certifies this facility as safe with respect to 
the overflights by F-16s out of Hill Air Force Base that the 
provisions of this bill will be unnecessary.
    [The prepared statement of Mr. Bear follows:]

                 Statement of Leon D. Bear, Chairman, 
           Skull Valley Band of Goshute Indians, on H.R. 2909

    I am Leon Bear, Chairman of the Skull Valley Band of Goshute 
Indians, who reside in the West Desert of Utah. I appreciate the 
Chairman's invitation to testify before the Subcommittee on H.R. 2909. 
Whatever the intended purpose of this legislation, I must advise you 
that several provisions in the bill, as introduced, would deny access 
to the Skull Valley Indian Reservation, which was created pursuant to 
an 1863 Treaty with the United States. As explained by this testimony, 
this bill is but the latest in a series of efforts by Utah political 
leaders, led by Governor Mike Leavitt, to deny Goshute treaty rights.
    H.R. 2909 purports to be designed to ensure the continued 
availability of the Utah Test and Training Range (UTTR) to support the 
readiness and training needs of the Armed Forces. The UTTR, as 
described in this bill, includes the Skull Valley Indian Reservation 
within its boundaries. But never mind. My family and I live on the 
Reservation, and almost daily, for many years, we have heard F-16s roar 
across the valley floor, often only a few hundred feet above our 
village.
    The UTTR is superimposed across millions of acres of Goshute 
aboriginal territory, as described in the 1863 Treaty. The Treaty 
recognized this area as the Goshute homeland, in return for my 
ancestors' permission for the cavalry, wagon trains, railroad and pony 
express to cross over these lands. The Treaty did not relinquish 
Goshute title or use of this tribal homeland. Our leaders merely 
conveyed critical access to facilitate the westward continental 
migration of the people colonizing Indian Country. Now, without our 
consent, the non-Indian leaders of Utah continue to attempt to deny the 
Skull Valley Goshute people access to their own Reservation.
    But this is nothing new to the Goshute people.
    Notwithstanding the limited language of the 1863 Treaty, settlers, 
miners, missionaries and the military immediately encroached on Indian 
hunting and gathering grounds, pushing the Goshute people aside. By the 
early 20th century, their numbers had dwindled to a few hundred people. 
The Treaty authorized the President to set aside Reservations for our 
protection, but it was not until 1917 that President Woodrow Wilson 
proclaimed a reservation for the Skull Valley Band. Subsequent 
executive orders and statutes have identified a total of only 18,000 
acres of desert at the foot of the Stansbury Mountains for our 
Reservation.
    Then came World War II and the Cold War. The military presence in 
the West Desert expanded to include, not just Air Force training, but 
the manufacture and testing of chemical, biological and nuclear 
weapons. To the south of the Reservation lies Dugway Proving Grounds; 
to the east: Tooele Chemical Depot; to the west and north: the UTTR.
    Looking for weapons of mass destruction? You need look no further 
than Goshute territory. In the 1960s chemical weapons testing killed 
several thousand sheep which were secretly buried on the Skull Valley 
Indian Reservation. After their discovery years later, the Tribe 
entered into a Cooperative Agreement with the Department of Defense to 
remove the contaminated carcasses.
    In recent years the Utah West Desert has become home to all forms 
of toxic waste disposal, both military and commercial. Indeed, Tooele 
County zoned the area surrounding the Skull Valley Reservation for 
toxic waste dumping. Little wonder that the Reservation has not been 
viewed as a prime area for economic development. Also, we have been 
isolated. The Reservation lies 25 lonely miles down Skull Valley Road 
south from Interstate 80. We are a 70-mile drive from the Salt Lake 
City Airport, on the west side of the Stansbury Mountains and the 
Deseret Peak Wilderness Area. There is currently no significant 
commercial development on the Reservation. Most of our people have been 
forced to move away to seek employment.
    In the 1980s the Department of Energy began offering grants to 
Indian tribes and other communities to explore the possibility of 
storing nuclear waste. The Skull Valley Band received two such grants 
from DOE, and we learned a lot about this subject. We learned the 
difference between uranium, plutonium and transuranic waste. We learned 
about enrichment of uranium, long before North Korea and Iran brought 
this issue to American headlines. We learned about this country's 
dependence upon nuclear energy, and learned about the spent nuclear 
fuel rods from commercial nuclear reactors, which are stored in pools 
of water, on the Hudson River, not far from Manhattan Island; and on 
the Chesapeake Bay, not far from this hearing room. We learned about 
dry cask storage of these spent rods. We learned about the future 
technological potential for extracting valuable energy from this 
source.
    So, fully informed, in 1996 we entered into a lease of 820 acres of 
tribal land with a consortium of utilities (PFS) to store the spent 
fuel rods from commercial nuclear reactors. Construction and operation 
of the storage facility was dependent upon the issuance of a license by 
the Nuclear Regulatory Commission. The licensing proceedings have been 
ongoing since 1997, and we are hoping that they will conclude with the 
issuance of a license early next year. The State of Utah has opposed 
the license by intervening in this proceeding. This the State was 
entitled to do.
    However, the opposition did not stop there. Governor Leavitt 
whipped the Utah electorate into a hysterical anti-nuclear frenzy. In 
1999 he announced that he would build a ``moat'' around the Skull 
Valley Reservation. He was successful in the State Legislature over 
several years, obtaining laws which purported to give him control over 
Skull Valley Road, regulatory authority over the Reservation (and all 
Indian Reservations in Utah), and prohibiting the transportation and 
storage of high-level nuclear waste ``within the boundaries of the 
State,'' including Indian Reservations. In 2001, we joined with PFS to 
sue the Governor seeking to invalidate these laws as unconstitutional. 
We were successful. In July 2002, the U.S. District Court in Salt Lake 
City ruled in our favor, declaring these laws unconstitutional, 
specifically including the effort to build a moat around the 
Reservation. Skull Valley Band v. Leavitt, 215 F.Supp.2d 1232, 1248, 
note 10 (D. Utah 2002). The State's appeal is pending.
    Meanwhile, the former Chairman of this Committee, Congressman 
Hansen, snuck a provision into the Defense Authorization bill last 
year, which would have cut off access to the Reservation by requiring 
that no land management planning could be conducted by the Secretary of 
the Interior without the concurrence of the ``Commander in Chief of the 
Armed Forces of the State of Utah,'' namely the Governor. This would 
have prevented any rights-of-way across either of the two Goshute 
Reservations in western Utah, in effect making the Goshutes the peons 
of the State of Utah. Fortunately, this provision was not included in 
the legislation which was enacted.
    Earlier this year, we discovered, based on a review of state public 
records, that Governor Leavitt has been funding attorneys representing 
Goshute dissidents since 1997, including financing the creation of so-
called Ohngo Gaudadeh Devia (OGD), which has been litigating with the 
Band and the Department of the Interior with numerous administrative 
appeals and lawsuits, none of which have been successful. Indeed, we 
found that the State has paid at least three sets of these attorneys 
$500,000 to keep up this effort in a blatant attempt to destabilize the 
tribal government, including the freezing of tribal bank accounts.
    Now we have H.R. 2909. To Congressman Bishop's credit, and unlike 
his predecessor, he has been willing to meet with the leadership of the 
Band, and to include us in discussions of this legislation. But, as 
introduced, it contains many of the same odious provisions which 
appeared in the Hansen amendment to the Defense Authorization bill in 
the last Congress.
    Section 4(b) expressly prohibits the Secretary of the Interior from 
issuing any rights-of-way across the Federal lands surrounding the 
Reservation ``until the later of the following: (1) The completion of a 
full revision of the Pony Express Area Resource Management Plan. ... 
(2) January 1, 2015.'' Thus, for a minimum of eleven years, and perhaps 
indefinitely, there can be no new industrial or transportation 
corridors to the Reservation. The only current access to the 
Reservation is Skull Valley Road, and the Governor and Legislature have 
been trying to gain control over that road so as to build a ``moat'' 
around the Reservation.
    Section 5 of H.R. 2909 would create the Cedar Mountain Wilderness 
Area, which, according to a draft map the Congressman sent to us, would 
include Federal lands adjacent to Interstate 80 to be crossed by a 
proposed rail line to the Skull Valley Reservation. The Department of 
the Interior has already determined that those lands are not even 
appropriate for designation as a Wilderness Study Area (WSA) under the 
Federal Land Management and Policy Act, much less for Congressional 
designation as wilderness. The inclusion of these lands in the 
wilderness proposal clearly appears to be an effort to prevent the 
Skull Valley Band from obtaining this rail line.
    This is done under the justification of military readiness. We are 
not opposed to the continuation of military flights over Skull Valley, 
and share military readiness concerns, and we are willing to work with 
Congressman Bishop on the language of his bill, as long as all 
provisions which block access to the Reservation are deleted. We 
believe we have a good relationship with the Air Force, and just last 
week I met with the new Brigadier General at Hill Air Force Base, who 
agreed to cooperate with the Band. We understand that the Air Force has 
taken no position on the construction of the PFS facility on the 
Reservation. We expect the NRC licensing process to certify that the 
project is safe. Any suggestion that the agency has already denied a 
license on that basis is false. The evidentiary process continues, and 
a hearing is scheduled for this December.
    But nothing can justify cutting off access to the Skull Valley 
Reservation, which was created pursuant to a Treaty with the United 
States. Is the Goshute presence in the desert just as inconvenient now 
to the American people, as it was in the 19th century? If this bill, in 
its current form, receives favorable action from this Committee, then I 
am afraid the answer is Yes. This Congress will demonstrate that it has 
no reluctance to abrogate our treaty rights, and treat our lands as an 
uninhabited wasteland.
    If tribal self-determination means anything, the Goshute people 
should be allowed to make their own decisions about economic 
development on their Reservation lands. If access to the Reservation is 
denied, by legislation such as H.R. 2909, they will never have that 
opportunity.
                                 ______
                                 
    Mr. Radanovich. Thank you, sir. Would you please state your 
name and occupation for the record, if you would?
    Mr. Vollman. I apologize. My name is Tim Vollman. I am an 
attorney out of Albuquerque, New Mexico, and I represent the 
Skull Valley Band, and I have provided the Committee with a 
disclosure statement in compliance with your rules. You have 
that information.
    Mr. Radanovich. Thank you very much, sir, I appreciate your 
testimony and that of Mr. Bear as well.
    Mr. Bear. Thank you. May I point out one other thing 
relative to the testimony?
    Mr. Radanovich. I am afraid you are out of time. So we will 
hope to get it up during the question and answer.
    Thank you very much.
    Next is Mr. Anthony Portantino, who is a member of the 
Santa Monica Conservancy Advisory Committee from La Canada and 
Flintridge in California.
    Mr. Portantino, welcome to the Subcommittee, and you may 
begin your testimony.

  STATEMENT OF HON. ANTHONY PORTANTINO, MEMBER, SANTA MONICA 
            MOUNTAINS CONSERVANCY ADVISORY COMMITTEE

    Mr. Portantino. Thank you, sir.
    Mr. Chairman, honorable Members of Congress, my name is 
Anthony Portantino, and I am a Councilmember and the former 
Mayor of the City of La Canada-Flintridge, a city with a long 
history of respecting private property rights.
    Today, I am speaking on behalf of the Santa Monica 
Mountains Conservancy, of which I am an Advisory Committee 
member, in support of H.R. 704, the Rim of the Valley Trail 
Corridor Study Act. The Santa Monica Mountains Conservancy is 
the principal agency of the State of California charged with 
the protection of open space and natural resources for almost 
three-quarters of a million acres surrounding the Los Angeles 
Metropolitan Area.
    Since 1983, the Santa Monica Mountains Conservancy has had 
the responsibility of acquiring park and open space land, 
building trails and providing other public access improvements 
within the Rim of the Valley corridor. The importance of the 
Rim of the Valley corridor is twofold: the striking natural 
scenery and open space that still encircles the Greater Los 
Angeles area and the proximity of those natural resources to 
the 10 million residents of Los Angeles and Ventura Counties.
    In 1978, Congress established the Santa Monica Mountains 
National Recreation Area, acknowledging that it was a special 
area, almost unique in the Park System, in that the National 
Recreation Area would be administered cooperatively with the 
state, regional and local governments. That model has worked 
splendidly. There is now a seamless web of park land extending 
from the beaches of Malibu to the heights of Simi Peak, from 
the heart of downtown Los Angeles 50 miles west to Mugu Lagoon, 
which is one of the last of California's unspoiled coastal 
wetlands.
    Although the Santa Monica Mountains NRA is far from 
complete, the outlines of its success are apparent. The Federal 
Government has provided both the material and intellectual 
resources that have coalesced and stimulated much wider 
movement for the protection of the area and making it 
accessible for public recreation opportunities. The original 
authorization for the SMMNRA was $155 million, but to date, the 
Santa Monica Mountains Conservancy and California has almost 
tripled that, and the California State Parks Department has 
spent another $60 million or so and intends to spend more.
    There is every indication that including the Rim of the 
Valley Corridor within the Santa Monica Mountains National 
Recreation Area will have the same positive effect upon the 
protection of the ecological communities and the well-being of 
the human communities in northern Los Angeles and Ventura 
Counties. However, this bill does not presuppose an outcome. It 
merely directs a study, and a cooperative study at that. The 
National Park Service model has worked well for the Santa 
Monica Mountains proper and can be readily adapted for most of 
the Rim of the Valley Corridor.
    In the eastern rim of the valley, there may be 
institutional arrangements that recognize the vital role played 
by the Angeles National Forest, America's most visited National 
Forest, in protecting the San Gabriel Mountains, making them 
accessible for recreational purposes. By requiring a joint 
study by both the Secretary of the Interior and the Secretary 
of Agriculture, this bill makes it probable that what will 
emerge from the study is a method of protecting and enhancing 
this special area that will use the best resources of the 
National Park Service and U.S. Forest Service.
    Let me emphasize why H.R. 704 is so urgent. The satellite 
photos show a wreath of green, representing the Rim of the 
Valley Corridor. Land use decisions pending within the next few 
years can change all of that forever. Decisions will be made in 
that timeframe by major landowners whether or not to engage in 
park partnerships, and many times, sale for park and 
recreational purposes is a preferred choice for local property 
owners, or whether to commit the land to residential and 
commercial development.
    Local government and planning decisions need to be informed 
about whether their Federal Government is willing to protect 
this area. The introduction of similar measures in both Houses 
of Congress stimulated a rush of local interest and support. 
There is a lot of good will resting on the swift completion of 
this study. The Conservancy stands ready to commit up to 
$100,000 to fund this cost. On a personal note, this past 
Saturday, my city dedicated a trailhead access point that 
connects a residential neighborhood to the Angeles Crest 
National Forest. This property, our last and most vital 
resource, was dedicated because we did not identify it two 
decades ago.
    Although we worked collaboratively with property owners, 
the final cost to the taxpayers was three times what it should 
have been. This Saturday, Congressional representatives from 
David Dreier's office, our Congressman, was there, and it 
exemplified how important it is to work with a vision toward 
the future.
    Ninety years ago, U.S. Senator Frank Flint worked with 
Teddy Roosevelt to develop our neighborhood. We are looking for 
Congress today to help us plan for our future. There is no 
community with a greater respect for private property rights 
than ours, and we are looking for help and working with 
Congressman Adam Schiff and being a stakeholder and working 
toward the future.
    Thank you very much.
    [The prepared statement of Mr. Portantino follows:]

Statement of The Honorable Anthony J. Portantino, Council Member, City 
  of La Canada Flintridge, Member, Santa Monica Mountains Conservancy 
                    Advisory Committee, on H.R. 704

    Mr. Chairman and Honorable Members of Congress, my name is Anthony 
Portantino, I am a council member and former mayor of the City of La 
Canada Flintridge, and a member of the Santa Monica Mountains 
Conservancy Advisory Committee; I am representing the Conservancy here 
today in support of H.R. 704, the Rim of the Valley Corridor Study Act.
    The Santa Monica Mountains Conservancy is the principal agency of 
the State of California charged with protection of open space and the 
natural resources of almost three quarters of a million acres 
surrounding the Los Angeles Metropolitan Area. Since 1983, the 
Mountains Conservancy has had the responsibility acquiring park and 
open space land, building trails, and providing for other public access 
improvements within the Rim of the Valley Corridor.
    Successive state legislative amendments have expanded the territory 
of the Rim of the Valley Corridor so that it now encompasses a major 
portion of the Santa Monica Mountains, the Santa Susana Mountains, Simi 
Hills, Verdugo Mountains, San Rafael Hills, and the portion of the San 
Gabriel Mountains within the upper Los Angeles River watershed. This 
was done in recognition of the essential ecological unity of the 
mountains system in southern California and the artificiality of 
limiting protection to only a portion of it.
    The importance of the Rim of the Valley Corridor is twofold: The 
striking natural scenery and open space that still encircles the 
greater Los Angeles area, and the proximity of those natural resources 
to the ten million residents of Los Angeles and Ventura Counties.
    In 1978 Congress established the Santa Monica Mountains National 
Recreation Area, acknowledging that it was a special area, almost 
unique in the park system, in that the National Recreation Area would 
be administered cooperatively with the state, regional, and local 
governments. That model has worked splendidly. There is now a seamless 
web of parkland extending from the beaches of Malibu to the height of 
Simi Peak, from the heart of downtown Los Angeles fifty miles west to 
Mugu Lagoon which is one of the last of California's unspoiled coastal 
wetlands. Although the Santa Monica Mountains NRA is far from complete, 
the outlines of its success are apparent. The Federal government has 
provided both material and intellectual resources that have coalesced 
and stimulated a much wider movement for the protection of the area and 
making it accessible for public recreation opportunities. The original 
authorization for the SMMNRA was $155,000,000, but to date the Santa 
Monica Mountains Conservancy of the State of California has almost 
tripled that, and the California State Parks Department has spent 
another $60,000,000 or so, and intends to spend more.
    There is every indication that including the Rim of the Valley 
Corridor within the Santa Monica Mountains National Recreation Area 
will have the same positive effect upon the protection of ecological 
communities and the well-being of human communities in northern Los 
Angeles and eastern Ventura counties. However, this bill does not 
presuppose an outcome, it merely directs a study. And a cooperative one 
at that. The National Park Service model has worked well for the Santa 
Monica Mountains proper, and can be readily adapted for most of the Rim 
of the Valley Corridor. In the eastern Rim of the Valley there may be 
institutional arrangements that recognize the vital role played by the 
Angeles National Forest--America's most visited National Forest--in 
protecting the San Gabriel Mountains and making them accessible for 
recreation purposes. By requiring a joint study by both the Secretary 
of the Interior and the Secretary of Agriculture, this bill makes it 
probable that what will emerge from the study is a method of protecting 
and enhancing this special area that will use the best resources of the 
National Park Service and the U.S. Forest Service.
    Although the Administration expressed concern about the number of 
park studies being undertaken, it did not oppose the identical bill 
that passed the Senate earlier this year.
    Let me emphasize why H.R. 704 is so urgent. While the satellite 
photos of southern California still show the wreath of green 
represented by the Rim of the Valley Corridor, land-use decisions 
pending within the next few years can change all of that forever. 
Decisions will be made in that time frame by major landowners whether 
or not to engage in park partnerships--and many times sale for park and 
recreation purposes is a preferred choice for local property owners--or 
whether to commit the land to residential and commercial development. 
Local government planning and zoning decisions need to be informed by 
whether there will be a Federal initiative to protect this area. The 
introduction of similar measures in both houses of Congress last year 
stimulated a rush of local interest and support. There is a lot of good 
will resting on the swift completion of the study.
    The Santa Monica Mountains Conservancy stands ready to help in any 
way we can. Our data bases, planning studies, and personnel will all be 
made available. Even more significantly, the Conservancy is prepared to 
match the federal government dollar for dollar (up to $100,000) to help 
fund the cost of this study.
    On a personal note--this past Saturday, my city, La Canada 
Flintridge, dedicated a trailhead access point that connects a 
residential neighborhood with the Angeles Crest National Forrest and 
the Rim of the Valley Trail. This property, our last and most vital 
trailhead, was threatened by development because my City did not spend 
the time and resources two decades ago to identify it's importance.
    Although we worked collaboratively with the property owner, the 
final cost to taxpayers was three times what it should have been had we 
shown the foresight that Congress is now so laudably contemplating to 
enact. We have since rectified our lack of vision by establishing a 
Trails Resources and Protection Committee that is planning for the 
preservation and acquisition of open space for the next two decades 
much like you are considering doing today.
    Our success on Saturday, attended by Congressional Representatives 
and State Legislators, exemplifies how important it is to work with a 
vision toward the future. As the population of Los Angeles County 
continues to dramatically increase, it is so much better to plan in 
advance of that growth and its demands than to react to it.
    Mr. Chairman, this concludes my statement and I would be happy to 
address any questions the Committee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much for your testimony, Mr. 
Portantino.
    Next is Mr. Mike Hardiman, who is Legislative Director for 
the American Land Rights Association here in Washington.
    Mr. Hardiman, you may begin your testimony.

STATEMENT OF MIKE HARDIMAN, LEGISLATIVE DIRECTOR, AMERICAN LAND 
              RIGHTS ASSOCIATION, WASHINGTON, D.C.

    Mr. Hardiman. Thank you, Mr. Chairman. The American Land 
Rights Association was founded in 1977 by private property 
holders in California. It now has membership in all 50 states 
concerned with both private property rights and public lands 
multiple use and access. I have been a land holder in Imperial 
County since 1990. I have submitted letters from 34 Los Angeles 
area residents, including property owners and recreational 
users in and near the proposed study region. All of these very 
strongly oppose H.R. 704.
    Mr. Chairman, there is a remarkable difference between the 
claims made by supporters of this bill versus the reality of 
National Park Service actions in this and other nearby park 
units under the same regional management. Recreation: H.R. 
704's sponsor, Congressman Adam Schiff, who is here today, said 
Los Angeles has, quote, one of the lowest ratios of park and 
recreation lands per thousand population of any area in the 
country.
    However, a Park Service regional takeover under H.R. 704 
will most likely reduce recreational access. John Williams from 
San Bernardino, a former Park Service employee, writes to the 
Committee, quote: I am currently finishing a historic 
interpretive sign project on the old ridge route, the original 
highway that ran from Bakersfield to Los Angeles. Williams 
predicts that, quote, the Park Service's excuse for shutting 
down this access route will be that it does not meet Federal 
highway standards and is a liability risk. This is what the 
Park Service did here in 1991, when he was employed by the Park 
Service, when they took over an old Boy Scout camp, shut down a 
road open since 1932, thus eliminating public access to that 
part of the recreation area.
    Ed Waldheim from Glendale, President of the California Off-
Road Vehicle Association, writes that the National Park Service 
is anti-access and should not have an expanded role in Southern 
California, in particular considering its lack of maintenance 
of existing facilities.
    Mr. Chairman, the term recreation does not even appear in 
the bill as a need for the purpose of H.R. 704. Dealings with 
property owners: Pat Tiller of the National Park Service 
testified on March 20, 2003, the that Santa Monica National 
Recreation Area has become a model of collaboration with many 
private property owners. Former Santa Monica Mountains resident 
Donald Scott may disagree. The reason I say former is because 
Donald Scott is dead. After Scott refused to sell his land to 
the Park Service, the NPS trumped up marijuana growing charges 
against him, led a raid on his home in October of 1992. Scott 
was shot and killed by a Los Angeles County Sheriff who had 
joined the Park Service on the raid.
    Eight years later, in 2000, the Park Service and the 
Sheriff's Department jointly reached a multimillion-dollar 
wrongful death settlement with Scott's widow, Frances. No drugs 
were ever found; no charges were ever made against the Scotts. 
Unfortunately, this disgraceful episode is not unique. On one 
of the Channel Islands, just off the coast of Los Angeles, the 
Graney family was running a successful recreation business of 
just the type that NPS claims it wants to see, including 
kayaking, mountain biking, hiking and bow hunting as part of a 
bed-and-breakfast operation.
    However, the NPS wanted the entire island to themselves and 
saw that the Graneys, who lived on the island since 1869, were 
not going to leave voluntarily. So they took things into their 
own hands. In January of 1997, the Park Service landed two 
helicopters with 20 armed agents on the island. As in the Scott 
case, once again, trumped up charges were used to justify the 
raid, which included misdemeanors such as an expired work 
permit and operating a stove without a license.
    This time, at least, no one was killed, but the Graneys' 
business was ruined, because tourists were, understandably, 
petrified to go to the island anymore.
    It is only a study. Joe Edmonston of the Santa Monica 
Mountains Conservancy claimed in Senate testimony earlier this 
year that, quote, this bill does not presuppose an outcome. It 
merely directs a study. Well, consider this: when the Park 
Service began a study of the nearby Gaviota coast in Santa 
Barbara County in 1999, they promised openness, but that is not 
what happened. Here is a confidential statement written by NPS 
Study Director Ray Murray just after the study began, quote: we 
can shield sensitive info in several ways away from freedom of 
information requests and subpoenas. I will clarify and lay out 
our options. Often, we can mark documents and materials as 
predecisional.
    Letters dating back as far as 1994 demonstrate that the 
Park Service was pushing for a park unit for the area many 
years before the study began. This study was slated for 3 
years, but it is behind schedule and over budget and will take 
approximately 5 years to complete. This leaves property owners 
with a regulatory cloud over their land and with many plans on 
hold for all that time.
    In conclusion, H.R. 704 has significant regional opposition 
from property owners and public access community leaders. Up to 
this point, they have had no idea what the Park Service and the 
Conservancy have had in store. Supporters should go back to the 
drawing board and, this time around, begin an inclusive 
discussion process. There is no need for this bill.
    [The prepared statement of Mr. Hardiman follows:]

         Statement of Michael Hardiman, Legislative Director, 
             American Land Rights Association, on H.R. 704

    The American Land Rights Association was founded in 1977 by private 
property inholders in California, and now has membership in all fifty 
states concerned with both private property rights and public lands 
multiple use and access. I have been an inholder in Imperial County 
since 1990.
    I have submitted letters from thirty-four Los Angeles area 
residents, including property owners and recreational users in and near 
the proposed study region. All of these very strongly oppose H.R. 704.
    Mr. Chairman, there is a remarkable difference between the claims 
made by supporters of this bill, versus the reality of National Park 
Service (NPS) actions in this and other nearby park units under the 
same regional management.
Recreation:
    H.R. 704's sponsor Congressman Adam Schiff has said Los Angeles has 
``one of the lowest ratios of park and recreation lands per thousand 
population of any area in the country.'' However, a Park Service 
regional takeover under H.R. 704 will most likely reduce recreational 
access.
    John Williams from San Bernardino, a former Park Service employee, 
writes to the Committee, ``I am currently finishing a historic 
interpretive sign project on the Old Ridge Route, the original highway 
that ran from Bakersfield to Los Angeles.'' Williams predicts that 
``the Park Service's excuse for shutting down this Route will be that 
it doesn't meet federal highway standards and is a liability risk. That 
is what the Park Service did here in 1991 when they took over an old 
Boy Scout camp--shut down a road open since 1932, thus eliminating 
public access to that part of the recreation area.''
    Ed Waldheim from Glendale, President of the California Off Road 
Vehicle Association, writes that ``The National Park Service is anti-
access and should not have an expanded role in Southern California, in 
particular considering its lack of maintenance of existing 
facilities.''
    The term ``recreation'' does not even appear in the bill as a need 
or purpose for H.R. 704.
Dealings with property owners:
    Pat Tiller of the Park Service testified in March 2003 that the 
Santa Monica National Recreation Area ``has become a model of 
collaboration'' with ``many private property owners.''
    Former Santa Monica Mountains resident Donald Scott may disagree. 
The reason I say ``former'' is because Donald Scott is dead. After 
Scott refused to sell his land to the Park Service, the NPS trumped up 
marijuana growing charges against him, and led a raid on his home in 
October of 1992. Scott was shot and killed by a Los Angeles County 
Sheriff, who had joined the Park Service on the raid.
    Eight years later, in 2000, the Park Service and the Sheriff's 
Department finally reached a multimillion dollar wrongful death 
settlement with Scott's widow, Frances. No drugs were ever found.
    Unfortunately, this disgraceful episode is not unique. On one of 
the Channel Islands just off the coast of Los Angeles, the Gherini 
family was running a successful recreation business of just the type 
that NPS claims it wants to see, including kayaking, mountain biking, 
hiking and bow hunting as part of a bed-and-breakfast operation. The 
NPS wanted the entire place to themselves, and saw that the Gherini's, 
who had lived on the island since 1869, were not going to leave 
voluntarily. So they took things into their own hands.
    In January of 1997, the Park Service landed two helicopters with 
twenty armed agents on the island. As in the Scott case, once again 
trumped up charges were used to justify the raid, which included 
misdemeanors such as an expired work permit and operating a stove 
without a license.
    This time, no one was killed. But the Gherini's business was ruined 
because tourists were petrified to go to the island anymore.
It's only a study:
    Joe Edmiston of the Santa Monica Mountains Conservancy claimed in 
Senate testimony earlier this year that ``this bill does not presuppose 
an outcome, it merely directs a study.''
    Well, consider this. When the Park Service began a study of the 
nearby Gaviota Coast in Santa Barbara County in 1999, they promised 
openness, but that is not what happened. Here is a confidential 
statement written by NPS study director Ray Murray just after the study 
began:
    ``We can shield sensitive info in several ways from Freedom of 
Information Requests and subpoenas. I'll clarify and layout our 
options. Often we can mark documents and materials as `Pre-
Decisional'.''
    Letters dating back as far as 1994 demonstrated that the Park 
Service was pushing for a park unit for the area, many years before the 
study began.
    This study was slated for three years, but it is behind schedule 
and over budget, and will take approximately five years to complete. 
This leaves property owners with a regulatory cloud on their land, and 
with many plans on hold for all that time.
    In conclusion, H.R. 704 has significant regional opposition from 
property owners and public access community leaders. Up to this point, 
they have had no idea what the NPS and the Conservancy have had in 
store. Supporters should go back to the drawing board and this time 
around, begin an inclusive discussion process.
    [NOTE: Attachments to Mr. Hardiman's statement have been retained 
in the Committee's official files.]
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Hardiman. That 
ends the testimony of the people invited to the Committee and 
opens up time now for questions from members of the panel.
    I am going to recognize Mr. Bishop from Utah to begin the 
questions.
    Mr. Bishop. Thank you. I appreciate that again, Mr. 
Chairman.
    Mr. Johnson, I appreciate your being here and talking about 
the inclusion process. In the view of the states, can you think 
of any player that we have not tried to include in the process 
in coming up with this particular bill which we should have?
    Mr. Johnson. No, I think you have been very thorough, and I 
congratulate you on your efforts to include everyone in those 
discussions. As you know as a Congressman, the Governor is in a 
very difficult situation, because he represents all of the 
stakeholders involved in these public lands issues, and so, he 
represents those who love wilderness, those who hate it, those 
who are wonderful members of the Goshute tribe who want 
nuclear, those who do not; those who want access; those who 
want no access, and you know how difficult of a balance that 
is.
    And so, having as many players at the table as you have and 
trying to carve this out in an appropriate way is to speak well 
of your efforts.
    Mr. Bishop. I appreciate your statement of support that the 
State has for the Utah Test and Training Range. As a former 
county commissioner of a county with a great deal of public and 
Federal lands within the boundaries of that county, even though 
we do have, at the present time, a warm working relationship 
between the Bureau of Land Management, the Air Force and other 
entities who are out there in that particular area, could you 
see an advantage for codifying that relationship to make sure 
that in the future, things do not change based on personalities 
who may change?
    Mr. Johnson. Yes; I think that in the 10 years that I 
served in public office as an elected official, I saw many 
changes in perspective as agency personnel changed, as elected 
officials changed, and sometimes interpretations of rules and 
law are manifested in different ways. And it is always good to 
have surety in the management of these things. I think that the 
thing that stands out in my mind in our support of this is that 
Utah, with over 70 percent of its land base being public lands 
and being such a large provider of minerals that are essential 
not only to the State but to the Nation as well as the military 
applications and all of the other kinds of things that occur 
and are relied upon on public lands, it would be well for the 
State and the citizens of the State to have something that sets 
a good precedent that these things can coexist and operate 
side-by-side.
    And I think that is always a fear for, especially, local 
elected officials that, say, have a power plant in their 
county, or they have, you know, a coal mine in their county, or 
like the UTTR facility up there. It is always a worry that, you 
know, different encroaching rules and regulations are going to 
create economic difficulties and problems in continuing to 
function with those things, and surety is a very good thing. 
So, yes, sir.
    Mr. Bishop. Thank you.
    Mr. Groene, I noticed in your written testimony that you 
said the presence of such sites, meaning communication towers 
and facilities, are inconsistent with the Wilderness Act. That 
is exactly what you mean? You are sticking with that point?
    Mr. Groene. Said that it would diminish wilderness 
characteristics.
    Mr. Bishop. OK; so, as we look at that map, on anything 
that is Wilderness Study Area, which is shaded, everything that 
is a triangle is a communication site. So each of those 
diminish and, once again, is inconsistent with the concept of 
wilderness.
    Mr. Groene. Well, our understanding has been that there are 
two sites right now inside wilderness study areas, and I am not 
quite sure on this, but I understand at least one of them, the 
understanding was put in that it would be removed if the area 
was designated as wilderness.
    Mr. Bishop. Actually, every triangle is a site, so you have 
a whole lot more than just two that you are dealing with in 
this area. I also want to thank you for saying in your written 
testimony that you are willing to work with me to address the 
concerns that we have raised, and I hope those efforts will be 
fruitful. I hope you are standing by that.
    Mr. Groene. Certainly.
    Mr. Bishop. And I appreciate the effort of the Southern 
Utah Wilderness Alliance. They have met with me on three 
different occasions already.
    Could I just request, since you did request or refer to a 
clean bill that would be better, if the Southern Utah 
Wilderness Alliance could provide us or at least my staff with 
a draft bill that you think would be a better way of stopping 
nuclear waste coming into Utah?
    Mr. Groene. We would be happy to do that.
    Mr. Bishop. Mr. Bear?
    Mr. Bear. Yes.
    Mr. Bishop. First of all, let me give a caveat here. I 
appreciated having the chance of meeting with you, and let me 
say that as we have been trying to work with different groups 
on this particular bill, I have an apology that we should have 
hit you up and your organization sooner than we did, and I 
apologize for that. But I appreciate having the chance of 
working with you and your attorney and staff, and you have been 
very kind.
    Mr. Bear. Thank you.
    Mr. Bishop. And the words that you put in your written 
testimony about me, I appreciate that significantly.
    Can I ask two questions? The first one is, specifically, 
are there any kinds of cultural, native Goshute activities that 
you think should be included in any kind of wilderness proposal 
for the Cedar Mountains to be protected?
    Am I out of time, Mr. Chairman?
    Mr. Radanovich. Go ahead and finish your question, and 
then, we will move on.
    Mr. Bishop. Well, let me give these last two ones, and I 
will do that. First, that was the first one, and maybe a yes or 
no would be easy.
    Second one is very simple to this one, and it is the Atomic 
Safety and Licensing Board talking about the proposed site said 
the Board said that there was a credible--that therefore, a 
credible event--there was a credible possibility of an accident 
taking place on that site and therefore a credible event and 
that no license could be issued until PFC proves that its 
proposed facility could withstand such an accident. If PFC 
should choose to pursue the matter--and that is part of the 
issue that is still going before there--in addition, we have 
provided testimony that was presented by the State of Utah on 
September 18, which has six separate expert assessments of 
simulation aircraft accidents happening on this particular 
site, in each case on above-ground, high-level nuclear waste 
storage casks with catastrophic results, as decided by a system 
of scientists who are in Purdue, and that will be expanded in 
the future.
    If those studies are accurate that the level of safety is 
above the mathematical level of acceptability that the Atomic 
Safety Licensing Board will accept, is the Goshute Band still 
persisting or willing to continue on with their pursuit of this 
particular site?
    Mr. Bear. OK; let me answer the first question, and the 
answer to that is yes, there are significant cultural and 
traditional affiliations to the land out there in the Cedar 
Mountain Range. Actually, the Goshute Tribe used to roam that 
area. We roamed in 7.3 million acres of the West Desert. And 
so, that is a significant site, the Cedar Mountain Range.
    Second, yes, the tribe, as far as the economics, we will 
move forward, and apparently, we would have moved forward with 
this issue. We started this issue back in 1989 with the DOE, 
with the MRS, learning about storage of spent fuel, and the 
tribe has taken--has put in a lot of years on this training. 
And, of course, this process here, the license process, has 
taken longer than the tribe had expected. It has taken up to 7 
years. And that is just to make sure that everything is kosher 
with the regulations and the NRC.
    Mr. Bishop. Thank you, Mr. Bear. I apologize for throwing 
those out very quickly.
    And, Mr. Chairman, thank you for allowing me to go over.
    Mr. Radanovich. That was the longest question I have ever 
heard, Mr. Bishop.
    [Laughter.]
    Mr. Radanovich. The Chair recognizes Mr. Schiff for 5 
minutes.
    Mr. Schiff. Thank you, Mr. Chairman. I will not use the 
full 5 minutes.
    I want to thank the gentleman from La Canada, Councilmember 
Portantino, for coming and testifying today, and I would merely 
like to point out that this bill is not a new bill. We 
introduced this bill last session. It passed in the full 
Senate. It was reintroduced at the beginning of this year. It 
again passed in the Senate.
    So this is not a new idea, and we have encountered no 
regional opposition at all, notwithstanding the letter or two 
that has been provided to us today. In fact, the communities 
that we have inquired about in the region are all in support. 
The city of Burbank has passed a resolution in support. The 
city of Glendale has passed a resolution in support. La Canada 
has passed a resolution. Pasadena has. South Pasadena has. The 
representatives of the area, on a bipartisan basis, support the 
measure. And we have encountered, really, no opposition up 
until the comments of the gentleman from the American Land 
Rights Association.
    As the gentleman from the Park Service mentioned, if the 
study is approved, there will be an extensive public comment 
period, and there will be ample opportunity for anyone that has 
any concern to raise that. We really do not presuppose an 
outcome, but we would like to have these two agencies put their 
heads together and decide what best framework can manage and 
preserve the resources in the area, and we plan to be fully 
respectful of any private property interests and would very 
much look forward to the opportunity to work with the Committee 
on this legislation, and I thank the Chairman, and I yield back 
the balance of my time.
    Mr. Radanovich. Thank you, Mr. Schiff.
    Mr. Cannon?
    Mr. Cannon. Thank you, Mr. Chairman. I would like to thank 
the witnesses for being here today, including Mr. Vollman, whom 
I have not seen for maybe 20 years but who gave me my 
introductory law course in Indian law some time ago.
    Mr. Groene, I received a phone call from your Executive 
Director, Larry Young, who indicated that your testimony would 
be slightly antagonistic but that he wanted to express your 
group's view that you would like to work on the issue.
    I am not interested in where you want to end up, 
particularly, on this, but have you actually--let me just say 
that in recent years, the communications have been much better 
with the Southern Utah Wilderness Alliance, and I appreciate 
that. But in this case, have you all internally looked at where 
you want to end up, evaluated that in the context of what is 
possible, because there is very little that is new here today 
and are, in fact, interested in actually moving toward a--or do 
you think that there is a solution that we can agree on 
ultimately?
    Mr. Groene. I can tell you that I think that our 
involvement has always been with the intent of trying to find a 
result that we could live with as legislation.
    Mr. Cannon. So we do not have anything new in mind as we go 
forward on this one.
    Mr. Groene. I am sorry?
    Mr. Cannon. You do not have anything new in mind as we go 
forward on this one?
    Mr. Groene. Anything new in mind?
    Mr. Cannon. That might lead us to an actual bill that would 
be passed, that you can support.
    Mr. Groene. Well, I think that, as you say, the 
discussions, I think, have been good, you know, and between our 
offices, and we have appreciated that.
    On this, our position right now at the hearing has been 
that this may be premature, because we were not able to measure 
what this legislation would mean for the West Desert Wilderness 
absent a map and clarifications on some of the language.
    Mr. Cannon. Thank you; I appreciate that.
    Mr. Johnson, you quoted the Governor talking about how the 
extremes do not ever work out and mentioned the Governor's 
principles in Libra or in balance. I do not mean to put you on 
the spot particularly, but do you have a way of describing the 
extremes other than the position taken by parties that are most 
opposite that would, say, take into account the reasonableness 
of the positions at the philosophical extremes?
    Mr. Johnson. Do I have a way of describing those extremes?
    Mr. Cannon. Or I heard the Governor talking about it.
    Mr. Johnson. Sitting with a tape recorder running, you are 
wanting me to describe the extremes?
    [Laughter.]
    Mr. Johnson. No, I think the Governor's position and 
certainly mine in the years that I have been involved with this 
is that we tend to have polarized with really quite extreme 
views on both sides of these issues and that the result of that 
polarization is that we do not get anything done.
    I think on any issue, whether it is public lands or not, 
and it is most apparent in public lands issues, that really is 
unfortunate. It is very unfortunate. And I believe that we have 
slowly started to pull away from those polarized positions, and 
we are starting to work more toward some consensus-building and 
some collaborative efforts that are starting to erode, you 
know, that long polarization. I think that is good; it is 
healthy; and it is important that we do that.
    But this, in our opinion, we have largely been held hostage 
by extremes in the State of Utah for quite some time on public 
lands management issues, and I think we need to resolve that. I 
think the fact that Mr. Bishop has talked to so many people 
about this bill and that he is trying to create a situation 
where, you know, these economic issues and mineral issues and, 
you know, good, beautiful land issues can be proven to coexist 
side-by-side and sometimes overlap, I think that is a very good 
thing.
    Mr. Cannon. Thank you, and I yield back, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Cannon.
    I have got a couple of questions for Mr. Portantino. I just 
wanted to ask you, my experience in Washington and on private 
property rights issues have been interesting, and I have 
learned a lot from some of the folks who live in the Eastern 
United States, where there is a very small percentage of 
Federal landownership. And we were trying to demonstrate to 
them their idea when someone from New York puts in a bill to 
take half of Utah and put it in the public land system, and I 
always point out the state park, which is the Adirondack State 
Park in New York, which is a huge park, and suggest that they 
submit a bill putting that into the Federal park system, and 
they say, well, we feel that in New York, we can better manage 
our resources at the state level.
    [Laughter.]
    Mr. Radanovich. And, you know, it does come to mind on 
this, because I understand in your testimony that there was 
some state participation in the original Rim of the Valley 
legislation and would like to get an idea from you of why 
that--what is the history of it? Why do you think it should be 
national?
    It has been my experience, quite frankly, that the farther 
away the land manager, the more anti-access that they get and 
that you might not be realizing what you are getting by asking 
for more involvement in something like this. So I guess my 
statement or my question is what was the role of the State in 
the formation of the Rim of the Valley and why not seek a state 
level for the expansion of something like this?
    Mr. Portantino. Well, I think I will take the second part 
first. This particular area has interest from local, state and 
national organizations. I mean, we are at the foot of the 
Angeles Crest National Forest. We are within the sphere of 
influence of the Santa Monica Mountains Conservancy. The local 
communities all have land within our jurisdiction that abuts 
this land. So I think when you have so many different interest 
holders touching each other and in some cases overlapping each 
other, it just makes sense to have a comprehensive plan to 
study how it impacts all of us, and my experience on the local 
level is most of our land disputes or, you know, I hate to use 
the word litigation or problems come about when we have not 
planned, when we have not identified a piece of property, when 
we have not informed the stakeholders, the property owners, of 
what is going to happen in the future. And that is when people 
are blindsided.
    So I do look at this as not presupposing an outcome and 
focusing on studies. And your question would be answered in 
great detail once you had all those stakeholders together to 
study the impact of this. And I think it is a rare location 
that has so many different interest holders, you know, 
basically on top of each other but with no comprehensive plan 
to pull them all together.
    Mr. Radanovich. You mentioned, too, in your testimony that 
the Santa Monica Mountains National Recreation Area is far from 
complete. Does this represent, the map up there, represent more 
your view of what that Recreation Area ought to be, I would 
assume?
    Mr. Portantino. Yes, it does, if you could put it back up.
    You know, again, the Santa Monica Mountains Conservancy has 
been--initially was started just along the coast with the Santa 
Monica Mountains Conservancy. And as the ecological and the 
scientific community has supported habitat migration and how 
this whole region works together, the sphere of influence of 
the Conservancy has expanded eastward and, again, with support 
of local communities. And I think that is an important point to 
emphasize, is you do have the local communities welcoming this 
study with open arms and welcoming the possible expansion of 
these influences, and just to have everybody in the room is 
just--it is a win-win, we see it. I hope that answered your 
question.
    Mr. Radanovich. Thank you, sir.
    Mr. Hardiman, from your testimony, I get the idea that the 
Park Service needs to address existing inholder matters before 
consideration is given to expanding the Recreation Area. Am I 
correct in this, and can you expand on that a little bit?
    Mr. Hardiman. Yes, thank you, Congressman.
    The Park Service generally--property owners that are 
legitimate, willing sellers are generally ignored by the Park 
Service. The Park Service holds their money aside to go after 
people who are unwilling sellers.
    Another thing I wanted to point out, Congressman Schiff 
mentioned several municipalities that have passed resolutions. 
By my reading of the map, all of those towns are exempted out 
of the study area. They are carved out of the area. So they are 
not affected by this Federal zoning overlay.
    Mr. Radanovich. Meaning that--well, there are no cities or 
towns that are within that Recreation Area, right?
    Mr. Hardiman. This massive, proposed expansion includes all 
of--essentially all of the nonurban areas. So these towns 
passing these resolutions is very nice, because they are not 
going to have to deal with the National Park Service climbing 
down their throats.
    Mr. Schiff. If the gentleman will yield.
    Mr. Radanovich. I will tell you what: I will give you time 
afterwards.
    Mr. Schiff. OK; thank you.
    Mr. Radanovich. If you would like, Adam.
    I would like to ask of the 42 percent that is private 
property ownership within the proposed area, do the property 
owners that are even within, you know, we know that this is not 
a line drawn anywhere yet officially, but do the people who are 
included in the proposed boundaries that are private property 
owners, do they have a good sense of the fact of whether they 
are in it or not yet?
    Mr. Hardiman. Well, I will refer to testimony submitted by 
Michael Lewis to this Subcommittee on September 27, a hearing 
you had out in the valley, which is in opposition to this 
legislation. Actually, the way it is now, even, the private 
landowners are the ones who provide most of the recreational 
access, sometimes in cooperation, for example, a trail head and 
a trail goes into the public lands, but for the campgrounds, 
equestrian, for the most part, the recreational access is 
permitted by private property owners, even as it is now.
    So it is a reverse situation of the more public lands you 
have, the less public recreation there is.
    Mr. Radanovich. Thank you, Mr. Hardiman.
    Just so I can get a consensus from the Committee--I am 
going to recognize you, Adam, for 5 minutes--will there be any 
other people asking questions?
    OK; you are recognized for 5 minutes, Adam.
    Mr. Schiff. Thank you, Mr. Chairman.
    Just a couple quick points. First of all, I do not think it 
is accurate to say that the cities are not included within the 
boundaries of the Rim of the Valley. There are some areas, for 
example, the Arroyo Seco that goes right down through the heart 
of Pasadena and South Pasadena. So these cities do very much 
have an interest in the management of the resources and having 
an ability to work cooperatively with authorities on the local, 
state and Federal levels.
    Moreover, you know, I think that the Chairman's point is a 
very good one in the sense that many of these issues are very 
geographic-dependent, and in some areas, there has been a very 
positive relationship between the Park Service and the local 
communities and the private landowners; in some areas, it has 
not been very good. The track record in the Santa Monica 
Mountains Recreation Area, I think, has been very good, as the 
gentleman from the Park Service alluded.
    There has been very strong cooperation within the existing 
area, which is, I think, why, on a bipartisan basis, the 
members of our delegation from Southern California are 
supportive of the legislation. Had it been otherwise, had there 
been a lot of problems in our region, I do not think that would 
have been the case. But the track record has been a positive 
one for the communities, whether they are very conservative, 
like La Canada, or they are more progressive, like Burbank, 
which is sort of half and half, are all supportive that have 
provided input, and I would assume that, in fact, I would be 
surprised if any of the communities took any position other 
than support.
    Mr. Radanovich. If you would yield, I would have a question 
of you, Adam, and that would be are the private property owners 
that are included in the proposed boundary, do they live in any 
of the incorporated cities that have come out and endorsed this 
project?
    Mr. Schiff. Well, I mean, there are certainly areas, I 
would imagine, and I have not gone parcel-by-parcel, but 
certainly areas within--I know, for example, which goes up into 
the foothills within La Canada, which is--are there areas of La 
Canada that are also within the Rim of the Valley?
    Mr. Portantino. Yes; we have about 1,000 acres that go 
right into the Angeles Crest National Forest within our sphere 
of influence that are not developed currently, just 1,000 
acres. And half of it is owned by public entities, and half of 
it is owned by private entities.
    And I had one other point, if I could, Mr. Schiff: we just 
bought a piece of property from a private property owner that 
was going to develop and deny access, recreational access, and 
by the city in cooperation with the Santa Monica Mountains 
Conservancy purchasing that access to the Angeles Crest 
National Forest, we are actually making it available for 
recreational use where it would have been prevented.
    Mr. Radanovich. Thank you.
    You have the time, Adam.
    Mr. Schiff. Well, I thank the gentleman. I really just 
wanted to add, in conclusion, to thank the Chairman for 
allowing me to participate on the panel as well as earlier, so 
thank you, and I yield back the balance of my time.
    Mr. Radanovich. Certainly.
    I want to thank the gentlemen for your testimony here 
today. It has been very valuable. I appreciate your making the 
trip to Washington, and that concludes, since we have no more 
panels, all of the testimony that we are receiving today. I 
want to thank you very much, and this hearing is ended.
    [Whereupon, at 4:06 p.m., the Subcommittee adjourned.]


</pre></body></html>
